<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 6, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Cochran, Shelby, Alexander, Moran, 
Capito, Lankford, Kennedy, Rubio, Murray, Durbin, Reed, 
Shaheen, Merkley, Schatz, Baldwin, Murphy, Manchin, and Leahy.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. BETSY DeVOS, SECRETARY


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order. Good morning to everybody.
    Particularly good morning, Secretary DeVos, to you, and 
thank you for appearing before the subcommittee today.
    This is a difficult budget request to defend. Just over a 
month ago, the Congress overwhelmingly passed, and the 
President signed into law, an appropriations bill that included 
$161 billion in discretionary funding for this subcommittee.
    While that was $1 billion less than we had the year before, 
we were able to eliminate programs and prioritize programs in a 
way that allows us to do things like return to year-round Pell, 
the first time in 9 years, where students who begin this fall 
will have the opportunity to have the Pell Grant available to 
them year-round.


                the president's fiscal year 2018 request


    This year, the fiscal year 2018 budget request proposes a 
significant funding decrease in Labor and Health and Human 
Services (HHS), approximately $24 billion below what we are 
spending in the current year in the agencies that are reflected 
in the work of this subcommittee. That is a 15 percent cut 
below the bill we passed at the end of April.
    For the Department of Education, the proposal includes 
approximately $59 billion, which is a $9.2 billion reduction. 
You know, you not only get to start with a new look at the 
Department of Education, but also with a new look at what we 
should be doing. We are glad you are here to talk about that.
    But I think it is likely that the kinds of cuts that are 
proposed in this budget will not occur. So we really need to 
fully understand your priorities and why they are your 
priorities.
    The Committee will continue to have priorities. I think 
that the significant reductions to programs like Career and 
Technical Education, TRIO, and Federal Work Study will make it 
harder for students to get into and complete college and to go 
into well-paying jobs. The outright elimination of several 
large formula grant programs, like the 21st Century Community 
Learning Centers, I think, will be all but impossible to get 
those kinds of cuts through this Committee.
    But you were given this budget, and I know you had some 
input, but your input would have been late and your view of 
these issues, as you get a chance to run the department every 
day, will bring the ability to bring more and new information 
to the Committee.
    Over the last 2 years, this subcommittee has increased 
funding for charter schools from $253 million to $342 million. 
I am interested to learn more about your broader proposals for 
more choice in school.
    And, finally, I think many of the members on this Committee 
look forward to realigning the Department of Education's role 
in the education system generally. I believe education systems 
should be made closer to students and families and local school 
districts. Often, I think the State capitol in my State or 
other States, is too far away for many of these decisions to be 
made. And certainly, Washington, D.C., would be an even bigger 
challenge to make decisions that affect students and their 
families and their education all over the country.
    So we look forward to hearing your testimony today. I am 
sure we will have a lively discussion.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary DeVos, for appearing before the 
Subcommittee today to discuss the Department of Education's fiscal year 
2018 budget request.
    This is a difficult budget request to defend. Just over a month ago 
Congress overwhelmingly passed, and the President signed into law, an 
appropriations bill that included $161 billion in discretionary funding 
for this Subcommittee, which was $1 billion less than fiscal year 2016. 
That funding allowed us to provide modest increases for several 
priorities, including restoring Year Round Pell at the Department of 
Education. But it also required difficult decisions, and the reduction 
or elimination of dozens of programs. Simply put, this Subcommittee 
made tough choices to prioritize funding in a difficult budget 
environment.
    This year, the fiscal year 2018 budget request proposes a 
significant funding decrease for the Labor/HHS bill, approximately $24 
billion below fiscal year 2017. That is 15 percent below the bill we 
passed just last month.
    For the Department of Education, the proposal includes 
approximately $59 billion, a $9.2 billion reduction. I agree that there 
are many places in the Department's budget we should look to for 
savings. You bring a fresh perspective to the budget and I hope we can 
work together to identify programs that are ineffective and inefficient 
and put that funding to better use elsewhere.
    However, such a significant cut to the Department's budget is 
likely untenable. In reviewing this budget request it is difficult to 
know whether you made cuts because you believe the programs are truly 
ineffective or because your budget number required these reductions 
just to reach the bottom line.
    For example, I believe significant reductions to programs like 
Career and Technical Education, TRIO, and Federal Work Study will make 
it harder for students to get into and complete college, and go on to 
well-paying jobs. The outright elimination of several large formula 
grant programs, like 21st Century Community Learning Centers, would be 
all but impossible to get out of this Subcommittee. The budget also 
makes cuts proposed by previous administrations that have never been 
accepted by Congress, like the reduction to Impact Aid Payments for the 
Federal Property program. Finally, the proposal eliminates several 
smaller targeted, but important, programs like Special Olympics. This 
is an area where a small Federal investment can go a long way in 
leveraging philanthropic funding.
    These differences aside, I know we will find areas of common ground 
in the budget. This Subcommittee will want to hear more about your 
priorities, including expanding school choice. Over the last 2 years, 
this Subcommittee increased funding for Charter Schools from $253 
million to $342 million. I am interested in learning more about your 
broader proposals and perspective on these important issues.
    Finally, I look forward to working with you on realigning the 
Department of Education's role in our education system. I believe 
education decisions should be made as close to the student, family, and 
school as possible. Jefferson City is often too far away to make 
decisions impacting Missouri students, let alone making these critical 
decisions from Washington, D.C.
    Madame Secretary, I look forward to hearing your testimony today 
and appreciate your dialogue with us about these important issues.
    Thank you.

    Senator Blunt. And I am pleased to turn to my partner on 
this Committee, Senator Murray, for what comments she may want 
to make.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Chairman Blunt. And I 
also want to recognize Chairman Cochran and Vice Chairman 
Leahy, who are with us.
    And thank you, Secretary DeVos, for joining us today.

                CONCERNS REGARDING SECRETARY'S IDEOLOGY

    Secretary DeVos, as you know, I was very clear during your 
confirmation process that I had serious concerns with your 
extreme ideological commitment to privatizing our public 
schools, your extensive financial conflicts of interest, and 
your lack of understanding of the role of the Federal 
Government in protecting the civil rights of students across 
the country.
    And I was not alone. Millions of parents and teachers 
across the country stood up. They rallied. They sent letters. 
They called their Senators, so much that the Senate switchboard 
was overwhelmed. And they made it very clear that they opposed 
your vision for our students and our schools, and strongly 
supported public education in America.
    When it came to a vote, every single Democrat voted no. We 
were joined by two of my Republican colleagues who are long-
time members of this committee and the Health, Education, Labor 
and Pensions (HELP) Committee, who cited their constituents' 
strong concerns. And the Vice President had to come and break a 
tie on a Cabinet nomination for the first time in our Nation's 
history.
    So, Secretary DeVos, I was hoping that you would enter your 
role as Secretary with an understanding that your extreme anti-
public-school agenda and your opposition to the Federal 
Government playing a role in helping students just did not have 
the support of Congress or people across the country. And I was 
hoping that instead of trying to jam it through anyway, you 
would work with us and join us at the table and share 
information and be a true partner in implementing our Nation's 
education laws, investing in our students and our teachers and 
our schools, and helping all of our students succeed.
    But, Secretary DeVos, I and many others have been extremely 
disappointed with what we have seen these past few months. You 
have not backed away from your unpopular and unsupported 
agenda. You have not made any attempt to compromise or work 
with us in good faith. You continue to allow potential 
conflicts of interest and ethical issues to exist in your 
Department. And you have refused to answer basic questions 
Democrats have asked you.
    You have backed away from commitments you made in your 
confirmation hearing. And this budget from President Trump 
today that you are here to defend, which has been attacked by 
Democrats and Republicans and people across the country, I 
believe, is just the latest example.
    So there are many issues people want answers to, from the 
people that you have hired, including your senior counselor who 
came straight from a for-profit college under multiple 
investigations and who you have now charged with overseeing 
regulations directly impacting his former employer; to the 
policies you have implemented or changed, including rescinding 
guidance protecting transgender students after telling us in 
your confirmation hearing you believed all students should be 
able to ``feel safe and free of discrimination in our 
schools''; eliminating protections for student loan borrowers; 
and a lot more.

                    CONCERNS REGARDING FUNDING CUTS

    But I am going to spend most of my time today asking you 
about your budget proposals, because they truly highlight the 
ways the policies and priorities you and President Trump are 
pushing would hurt students, would hurt our communities, and 
represent a clear broken promise to workers and the middle 
class.
    First of all, your anti-public education plans. About a 
year and a half ago, Congress overwhelmingly passed the Every 
Student Succeeds Act to finally fix the broken No Child Left 
Behind law. It was not perfect, but it was an important step to 
provide flexibility for our States and districts while 
maintaining strong Federal guardrails to make sure students 
could not fall through the cracks, no matter where they lived 
or how they learned or how much money their parents make.
    But instead of working with us to implement this bipartisan 
law and build on it, your budget proposal will continue the 
work you have already started to undercut it dramatically. 
Instead of seeking common ground in an area that should not be 
partisan, your budget proposes policies similar to those that 
were roundly rejected on both sides of the aisle during our 
ESSA (Every Student Succeeds Act) debate, like privatization 
and portability.
    In fact, after Republicans spent years lambasting the 
Department of Education for using Federal dollars as a tool for 
motivating States, and after you promised not to do this in 
your confirmation hearing when you were asked about it 
explicitly by Senator Cassidy, this budget does exactly that. 
It takes hundreds of millions of dollars from low-income school 
districts and holds it hostage unless States agree to your 
extreme ideological agenda.
    So I am going to be asking you to explain that.
    And I want further clarity on your very confusing 
statements regarding whether or not you believe your 
privatization plans for the EIR (Education Innovation and 
Research) program could cause students to lose their Federal 
civil rights protections.

        PROPOSED REDUCTIONS TO BUDGET FOR TEACHERS AND STUDENTS

    I am also going to be asking you to explain the massive 
cuts you proposed to education investments across the board, 
impacting students of all ages. The Trump-DeVos education 
budget would cut investments in our students and schools by 
$9.2 billion, or 13 percent, from where we are today.
    I could not list them all, but it includes more than $3 
billion in cuts in K-12 investments authorized in ESSA, again, 
with one of the very few increases directed toward holding 
States hostage to your agenda. Among these cuts are $2.1 
billion from State grants for effective instruction 
investments, an entire program eliminated that provides support 
and professional development for our teachers and school 
leaders; $1.2 billion from 21st Century Community Learning 
Centers, completely eliminating investments supporting before- 
and after-school programs and extended learning opportunities 
for almost 2 million students across the country; $190 million 
completely eliminating the Striving Readers Comprehensive 
Literacy development investments, which I am particularly 
passionate about and worked with Republicans to strengthen in 
ESSA; $400 million in Student Support and Academic Enrichment 
grants authorized under Title IV of ESSA to improve student 
safety and well-rounded education, and a lot more.

                     HIGHER EDUCATION PROPOSED CUTS

    And it is not just K-12 that is under attack in this 
budget. This proposal would make higher education less 
affordable by taking $3.9 billion from the Pell Grant program 
and freezing the maximum award; eliminating the Supplemental 
Educational Opportunity Grant program, which provides nearly $1 
billion in Federal and institutional funds to 1.6 million low-
income undergraduates; cutting Federal Work Study in half; 
increasing student debt by another $143 billion by making many 
students pay more interest, pay back longer, and eliminating 
Public Service Loan Forgiveness.
    And this budget cuts investments in students with 
disabilities, including $113 million to Special Education 
grants to our States, pushing more costs to our States and 
local communities; $27.5 million for the supported employment 
State grants, which helps people with the most significant 
disabilities achieve competitive, integrated employment, an 
investment, by the way, that we included in our bipartisan WIOA 
(Workforce Innovation and Opportunity Act) bill and which is 
not being done through any other programs. And, finally, this 
budget even eliminates all support for Special Olympics 
programs in our schools.
    So I will be asking about a lot of these. I know many of my 
colleagues will. But this budget, I believe, would be 
devastating for our students and take away opportunities for so 
many families in this country.
    So I hope that after hearing from a lot of parents across 
the country and lawmakers on both sides of the aisle, you will 
reconsider this approach and come back to us with a budget that 
actually works for our students and reflects our values and our 
priorities as a country. Thank you.
    Senator Blunt. We are pleased to have the chairman of the 
Full Committee with us and the ranking Democrat on the Full 
Committee.
    Chairman Cochran, do you have any statement you would like 
to make?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am concerned about the 
challenge that we have to deal with, the reality of a budget 
process that hems us in with a budget resolution, which 
authorizes the appropriations of funds. We have children ready 
to be educated throughout my State and everybody's State. And 
we need to train teachers and support the training of teachers.
    There are Federal programs that are legitimate and need to 
be on the front burner for the support and strengthening of our 
Federal programs that help us teach our children.
    I guess I come at this from a biased point of view, and I 
plead guilty. I had a grandmother who was a teacher, a 
wonderful elementary school teacher in Mississippi. My father 
was a county superintendent of what was then the largest public 
school district in the State of Mississippi. My mother was a 
math teacher and came up to the University of Mississippi with 
two children, my brother, and me tagging along with our father 
for graduate work for him. And we would get in the classrooms 
and act like we were students, thinking that we were just as 
smart as some of the students were.
    But the whole point is, we all have so much invested 
through our families, through our organizations back in our 
home States. So we have our work cut out for us. And I plan to 
use my best efforts to identify the areas that we can make 
improvements in, and take a hard look, but at the same time 
realize we need to get a bill.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Chairman.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Chairman Blunt and Ranking Member 
Murray.
    And I agree with Chairman Cochran. We have a difficult task 
ahead of us, but I know--and what I point out to all the 
ranking members in my role as vice chairman--that what Senator 
Cochran and I are doing, is that for every Cabinet member, this 
is where they are actually going to get a chance to testify, 
before our Appropriations Committee. So I appreciate this 
opportunity.
    Unfortunate, the President's proposed budget displays a 
fundamental lack of understanding of the role of a government 
of, by, and for the people in supporting the middle class, 
lifting up the most vulnerable among us, and serving our values 
and interests as a Nation.
    Now, we know that sequestration has had devastating 
consequences for both defense and nondefense programs, 
consequences that are going to last a generation or more. But 
the Trump budget only extends and deepens those problems.
    And I think the budget proposal for the Department of 
Education can be summed up very quickly in one word: Abysmal.
    The submission from the Department of Education would 
reduce Federal education spending by more than 13 percent. The 
budget proposes approximately $4 billion in cuts to investments 
in programs that support public schools recently reauthorized 
by the bipartisan Every Student Succeeds Act, while proposing 
$1.4 billion in new discretionary funding for the 
Administration's school privatization agenda, and policies that 
promote vouchers and school choice. I think that is an insult 
to school-age children across the country.

                  FEDERAL INVESTMENT IN SCHOOL CHOICE

    President Trump has said that education is the ``civil 
rights issue of our time.'' And I agree. Education can and 
should be a great equalizer. But Federal investments in public 
schools are intended to support all students, not just a few 
privileged ones. And they are intended to close achievement 
gaps that many disadvantaged students face when entering 
school.
    Instead, this budget turns its back on millions of young 
people and hardworking families. It proposes to cut more than 
half a billion dollars from the vast majority of school 
districts that do not follow this ill-advised choice proposal.
    Well, Secretary DeVos, you ought to come to a rural State 
like Vermont where schools may be an hour or more away from 
where people live. School choice is not, under any 
circumstance, an option, especially in the middle of winter 
when we may have had 10 inches of snow overnight.
    Holding Title I funds hostage to a school choice agenda, 
especially when it has been previously rejected in a bipartisan 
vote by Congress will leave the most vulnerable students and 
school districts behind.
    As if those cuts were not enough, you would also eliminate 
or greatly reduce funding for many programs on which States and 
schools rely, specifically those that support public education: 
Preschool Development Grants, and after-school programs. 
Senator Murray mentioned the Special Olympics education 
program. Adult education programs, programs to train principals 
and school leaders, among many others.
    It cuts aid to students who are struggling to pay for 
college by rescinding nearly $4 billion from Pell Grants and 
eliminating or reducing support for many other student aid 
programs.
    You know, the best way to create a foundation for 
greatness, as the Trump budget purports to do, is to continue 
investing in America's future through our schools and our 
children. As Vice Chairman of this Committee, I am going to 
work to craft a budget that truly puts Americans first. I look 
forward to working with other members of this Committee, on 
both sides of the aisle, as we have in the past.
    I want to fulfill that goal. But you are not going to 
fulfill the goal for America, making America great, by cutting 
opportunities for our children and for our schools.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Leahy.
    I want to welcome Secretary DeVos today. This is her first 
time to testify before this subcommittee.
    Secretary DeVos has been involved in education policy and 
advocacy for nearly three decades, where she worked to empower 
parents and create new educational choices for students and 
families across the country.
    Madam Secretary, glad you are here, and I look forward to 
hearing your testimony.

                 SUMMARY STATEMENT OF HON. BETSY DEVOS

    Secretary DeVos. Thank you, Mr. Chairman. Chairman Cochran, 
Ranking Member Leahy, Chairman Blunt, Ranking Member Murray, 
and members of the subcommittee, thank you for the opportunity 
to testify on the administration's fiscal year 2018 budget 
proposal. I look forward to talking about how we can work 
together to improve educational opportunities and outcomes for 
all students while also refocusing the Federal role in 
education.
    Today's hearing is meant to focus on the numbers and 
mechanics of the budget, but I hope we will all remember our 
goal and shared purpose: how to best serve America's students.

                      EAST HARTFORD: A LOCAL STORY

    During my House Appropriations Subcommittee hearing, I 
relayed the story of one of those students, a young man named 
Michael, who grew up in East Hartford, Connecticut. Michael, in 
his own words, described to me what life was like for him in 
high school.
    I quoted him last month, and I will quote him again because 
his words are worth repeating. He said his assigned high school 
was, and I quote, ``nothing more than adult daycare, a 
dangerous daycare.'' And even though Michael was failing his 
classes, his school graduated him anyway. He got a diploma but 
not an education.
    Since sharing Michael's story, this young man has been 
barraged by attacks. But Michael has tremendous courage, and 
instead of being intimidated, he wrote an op-ed published in 
this Sunday's Hartford Courant where he admonished his 
attackers, writing, and I quote, ``Rather than automatically 
getting into a defensive crouch at perceived slights, let's 
admit that these serious and real problems exist and that there 
is a lot of work to do. Let's give the kids and families who 
feel trapped the opportunity to find something better.''
    Let me be clear, my relaying of Michael's story is not a 
blanket indictment of public schools, of Connecticut schools or 
even East Hartford High School, just as the rest of Michael's 
story, the story of his profound success, which has gone 
largely unreported, is not a blanket endorsement of community 
colleges, of the Florida system of higher education, or of 
Valencia College where Michael is now in the school's honors 
program.
    What Michael's story is, is the real-life situation far too 
many of our students face. They are trapped in an education 
system that, for whatever reason, is not serving them, and they 
have no other choices. In 2017, in America, we can and we must 
do better.
    I am proud to stand with Michael. Students like him are why 
I am so passionate about reforming education. So I ask you to 
keep Michael and the countless others like him in mind as we go 
about our shared work to support America's students.
    This budget lays out a series of proposals and priorities 
that work toward ensuring every student has an equal 
opportunity to receive a great education. It focuses on 
returning decisionmaking power and flexibility to the States 
where it belongs and giving parents more control over their 
child's education, a right that has been denied for too long.
    If taxpayer money were limitless, we would not need a 
budget. But by its very definition, a budget reflects the 
difficult decisions of how best to appropriate the limited 
taxpayer dollars we have. This budget does so by putting an 
emphasis on programs that are proven to help students while 
taking a hard look at those that are well-intended but have not 
yielded meaningful results.

                 OUTLINE OF PRESIDENT'S BUDGET PROPOSAL

    The President's fiscal year 2018 budget would reduce 
overall funding for Department programs by $9 billion, or 13 
percent. And I would like to outline for you the principles 
that guided our decisionmaking.
    First, our request would devote significant resources 
toward giving every student an equal opportunity for a great 
education. It emphasizes giving parents more power and students 
more opportunities.
    Second, the administration's request recognizes the 
importance of maintaining strong support for public schools 
through longstanding State formula grant programs focused on 
meeting the educational needs of the Nation's most vulnerable 
students, including poor and minority students, and students 
with disabilities.
    Third, our request maintains funding for key competitive 
grant programs that support innovation and build evidence of 
what works in education. This also means strong support for the 
research and data collection activities of the Department.
    Fourth, our request reduces the complexity of funding for 
college while prioritizing efforts to help make a college 
education accessible for low-income students through programs 
like year-round Pell.
    And fifth, consistent with our commitment to improve the 
efficiency of the Federal Government, our request would 
eliminate or phase out 22 programs that are duplicative, 
ineffective, or are better supported through State, local, or 
philanthropic efforts.
    All told, taxpayers will save $5.8 billion. In total, the 
President's budget fulfills his promise to devolve power from 
the Federal Government and place it in the hands of parents and 
families. It refocuses the Department on supporting States in 
their efforts to provide a high-quality education to all of our 
students.
    It is time to unleash a new era of creativity and ingenuity 
in education. My hope is that, working in concert with you, we 
can make education in America the envy of the world.
    Thank you again for the opportunity to share the 
Administration's vision for improving education across the 
country. I look forward to answering your questions.
    [The statement follows:]
                 Prepared Statement of Hon. Betsy DeVos
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to testify on behalf of the 
Administration's budget proposal for fiscal year 2018. As you know, the 
full year 2017 appropriation was not enacted until April 28, after the 
time the fiscal year 2018 budget was prepared. The proposed fiscal year 
2018 budget is built off of the Further Continuing Appropriation Act, 
2017, and reflects the annualized levels provided by the continuing 
resolution. I look forward to talking about how we can work together to 
improve educational opportunities and outcomes for all students while 
also refocusing the Federal role in education.
                     expanding educational options
    I want to begin by briefly outlining my own vision for education 
reform, why I came to Washington to work with President Trump, and what 
I hope to accomplish on behalf of the students and families we serve.
    I am sure you already know that I'm a longtime supporter of 
expanding educational options for students and parents, in particular 
for low-income families, by providing a whole menu of educational 
options both in our public school systems and by promoting greater 
access to private schools.
    In part, my support for educational choice is based on my strong 
belief in the power of markets and competition as drivers of 
educational quality and accountability. Providing choices to parents 
promotes increased involvement in their children's education and 
empowers them to seek out the schools and services that best meet their 
children's unique educational needs--no matter their ZIP code, the 
color of their skin, their family's income, or their own educational 
backgrounds.
    But my commitment to educational choice has been strengthened by 
witnessing the impact of federally directed education reform efforts 
over the past quarter century. Beginning in 1989, every president--
Republican and Democrat alike--has claimed the mantle of ``the 
Education President'' and attempted to find the right set of levers 
here in Washington to transform our education system and deliver on the 
twin promises of opportunity and excellence for all Americans.
    Washington's education reformers set national education goals, 
promoted voluntary national academic standards and aligned assessments, 
demanded ever-stronger improvement measures from States and school 
districts, tried top-down accountability systems driven by rigid rules 
and requirements, incentivized the adoption of the Common Core, and 
mandated the implementation of prescriptive school improvement models.
    Unfortunately, I don't think any of us are happy with the results 
of these seemingly endless, Washington-led reform efforts. Most 
discouragingly, the achievement and attainment gaps experienced by poor 
and minority students, who are the primary focus of these Federal 
education programs, remain unacceptably large.
    While these high-profile, top-down reform efforts have generated 
more publicity than results, there was a small, initially little-
noticed innovation that really caught fire over the same period--and 
with the help of the Federal Government. I'm talking, of course, about 
charter schools--a bottom-up, locally driven education reform strategy 
based on empowering educators and providing choices to students and 
families. Since 1995, the Department's Charter School Program has 
awarded more than $4 billion to help launch thousands of charter 
schools, including extraordinarily successful models like the Noble 
Network of Charter Schools. Many of these charter schools are serving 
some of our poorest and most disadvantaged students in many of our 
toughest neighborhoods and are, at the same time, among the top 
performing public schools in the Nation.
    So I'm both proud and excited to join President Trump in his 
commitment to ensure that every child has the opportunity to attend a 
high-quality school selected by his or her parents. I hope to help 
build on the tremendous success of the charter school movement and our 
2018 request includes three proposals in this area. First, we would 
promote locally-developed, student-centered education funding systems 
that expand educational choice in our public school systems. Second, we 
would fund State and local efforts to create scholarship programs that 
help students and families take advantage of private schools and other 
educational options. And third, we would provide a significant increase 
for the Charter Schools Program. Each of these proposals reflects my 
strong belief that a greater focus on student-centered reforms is the 
next logical step following the enactment of the Every Student Succeeds 
Act, which recognized and restored the primary role of States and 
school districts in operating a public education system that puts 
students and parents first.
              refocusing the federal mission in education
    Turning now to the broad outlines of the Administration's fiscal 
year 2018 budget request for education, I think a little history may be 
helpful here as well. Washington didn't just come up with a lot of 
ideas for education reform over the past 20 years, it also spent a lot 
of money on those ideas. Total discretionary spending at the Department 
of Education quadrupled from fiscal year 1989 to fiscal year 2016, 
rising from $17.1 billion to $68.3 billion.
    Once again, I think it's hard to make a case that the results of 
this extraordinary Federal investment in all levels of our education 
system--whether measured by overall gains in student achievement, 
reduced achievement gaps, graduation rates, or college completion 
rates--are what we hoped for.
    That doesn't mean that Federal dollars are unimportant, or that 
States and school districts don't rely on them both to maintain and 
improve services to millions of students across the Nation. But it does 
mean that it's important to recognize the limited impact of Federal 
spending on the performance of our education system and that it's 
reasonable to include the Department's programs in a broad-based effort 
to address the long-term financial health of our Nation by reducing the 
Federal deficit.
    This is why the President's fiscal year 2018 budget would reduce 
overall funding for Department programs by $9 billion or 13 percent. 
I've seen the headlines, and I understand those figures are alarming 
for many; however, this budget refocuses the Department on supporting 
States and school districts in their efforts to provide high-quality 
education to all our students. At the same time, the Budget simplifies 
funding for college, while continuing to help make a college education 
more affordable. I'd like to outline the principles that guided our 
decisionmaking.
               five principles guiding the budget request
    First, our request would provide significant new resources 
dedicated to helping achieve the President's goal of ensuring that 
every child has the opportunity to attend a high-quality school 
selected by his or her parents.
    Second, the Administration's request recognizes the importance of 
maintaining strong support for public schools through longstanding 
State formula grant programs focused on meeting the educational needs 
of the Nation's most vulnerable students such as poor and minority 
students and students with disabilities.
    Third, our request maintains funding for key competitive grant 
programs that support innovation and build evidence of what works in 
education. This also means strong support for the research and data 
collection activities of the Department.
    Fourth, our request reduces the complexity of funding for college 
while prioritizing efforts to help make a college education affordable 
for low-income students. As Congress prepares to reauthorize the Higher 
Education Act, I look forward to working with you to address student 
debt and higher education costs while accelerating and improving 
student completion rates through such efforts as Year-Round Pell, and 
reducing the complexity of student financial aid.
    And fifth, consistent with our commitment to improve the efficiency 
of the Federal Government, our request would eliminate or phase-out 22 
programs that are duplicative, ineffective, or are better supported 
through State, local, or private efforts, in addition to 6 other 
programs that were eliminated in the reauthorization of the Elementary 
and Secondary Education Act, saving $5.8 billion.
                               conclusion
    Thank you again for this opportunity to share the Administration's 
vision for a Federal role in education that is both more limited and 
more effective than past efforts in achieving our shared goal of 
ensuring that all students have access to high-quality educational 
opportunities at all levels of our education system.
    I will be happy to respond to any questions you may have.

    Senator Blunt. Thank you, Secretary.
    You mentioned year-round Pell.
    First, let me say a couple of things about the time on the 
questions. We will have a round of 5-minute questions. We will 
stay pretty close to that. We have a full committee here. We 
need to stay close to that. If you want your question answered 
during the 5 minutes, try to leave some time to answer the 
question. Otherwise, we may take those questions for the 
record. If there are 5 seconds left and you have a 3-minute 
answer, you are probably not going to hear it here today. So 
questions will be done as near as possible during the 5 
minutes.
    And that includes mine, so I better get started. I am 
already down to 4 minutes and 30 seconds.

                         YEAR-ROUND PELL GRANTS

    Madam Secretary, you mentioned year-round Pell. I think, in 
terms of what we did in the appropriation for this year, 
returning to the year-round Pell Grant gives adults returning 
to school, people paying their own way and working through 
school, people who are the first people in their family to hope 
to graduate from college, a real greater likelihood they get 
that done. Anything that you do that doesn't disrupt the 
pattern that is working increases the odds that you are going 
to actually achieve your goal of getting that degree and 
graduating.
    I think in most of our States, if you qualify for year-
round Pell, in most community college we have in Missouri, you 
get all your tuition paid, money for your books, fees paid, and 
a little money left over. In at least one of our 4-year 
schools, year-round Pell pays all of those things toward a 4-
year degree as well as a 2-year degree.
    I hope we have maximum flexibility as you come up with the 
implementation rules on year-round Pell. I would like to hear 
where you are on that. I am very concerned. I will be watching 
closely, that we do not have a lot of needless extra hoops to 
get that summer semester or that third semester in that 
students did not have access to for the last 9 years now.
    Secretary DeVos. Senator, thank you. Thank you so much for 
that question and for your sharing the concern that we meet 
students' needs and recognize the reality of education for many 
students today.
    By implementing year-round Pell, we do give non-traditional 
students--and let's face it, more students entering higher 
education today are considered non-traditional than 
traditional--give them the flexibility to set their own pace 
for their education, and complete their education as quickly or 
as over an extended period of time as they need to do so.
    And so you have my commitment that, in implementation of 
it, we will honor the intent of Congress in ensuring that we 
leave and grant the maximum amount of flexibility to the 
students in recognizing their needs today.
    Senator Blunt. That would be good. Having those rules in 
place, I do know that as people are thinking about entering the 
fall semester, the schools are already thinking about what 
their summer programs should look like, if they return to the 
kind of student numbers they had before year-round Pell was 
eliminated. So the more they know about how easy that 
implementation is going to be, the better off we will be.
    Now the Pell Grant is just that. It is a grant. It doesn't 
have to be paid back. Loans do have to be paid back. We have 
been working with the Department to try to create, actually, 
more competition in loan servicers and among loan servicers.

                             LOAN SERVICING

    On May 19th, the Department of Education put out a new 
proposal where there would be only one principal servicer, and 
I am inclined to think that is not the best direction to go. 
Why did you make that decision as opposed to letting the 
Department, as it has been doing, allocate loans to servicers 
who are having the best experience and the best results?
    Secretary DeVos. Senator, good question. That process was 
begun well before I arrived at the Department. And in examining 
what had happened to date, the process was very complicated, 
confused, and was, in fact, moving to a single servicer.
    We have proposed through the amendment that was put out on 
May 19th, as you have indicated, that we will be reexamining 
that process and those bids for the servicing arrangement.
    Our contention is that the method of servicing before with 
the Department being the host, so to speak, to four different 
servicing platforms who then went out and employed and engaged 
a number of other providers, became much more complicated for 
students to actually interact with and was not servicing the 
customers, the students, well.
    Through a single servicer, that servicer will be able to 
engage a wide variety of contractors to work with. They will 
have sole accountability, instead of having four different 
points of accountability. We believe that this is going to 
bring much more effective and efficient service to the students 
and, in fact, provide a higher level of competition, 
ultimately, and a greater level of accountability.
    Senator Blunt. Well, I do not know that I agree with that. 
But we can talk about that later.
    Senator Murray, I am going to lead by example here and stop 
the clock on myself.
    Senator Murray. All right. Thank you.

                CHOICE EDUCATION INNOVATION AND RESEARCH

    Secretary, your budget makes multiple requests for 
authority that is not provided in our bipartisan ESSA bill, 
including a request to manipulate the Education, Innovation and 
Research program to create this new $250 million private school 
voucher proposal.
    You have made some very confusing and concerning comments 
about how you see the role of the Federal Government in 
protecting students, so I want to be very clear, and just yes 
or no, my time is limited.
    Will you require all schools participating in this voucher 
program to comply with IDEA (Individuals with Disabilities 
Education Act)?
    Secretary DeVos. Absolutely.
    Senator Murray. And will you require all schools 
participating in this voucher program to comply with civil 
rights laws, including Title IX, that protect against 
discrimination based on race, religion, disability, sexual 
orientation and gender identity?
    Secretary DeVos. Yes, Senator, but let me also clarify. 
There is no specific proposal under that line item. It is 
really appropriations language, and the intent of that line 
item is to use--to explore and experiment with----
    Senator Murray. So you are going to be creating new 
regulations, so let me be very clear, for this voucher program, 
correct?
    Secretary DeVos. It will not necessarily be a voucher 
program specifically. That is really appropriations language. 
It is intended to be a choice program and to----
    Senator Murray. It is a new $250 million private school 
voucher program.
    Secretary DeVos. As part of the research budget that will 
help us evaluate----
    Senator Murray. All right.
    Secretary DeVos [continuing]. What kind of opportunities 
are working for students.
    Senator Murray. Okay, you are seeking authority for a new 
Federal program. It is paid for by my constituents and all 
Federal taxpayers. So this question cannot just be left to 
States.
    The authority you are requesting says you, the Secretary, 
will establish requirements for this new program. So should 
this voucher program ever come to be, despite the opposition of 
a lot of people and lawmakers on both sides of the aisle, will 
you require these schools receiving these funds to follow the 
IDEA?
    Secretary DeVos. Any institution receiving Federal funding 
is required to----
    Senator Murray. Through a voucher program or anything else 
you create.
    Secretary DeVos [continuing]. Is required to follow Federal 
law.

           PRIVATE RECIPIENTS' IDEA DUE PROCESS REQUIREMENTS

    Senator Murray. And as well for discriminating against 
students, you will not allow--you will have specific rules and 
regulations?
    Secretary DeVos. Let me be clear. Schools that receive 
Federal funds must follow Federal law, period.
    Senator Murray. Even through a voucher program.
    Secretary DeVos. Period.
    Senator Murray. Okay. As you know, Title I-A is the core 
program under Federal elementary and secondary education law. 
It assists more than half of all our public schools.
    Your budget proposes a cut of $578 million in this funding 
for districts that do not adopt your proposed policies. Are you 
aware that your budget would result in these cuts?
    Secretary DeVos. I think, Senator, we have a confusion here 
between the budget numbers that we were working with prior to 
the appropriation that was passed by Congress. So the intention 
is to fully fund Title I.
    Senator Murray. But this is a $578 million----
    Secretary DeVos. It is not because----
    Senator Murray. This is not playing with math. We are 
basing our numbers on the actual, real world, right now, the 
numbers that we passed. You are not. We cannot play that game.

              BASIS FOR CALCULATIONS IN PRESIDENT'S BUDGET

    Secretary DeVos. And this budget is based upon the numbers 
prior to that implementation in late April.
    Senator Murray. Something that was never implemented into 
law. This cut is $578 million less based on current law, real 
world. And, you know, that cannot be played around with.
    Everyone knew that the $450 million in School Improvement 
Grant funding would be consolidated in Title I grants 
authorized under ESSA. It is the law of the land, and both the 
House and Senate bills provided that funding.
    Yet this budget is just choosing to ignore that fact and 
playing with numbers, and would result in a cut to Title I 
school districts that do not adopt your proposed policies.
    And I just have----
    Secretary DeVos. Senator, let me just say that is 
incorrect. Again, the budget numbers that you received were 
based upon the numbers prior to the action you took in April.
    Senator Murray. Well, we are playing with the real world 
here, so.
    Secretary DeVos. The intention is to fully fund the Title I 
funds----
    Senator Murray. Based on numbers that do not exist. So, you 
know, we cannot play math with this. This is real world.
    Let me just ask you--I have just a few second left.
    Many Republicans actually attacked President Obama's 
budgets proposing programs that were not authorized in Federal 
law. But you not only cut the legs out from the bipartisan ESSA 
law with these massive cuts, you also propose programs similar 
to one that Congress already debated and rejected. And you 
claim your budget is focused on offering States and schools 
this flexibility, but then you propose holding $1 billion 
hostage to force States and districts to conform to your 
ideology.
    You have requested new authority in this budget for a $1 
billion proposal because ESSA does not allow you to use the 
weighted student funding pilot program for promoting your 
policies. That is correct, right?
    Secretary DeVos. No, the billion dollars was intended to be 
in addition to the Title I funds that would be fully funded--
again, I refer back to what I said before, that Congress had 
not acted at the time these numbers were produced.
    Senator Murray. You and I disagree on basic math. But let 
me just say----
    Secretary DeVos. It is $1 billion in addition to fully 
funding the Title I----
    Senator Murray. Well, I am over time. What do you tell 
Republicans who feel very strongly that the Federal Government 
should not use Federal education dollars to bend States and 
school districts to their will?
    Secretary DeVos. It is a totally voluntary program on the 
part of States. Nobody will be coerced into using----
    Senator Murray. But they lose Federal dollars.
    Secretary DeVos. But no State would be forced to utilize it 
or to enact anything as a result.
    Senator Murray. They lose their Federal dollars.
    Senator Blunt. Thank you, Senator Murray.
    Senator Cochran.

                CONGRATULATING SECRETARY ON APPOINTMENT

    Senator Cochran. Mr. Chairman, it is a pleasure for me to 
join you and other members of the committee in congratulating 
Secretary DeVos for being here and being able to accept the 
responsibilities of being in her position.
    She has contributed voluntarily a lot of time and effort to 
organizations like the Kennedy Center for Performing Arts, 
where I served with her on the board of directors. Many Federal 
programs are looked at to solve serious problems that really 
are responsibilities of State and local governments.
    So, anyway, I want to join those who congratulate you for 
your agreement to serve and to work to help the department 
identify ways we can improve teacher recruitment, student 
encouragement of moving on to secondary and graduate degrees, 
and other programs such as early childhood education. The 
opportunities are there for a lot of meaningful work, and I 
assure you that this committee will, I think in a positive way, 
work with you to help make your service as Secretary a great 
success.
    Secretary DeVos. Thank you, Chairman.
    Senator Blunt. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Madam Secretary, welcome. Madam Secretary, I think we are 
facing a student loan crisis in America. Let me tell you why.

                          STUDENT DEBT CRISIS

    Student loan debt now is greater than credit card debt in 
America. The total, $1.3 trillion. Over 42 million Americans 
owe student loan debt. In the year 2016, the number of defaults 
on student loan repayments increased by 14 percent over the 
previous year. The average amount that students owe when they 
finish college has been growing dramatically year after year 
after year.
    When I look at the Trump budget, the one that you brought 
before us today, I can find no relief for students who are 
facing this debt. In fact, just the opposite is true.
    When you freeze the Pell Grant, you require students to 
borrow more money to complete their education.
    When you eliminate the Federal Work Study program, you 
eliminate an opportunity for students to reduce their debt by 
working, by getting their education and working.
    When you increase the interest payments that are going to 
be paid by students over 10 years by $38 billion, in other 
words, accumulating interest payments while they are in 
school--we do not do that to them now, but the new Trump budget 
does--it means a greater debt at the end of the day.
    And finally, when you eliminate the Public Service Loan 
Forgiveness for students, those who want to go into teaching 
and nursing and critical professions do not get a helping hand. 
They are ignored, and they have a bigger debt.

                  FOR-PROFIT INSTITUTIONS AND LENDING

    But sadly, that is not the worst part of what has happened 
with the new Department of Education under the new President. 
Here is something you ought to think about. The most heavily 
subsidized for-profit companies in America today are for-profit 
colleges and universities. Eighty to ninety percent or more of 
their revenue comes directly from the Federal Treasury.
    These are not crafty entrepreneurs. They are people who 
have learned how to game the government. The only protection 
taxpayers have is in your hands.
    So here are two numbers I would like you to think about. 
Nine percent of students graduating from high school go to for-
profit colleges and universities--9 percent. Yet 35 percent of 
all student loan defaults are from students from for-profit 
colleges and universities. What is wrong with this picture? 
Nine percent of the students and 35 percent of the student loan 
defaults?
    Yet when we look at your policies when it comes to these 
for-profit college and universities, they are troubling: from 
the hiring of your counsel, which has been raised by Senator 
Murray, directly from that industry, to raising questions as to 
whether you are going to police the ranks of those schools that 
are exploiting students across the United States and continue 
to, whether it is a question of gainful employment so the 
students do not get so deeply in debt they do not have a chance 
to pay back their student loans, the defrauding of students by 
these schools that has been shown over and over again.
    The question is, what are you going to do about this? 
Attorneys general across the United States wrote you a letter 
on February 22nd of this year, spelling out in detail why your 
regulation of for-profit colleges and universities is critical 
to protecting students from crippling and debilitating student 
debt.
    When I look at the Trump budget, and the cutbacks when it 
comes to student loans, the new burdens that are being placed 
on students, and the lack of policing the ranks of for-profit 
colleges and universities, I am afraid the student loan crisis 
is going to get worse.
    Please respond.
    Secretary DeVos. Senator, thank you. I am not sure exactly 
what your question was there.
    But let me just say that I totally agree with you that 
student debt and student loans are of grave concern. I talked 
about that during my confirmation hearing, and I feel no 
differently now. In fact, I probably feel more strongly about 
the critical nature of the increasing student debt----
    Senator Durbin. So your budget increases the interest 
burden of students. Your budget freezes the Pell Grant, so they 
have to borrow more. Your budget doesn't give them public loan 
forgiveness.
    Secretary DeVos. The budget actually gives students a 
really well-defined and new way to address their student loans 
long term, their student debt long term, through an income-
driven repayment plan that would cap the repayment at 12.5 
percent of their discretionary income. And after 15 years for 
undergraduates, it would be paid off. So it is a really 
specific plan that will allow students to address this.
    But I think the question and the issue is a much broader 
one. And I think that, in the context of your discussions 
around a higher ed bill and higher ed reauthorization or 
starting afresh, this is a real area of concern and one to 
address. We have not done a good job of helping students to 
know what their full menu of options are when pursuing higher 
education. We have segmented out career and technical education 
in such a way that it seems like it is a lesser of two, in that 
we have put a higher emphasis on 4-year college and 
universities.
    And I think all of these areas are ones that we have to 
have robust discussion about as we consider how--what is the 
proper role of the Federal Government in supporting students 
pursuing higher education in the future, and with the reality 
of today's world?
    Senator Blunt. Senator Shelby.
    Senator Shelby. Thank you.
    Madam Secretary, thank you for your service and thank you 
for taking on a job that is so challenging. We all realize 
that.

                   SCHOOL CHOICE IN RURAL COMMUNITIES

    Madam Secretary, in your testimony, you stated that you 
support expanding educational options for low-income families 
regardless of their ZIP Code. Specifically, you stated that you 
are committed to locally developed, student-centered charter 
school programs. In many rural areas in America, including my 
State of Alabama, the infrastructure needed to establish and 
effectively run a charter school just does not exist.
    However, in some of these areas, there are established 
institutions of higher learning--small colleges, some 
universities--that know the unique needs of students. Many of 
these rural areas are in need of alternative educational 
options that they do not have today.
    My question is, would you be open to examining the idea of 
rural institutions of higher education establishing charter 
schools to create community-specific curricula to serve the 
needs of young people? Because a lot of it is not there today.
    Secretary DeVos. Senator, thank you for your question.
    And to go right to the heart of the matter around giving 
parents more choices to find the right education for their 
child or children, I know that rural areas have unique need and 
unique circumstances. Often when we think about offering 
choices, we think about bricks and mortar. We think about more 
infrastructure. Maybe that is not the right answer for all 
rural communities.
    Maybe an answer is----
    Senator Shelby. Maybe they have the infrastructure but not 
the teachers or not the curriculum.
    Secretary DeVos. Sure. With regard to partnering with 
higher ed institutions for charter schools, I think that is a 
great idea to explore and would certainly encourage communities 
to look at that and explore that option.
    I would also encourage exploration of providing virtual 
learning for classes that they cannot necessarily hire a 
teacher for.
    But there are many different options. And certainly, with 
technology today, that affords us a lot wider band of options, 
and would look forward to talking with you about how that might 
work in your communities.
    Senator Shelby. Thank you. I am going to shift to technical 
education.

                     CAREER AND TECHNICAL EDUCATION

    We have a lot of people going to the universities. But my 
constituents generally tell me that one of the greatest needs 
in America is a skilled work force in manufacturing and other 
things. A lot of those people are not going to college, but 
they need the skills that the marketplace says.
    Both President Trump and you have stated strong support for 
career and technical education programs. However--this is 
troubling--in the fiscal year 2018 budget proposal, there are 
large cut proposals to the career and technical education State 
grants program.
    This program provides resources to State and local 
institutions so they can determine how career and technical 
education programs best fit their communities, their work 
force, and their needs. And there are crying needs.
    When your department was creating the 2018 budget, what 
were the perceived implications of cutting the technical 
educational program there? And how does the Department of 
Education expect to be able to continue to effectively meet the 
needs of all our States' career and technical and educational 
programs if you are going to cut the programs rather than 
improve them?
    Secretary DeVos. Well, Senator, you are right about the 
emphasis that we are placing on career and technical education 
and opportunities for students in that direction. And while the 
budget does reflect a cut in career and technical support, it 
still maintains nearly $1 billion in support for those 
programs. And it also calls out a special $20 million 
investment in STEM (science, technology, engineering and math) 
programs and initiatives.
    But more broadly speaking, I think there is an opportunity 
here to look at how some of these efforts have been siloed 
between departments. The reality is that the Department of 
Labor also has a lot of programs that have some overlap with 
this kind of education. So we ought to be looking holistically, 
again, as we look at a higher ed bill, ought to be holistically 
looking at how to best support and advance the opportunities 
that students have through career and technical training.
    I had the opportunity to visit three really great community 
colleges that have very extensive STEM-related and career and 
technical training programs. It was a pleasure and a joy to see 
how they have partnered with the needs of the businesses in 
their geographic area to really meet the needs both of students 
and of the businesses that they are supporting.
    Senator Shelby. Isn't there a crying need that we need to 
tailor our educational system to the marketplace, to the jobs, 
and to the demand for people out there?
    Secretary DeVos. Well, we know today that there are about 7 
million jobs that require skilled training and education that 
are going unfilled. So, yes, there is a real need to offer 
these kinds of opportunities and to have a real good dialogue 
and communication between those that have the opportunities and 
those students that may not actually know about them today.
    Senator Blunt. Thank you, Senator Shelby.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                21ST CENTURY COMMUNITY LEARNING CENTERS

    Secretary DeVos, you started your statement today talking 
about a young man named Michael. I would like to tell you about 
a young man named Raymond, who wrote a letter about the 
Somersworth Youth Connection, which is a 21st Century Community 
Learning Center in Somersworth, New Hampshire. And he talks 
about, in this letter, what a difference SYC, which is what 
they call the Somersworth Youth Connection, has made for him 
and for the community.
    Raymond says, ``Growing up, life was not easy. Never 
knowing my real parents, being poor, and moving, it made life 
tough. I was 10 when I moved from Raymond to Somersworth. I 
always felt like an outcast without any friends. I would see 
kids having fun, laughing, running around like they did not 
have a worry in the world. I was there with everything on my 
shoulders. Months of passing by a cafeteria filled with these 
kids after school, I decided to go in. I was greeted by a man 
that I would begin to look up to and become friends with. He 
gave me the paperwork to be able to go the next following days. 
Ever since that day, SYC has been part of my life.''
    He goes on to say, ``Without SYC, Somersworth wouldn't be 
the same. This has had the biggest impact in this community.''
    You talked in your opening statement about education 
programs needing to yield meaningful results. Well, this 21st 
Century Community Learning Center and dozens of others like 
this one for thousands of students in New Hampshire has yielded 
meaningful results. And yet this budget that has been proposed 
would take away those opportunities for kids like Raymond.
    What should you say to Raymond and to other students who 
are going to no longer have a place to go after school, who are 
then going to go home without supervision where they can get 
into trouble because their parents are not going to be home, 
who are not going to have the homework assistance, who are not 
going to have the help they need to succeed in school? What do 
you say to somebody like Raymond?
    Secretary DeVos. Well, Senator, thank you for that story. 
And thank you for the opportunity to talk about the flexibility 
the ESSA legislation actually affords for situations like this.
    And I am hopeful that, and I would encourage that New 
Hampshire, as they have put--are putting their ESSA plan 
together, think about what programs and what areas are best 
supported. They have a lot of flexibility.
    Senator Shaheen. The thing is, you know, Secretary, a State 
like New Hampshire--I am sorry to interrupt you. But a State 
like New Hampshire doesn't have the funds to put together 
programs if you take away the Federal dollars that support 
these at-risk kids.

                           STUDENT LOAN DEBT

    I want to go on to follow up Senator Durbin's question 
about student loan debt. Because in New Hampshire, we also have 
the highest average student loan debt in the country. We have 
more than 52,000 students who receive subsidized loans from the 
department. We have an average of $36,000 per student 
graduating with student loan debt.
    So again, why are you reducing opportunities for 
hardworking Granite State students to earn the money they need 
for college by eliminating the work study program, by 
eliminating the opportunity to get those subsidized student 
loans?

          21ST CENTURY COMMUNITY LEARNING CENTER EFFECTIVENESS

    Secretary DeVos. Senator, if I could just refer back one 
moment to the 21st Century Community Learning Centers program. 
The reality is that less than half of the students that 
qualified for that are actually participating in the program. 
Of those that do, they attend very infrequently. And there have 
been no outcomes, in general.
    Senator Shaheen. Well, that data may be true nationwide. 
That data is not true in New Hampshire. So why are you going to 
make the students in New Hampshire suffer for the fact that 
there are programs in some places that are not working as well 
as they should?
    And isn't that the Department's job, to try to make sure 
those programs work the way they are supposed to for kids? 
Because, in New Hampshire, they are working.
    Secretary DeVos. And I think that New Hampshire has the 
opportunity to support programs that are working. Again, 
flexibility, there is plenty of flexibility in the other funds 
that are going to New Hampshire.
    Senator Shaheen. Well, there is flexibility if you have 
money. But if there are not dollars there, how can we support 
these kinds of programs?
    And that is the challenge. When you eliminate those efforts 
that are making a difference for students, whether it be 
students in college who need help with their student loan debt 
or at-risk kids after school, they do not have any other 
options.
    And so what do we tell those students who are going to see 
their lives changed and disappointed, because these are no 
longer available to them?
    Secretary DeVos. I think it is really important for us to 
remember that only 8 percent of the funding for education 
broadly comes from the Federal Government. Ninety-two percent, 
the States are funding.
    Senator Shaheen. Believe me, I understand that. As a former 
Governor who struggled for years with trying to fund education 
in New Hampshire, I totally get that.
    But I also understand that when a program is working for 
students and making a difference in their lives, to pull that 
rug out from under them with nowhere else to go is a defeat for 
the policy and a defeat for the student.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Shaheen.
    Secretary DeVos. I am confident that New Hampshire will be 
able to figure that out, if it is a really great program.
    Senator Blunt. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Madam Secretary, welcome. I want to ask about higher 
education.

                APPROVAL TITLE I PLANS AND FEDERAL ROLE

    But, first, a very quick question about elementary and 
secondary education. There are basically two ways to be the 
Education Secretary. One is an advocate--better schools, higher 
standards, better teacher evaluation, and more school choice. 
The other is orders from Washington.
    I think the reason we got 85 votes for the law fixing No 
Child Left Behind was because so many people from unions to 
Governors were tired of so many orders from Washington.
    So you are going to be approving a plan from every State 
about how to spend its Title I funds. The law says you can only 
approve them. You can only fail to approve it if it does not 
follow the law.
    Will you follow the law or will you be tempted to use your 
own policy ideas in approving or rejecting State plans?
    Secretary DeVos. Senator, we will be following the law and 
approve plans, as Congress has intended.
    Senator Alexander. We also put in a prohibition to say 
that, while there is a waiver in the law for exceptional 
circumstances, we did not want the Secretary of Education 
conditioning the waiver by using the Secretary's own ideas 
about what a community might do.
    Will you respect the law saying that you may not use the 
waiver to condition receipt of Federal funds to follow your own 
ideas of what a community might do?
    Secretary DeVos. That is correct, sir. I will definitely 
respect that.

                      RED TAPE IN HIGHER EDUCATION

    Senator Alexander. Madam Secretary, we have talked before 
about this report that the higher education community did. This 
was at the request of Senator Mikulski, Senator Bennet, Senator 
Burr, and me. We said, give us specifics about what you do not 
like about what they call the jungle of red tape that takes 
away money that interferes with their administering the 6,000 
colleges and universities, money which might be better used for 
students.
    About a dozen of those recommendations can be done solely 
by the Secretary. Four of the 10 most important can be done 
solely by the Secretary.
    I think you know what those are. They have to do with 
simplifying return of Title IV funds, updating financial 
responsibility standards, modifying State authorizations of 
distance education. There is also another one that would 
streamline the reporting data that now comes through 11 
different annual surveys.
    Will you make a priority and give your attention to the 
dozen proposals within the Kirwan-Zeppos report to get rid of 
the jungle of red tape in higher education, the things that you 
can do yourself? Will you make that a priority?
    Secretary DeVos. Yes, sir. In fact, we are well underway 
with examining the steps to take to accept and examine exactly 
what has been recommended.
    And with regard to one of them, the look at all of the 
regulations, that coincides also with the President's executive 
order to really review regulations in every department. So we 
have begun a deep dive into all of those, and you have my 
commitment to continue that process.
    Senator Alexander. Thank you.
    In our authorization committee that Senator Murray and I 
chair, we hope to make higher education a top priority soon. 
There has been a lot of bipartisan work within our committee. 
For example, a dozen Senators have worked sponsoring 
legislation to take this 108-question Federal aid application 
form that 20 million families fill out every year. We have an 
equal number of Democrats and Republicans who are ready to 
change this. We even have suggested, Senator Bennet and I, 
getting it down to two questions. President Obama said he 
thought he could get rid of a third of the questions. Our staff 
thinks they have it down to two dozen questions.
    Will you work with us? The Department cannot do that all by 
itself, but will you work with us to make a priority of getting 
rid of this unnecessary burden on families who are applying for 
Federal Student Aid?
    Secretary DeVos. Absolutely.
    Senator Alexander. And also, we have bipartisan proposals 
that would simplify the number of loans. This is also in the 
President's budget, that we would do that. That came after many 
hearings that we had. And then simplify the number, the ways to 
repay Federal student loans. I have had college presidents tell 
me they had a hard time repaying their kids' student loans 
because it was so complicated. We have bipartisan consensus of 
cutting that down to two.
    So will you also work with us, as we work through the 
Higher Education Act, to simplify the repayment of student 
loans and the number of student loans, which is one way we can 
help improve access to college?
    Secretary DeVos. Yes. Yes, indeed. In fact, this budget 
proposal contains the plan--or the proposal to consolidate down 
to one repayment plan, and I think is a good step toward 
simplification.
    Senator Alexander. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Alexander.
    I think we will have, after we are done with this first 
round, a chance for a second round of questions. If anybody has 
more questions, you want to be sure to stay for that.
    We are going by order of attendance. So Senator Schatz is 
next.
    Senator Schatz. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here.
    As you know, the budget calls for $9 billion in cuts to the 
Department of Education. Just a point of clarification, is this 
your budget? There was some discussion about whether this was 
an OMB (Office of Management and Budget) budget or a U.S. 
Department of Education budget? This is your budget?
    Secretary DeVos. This is our budget working in concert with 
OMB.

           BUDGET CUTS IN CONTEXT OF LOCAL EDUCATION FUNDING

    Senator Schatz. Okay. And in the budget in several places 
it states that the programs that are cut to the tune of $9 
billion could be supported by, quote, ``other Federal, State, 
local, and private sources.'' But this is contrary to the 
evidence.
    As you likely know, State funding for education has been 
declining at all levels, State, county, city. And I know you 
know that there is not private foundation money to the tune of 
$9 billion a year.
    So how are we going to come up with $9 billion? Or do you 
think there should be $9 billion less spent in education 
overall?
    Secretary DeVos. Well, sir, I think that the approach to 
the budget was to make some tough decisions and recognize the 
fact that money is not limitless and respect the taxpayer. And 
we have----
    Senator Schatz. But that is not what you say.
    Secretary DeVos [continuing]. Gone----
    Senator Schatz. Hold on one second. That is not actually 
what you say. You said the programs that are cut could be 
supported by Federal, State, local, and private sources. You do 
not say that we are in a constrained fiscal environment, and we 
would like to spend more if we could.
    It seems that there are sort of two ways to approach $9 
billion worth of cuts.
    One is, ``We want to make $9 billion worth of cuts. We 
think this in the best interest of public education and private 
education, because we think the Federal Government should play 
less of a role, and the burden should shift to the private 
sector and to local DOEs.'' That is one philosophy.
    The other is, ``We do not have enough money. If we could do 
more, we would do more.''
    Now what philosophy are you articulating in this budget?
    Secretary DeVos. Some of the programs that have been 
recommended for scaling back or cutting are duplicative, some 
of them are ineffective, and some of them could better be 
supported by State, local, or philanthropic efforts.

                       ESEA TITLE II-A REDUCTION

    Senator Schatz. Do you include the cut of 40,000 teachers 
federally funded in that category called duplicative or could 
be supported by some other entity?
    Secretary DeVos. I do not know exactly what 40,000 teachers 
you are referring to. But if you are talking about the teacher 
training program, that----
    Senator Schatz. No, I am talking about Title II, which 
funds 40,000 teachers' salaries.
    Secretary DeVos. For reducing class sizes? Is that what you 
are trying to suggest? Those funds have been used for a broad 
range of teacher initiatives. They have been----
    Senator Schatz. But they mostly go to--okay, go ahead.
    Secretary DeVos [continuing]. Very thinly spread. And in 
many cases, like 20 percent of the cases, the funds are less 
than $10,000 to a school. And so there has not been an 
effective--there has not been evidence of great outcomes or 
effectiveness from this program. And through Title I funds----
    Senator Schatz. Have you talked to principals about how 
much $10,000--hold on. I have limited time.
    Secretary DeVos. I know, but if I could just continue on to 
talk about the implementation of ESSA--allows for great 
flexibility in the States to target resources to effective 
teacher training programs and teacher improvement programs.
    Senator Schatz. But this goes back to----
    Secretary DeVos. So there is a lot of opportunity to use 
them to enhance teachers' effectiveness.
    Senator Schatz. Okay, I really do have limited time.
    This goes back to what former Governor Shaheen mentioned, 
which is that you are imagining revenue not in evidence. You 
are imagining flexibility that does not exist at the local 
level. So to say that, for instance, 21st Century Community 
Learning Centers or what is happening in Career and Technical 
Education or these dollars that support 40,000 teachers across 
the United States, to say that, ``Well, you know, that'll be 
handled by the private sector. That'll be handled through 
increased flexibility,'' you reduce the flexibility that 
education systems have by reducing the funding that they have.
    And it is sort of a rhetorical device to say they will be 
basking in new flexibility. But anybody who has run a 
government or anybody who has run a school does not want 
flexibility. They want resources. And what you are doing is 
cutting them massively.
    Thank you, Mr. Chairman.
    Secretary DeVos. Actually, what I have heard from a lot of 
State and local leaders is that they do want and need 
flexibility.
    Senator Blunt. Thank you, Senator Schatz.
    Senator Lankford.
    Senator Lankford. Thank you.
    Madam Secretary, thanks for your service and for stepping 
up, to be able to take on this.
    I would have to tell you that there is not a person on this 
dais that does not support education. We certainly believe that 
you support education. We have 50 million students that are 
involved in elementary and secondary education, and 20 million 
people involved in higher education. That is 70 million 
Americans. That is an awful lot of families and people that are 
directly affected based on what is going on, so we are all 
exceptionally passionate about this.
    I would also tell you, in my short time of being on the 
Appropriations Committee, it is a fairly rare moment, I would 
say, to sit in any hearing and to have a conversation about how 
we reduce Federal spending. It seems to be every request is 
that comes from every agency is, we need additional funds. And 
there is always more to do. There is no question.
    But for someone to come and say what you just said about we 
have to be able to find a way to be able to serve students and 
serve the taxpayers as well is a fairly rare conversation 
around these parts.

                  VOLUNTARY NATURE OF CHOICE PROPOSAL

    Let me just ask some clarification. You brought up earlier 
about this $1 billion increase in Title I funds dedicated to 
Furthering Options for Children to Unlock Success. The question 
came out, and the allusion to it earlier, how is this different 
than Race to the Top? And there was a concern from this dais 
that when President Obama was putting in place Race to the Top, 
it was really a requirement from the Federal Government. ``If 
you want these dollars, then you have to do our curriculum, do 
it our way. And if you do not do it our way, you cannot get the 
dollars that came out of your State to come back to your 
State.''
    How is this different than Race to the Top?
    Secretary DeVos. So the proposal is very much voluntary on 
the part of States. It is only if States want to and local 
education agencies and authorities want to attempt an 
experiment really to allow students to attend other public 
schools in their region. And it is in no way going to be 
mandated from the top that this has to happen or how it has to 
happen. Other than that--in order to do so, there has to be 
money to follow the child to the other school.
    So that is really the framework around which States or 
local districts would be able to opt into or adopt that part of 
that program.
    Senator Lankford. Does it give instructions to those States 
or those--on how to do curriculum, how to do teacher 
evaluation----
    Secretary DeVos. Not at all.
    Senator Lankford [continuing]. How to be able to do testing 
requirements, additional reporting that is beyond the ESSA 
requirements already put down by Congress?
    Secretary DeVos. No. We have seen that movie. We are not 
going to do that again.
    Senator Lankford. Yes, we all have. So, okay, grateful for 
that.

                           PARENT PLUS LOANS

    There is a concern as well when I talk to people in 
colleges about the Parent PLUS Loan program. And this is one of 
the things that we are going to have to address at this dais in 
law as well. But we would want to be able to have the 
administration's assistance as we walk through this.
    Many colleges talk about the growing size of student loans 
on those families, and those are students that are taking it 
out. The colleges are made aware of the student loans, and 
there are caps for those student loans and criteria for those 
student loans. But when you get to their parents in the Parent 
PLUS Loan that is not true.
    And many parents in their fifties are acquiring $50,000 and 
$60,000 worth of student loans in addition to what their 
students have that will be garnished from their Social Security 
checks in the days ahead based on the requirements of it.
    The colleges tell me over and over again they are not aware 
of that. They are able to work with students to limit their 
amount of student loans and to be able to counsel them. But 
they are not made aware of the Parent PLUS Loans, and they 
continue to accelerate. It is becoming a bigger and bigger 
issue.
    Do you have any other input on that or any background on 
that?
    Secretary DeVos. I am aware of that issue. And that, 
really, it really plays into the much larger question about how 
students are prepared and informed for their higher ed options 
and alternatives. And I think that as the higher ed bill or 
higher legislation is discussed, this is an area of concern 
that should be a part of that.
    Senator Lankford. Okay. We would love to have your 
cooperation on that, because we have to be able to resolve 
that.
    Secretary DeVos. Indeed.

                        OFFICE FOR CIVIL RIGHTS

    Senator Lankford. A quick story. I had a superintendent at 
a predominantly African-American school district in this 
particular area of my State who came and caught me a couple of 
years ago and said, we have to have your help. The Office of 
Civil Rights is out of control.
    I had heard that from higher education. I had heard that 
from secondary schools. I am hearing that from yet another 
superintendent, yet another principal. And the comments coming 
back to me were: We want to be able to honor every student, but 
we are given instructions from D.C. on how to be able to manage 
things.
    Now the President specifically gave instructions to review 
regulations. I would assume that this is going to be all 
regulations in all areas. But I would tell you, in particular, 
in higher education, our universities work exceptionally hard 
to be able to make sure every student from every background is 
honored in the process. But they tell me over and over, when 
someone comes out to do a Title IX piece, they have been given 
instructions from D.C. to find something, stay there until you 
find something to be able to put in this report, and then 
require that university to be able to write a letter.
    What I would like to work with you on in the days ahead is, 
let's help them succeed, not actually put someone out there 
that is going to stay there until they find something to be 
able to put into a report. But let's walk alongside, and where 
there is a problem, let's correct it. But let's not humiliate 
schools in the process. And I would love to be able to continue 
to work with your office on ways that is coming out.
    Secretary DeVos. I will welcome that opportunity, Senator.
    Senator Blunt. Thank you, Senator Lankford.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for testifying.

              PRIVATE SCHOOLS' DISCRIMINATION RESTRICTIONS

    Earlier, you said that if a charter school or a private 
school gets a dollar of Federal aid, they have to follow all 
the laws regarding discrimination. Is that correct?
    Secretary DeVos. That is correct.
    Senator Merkley. Thank you. But those laws are somewhat 
foggy in that area, so I want to be absolutely clear about what 
you are saying. Are you saying that, if you have a private 
school, because private schools generally set their own 
admission policies that they will not be allowed under your 
program to discriminate against LGBTQ students?
    Secretary DeVos. Senator, I said it before, and I will say 
it again, that schools that receive Federal funds must follow 
Federal law.
    Senator Merkley. And I just said Federal law is foggy. So 
in your understanding of Federal law, will such discrimination 
be allowed?
    Secretary DeVos. On areas where the law is unsettled, this 
Department is not going to be issuing decrees.
    Senator Merkley. So please just answer the question.
    Secretary DeVos. That is a matter for the Congress and the 
courts to settle.
    Senator Merkley. Is discrimination going to be allowed or 
not allowed, under your understanding?
    Secretary DeVos. On areas of unsettled law----
    Senator Merkley. Are you saying this is such an area, so 
discrimination is allowed?
    Secretary DeVos [continuing]. The Congress has to decide 
and settle.
    Senator Merkley. Are you refusing to answer the question?
    Secretary DeVos. I am going back to what I said earlier.
    Senator Merkley. Well, what you said earlier did not help 
us, since it is an area of unsettled law. But I think you just 
said where it is unsettled, such discrimination will continue 
to be allowed under your program. If that is incorrect, please 
correct it for the record.
    How about discrimination based on religion? Will such 
discrimination be allowed with charter or private schools?
    Secretary DeVos. Again, for schools that receive Federal 
funds, Federal law must be followed.
    Senator Merkley. What is that law in this case, to your 
understanding? Will such religious discrimination be allowed? 
Answer the question.
    Secretary DeVos. Schools that receive Federal funds will 
follow Federal law, period.
    Senator Merkley. Okay, you are refusing to answer the 
question. I think that is important for the public to know, 
that, today, the Secretary of Education before this committee 
refused to affirm that she would put forward a program that 
would ban discrimination based on LGBTQ status of students or 
would ban discrimination based on religion.
    Secretary DeVos. Sir that is not what I said. That is not 
what I said.
    Senator Merkley. I have asked you to clarify, and you have 
refused to do so.
    Secretary DeVos. Discrimination in any form is wrong. I do 
not support discrimination in any form.
    Senator Merkley. Does your program ban such discrimination, 
yes or no?
    Secretary DeVos. What program are you talking about?
    Senator Merkley. Your charter school and your private 
school grant program.
    Secretary DeVos. As I said before, and let me say it again.
    Senator Merkley. Saying the same thing 10 times when you 
are not answering the question does not help.
    Secretary DeVos. Schools that receive Federal funds need to 
follow Federal law, period.

                    INCOME DRIVEN REPAYMENT CHANGES

    Senator Merkley. Okay. Let's turn to your cost of college. 
You say that you want to reduce the burden of debt, but you 
have established a new program that is actually the same 
program. We have an income-driven repayment program, but you 
have made it more expensive. How does that help a student today 
pay for college if you simply take an existing program and make 
it more expensive, by $76 billion I might add?
    Secretary DeVos. The proposal is to move to a 12.5 percent 
discretionary income income-driven repayment plan. Actually, I 
saw an example of this the other day. It will sunset after 15 
years versus 20, and it actually, in the end, ends up being 
less costly for students under the 15 years.
    Senator Merkley. Let me point out that your budget takes 
$76 billion out of that program by raising it from 10 percent 
to 12.5 percent. And doesn't it require additional years if you 
have a graduate student loan involved?
    Secretary DeVos. That is correct.
    Senator Merkley. Isn't that 30 years?
    Secretary DeVos. Thirty years for graduate students.
    Senator Merkley. Thank you.
    Wouldn't it be better for a student to do Work Study in 
order to reduce the amount of debt that they have, but you cut 
in half the Federal Work Study program? Why not encourage 
students to be able to hold a job in college and reduce their 
debt rather than making them have a higher debt?
    Secretary DeVos. We are proposing reducing the Work Study 
program but not eliminating it.
    Senator Merkley. Right, but do you see the logic of my 
point, that a low-income student struggling with massive debt, 
wouldn't that person be better off being able to work in 
college and reduce their debt?
    Secretary DeVos. I think it is great for students to work 
in college, and work does not have to be limited to on-campus 
activity. There are other opportunities.
    But the Work Study program is targeted to undergraduate 
students, not to graduate school students.

                             PELL ADEQUACY

    Senator Merkley. Another thing that increases the amount of 
debt is the Pell Grant proposal you put forward does not keep 
pace, because you freeze it for that time period, does not keep 
pace with the inflation in public schools. So students go from 
having the Pell cover roughly 30 percent to covering only 25 
percent.
    Doesn't that make it harder for America's students who are 
from working and struggling families to pay for college?
    Secretary DeVos. Well, we believe that having year-around 
options is going to help, actually, students get through school 
much more quickly if they choose to. And the Pell program is a 
very important program for students most in need.
    Senator Merkley. Would you like to repropose a Pell program 
that does keep pace with inflation, so that it covers the same 
percent for working families?
    Secretary DeVos. The Pell program, I think the max award is 
$5,920. And it is an important program that has received 
priority funding in this budget. We want to continue to 
encourage those who are most vulnerable and the populations 
that are most in need of our support to pursue higher 
education.
    But I go back again to what I said earlier on a broader 
scale. We have to do a much better job of talking with students 
early on about their wide range of options.
    Senator Merkley. Okay. Thank you. My time has expired. But 
let me just note that the Secretary has failed to answer.
    Senator Blunt. Senator Merkley, your time has expired.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    And thank you, Madam Secretary. I want to say at the outset 
to thank you for the year-around Pell initiatives. I think that 
in a State like West Virginia will have great meaning, and 
certainly across the country.
    But I do have to express some frustration. I have been 
trying to talk to you about a very specific situation that 
exists at West Virginia State University regarding the Upward 
Bound program.

                          UPWARD BOUND PROGRAM

    Upward Bound has functioned on the campus of West Virginia 
State University, which is an HBCU in Institute, West Virginia, 
for 50 years. Unbeknownst to them, they have gotten knocked out 
of this program. Their error on their work sheet, not even on 
their actual application, was $104 over the maximum. So a $104 
on a worksheet has ended a 50-year relationship.
    I have co-signed two letters with my colleagues here in the 
Senate, because other Upward Bound programs are experiencing 
this great frustration.
    Last week, you testified in the House that you were going 
to have a willingness to review these rejected applications, 
and I am asking you for the same commitment today, and if you 
have begun doing that?
    Secretary DeVos. Senator, thanks for the question.
    The Upward Bound situation, as you know, brought great 
frustration to me when I discovered that competition that was 
opened and closed before I ever got in this role was rejecting 
applicants based on formatting errors.
    Senator Capito. Right.
    Secretary DeVos. We are talking about two different things 
here, formatting versus budget. And the only way we could 
actually revisit the 77 applicants that were rejected because 
of formatting errors was because of the action in the omnibus 
bill that specifically said to look again at the formatting 
errors and an additional appropriation accompanying that.
    So we are talking apples and oranges here, unfortunately. 
And though I would love to be able to look at that the one 
again, we cannot.
    Senator Capito. Well, I do not accept that you cannot 
relook at something. I have letters here from the students that 
are in that program, many of them the students that have no 
options. They have parents that have not gone to college. For 
the first time, their grade point averages have gone up. 
Several of them are in really desperate family situations, 
where, if it were not for Upward Bound, they would not have had 
the opportunity or the aspirations to attend college and 
further their education.
    So I am asking again to look at that one again.
    I am going to move to something else right now, something 
Senator Shaheen was talking about. We both come from rural 
States, smaller states that have limited budgets, and I am 
concerned about the 21st Century Community Learning Centers, 
having visited many of them myself in our State.

                       PROPOSED AFTER SCHOOL CUTS

    Seven thousand kids in West Virginia will not receive 
services because of this cut. So you are talking about after 
school, many times when parents are not there, the mentoring, 
the fun, the nutrition, the leadership skills, homework help, 
and all the things that occur in after-school programs.
    I mean, it is a situation where, if both parents are 
working, or a lot of times, we have so many single parents or 
grandparents who are raising children who cannot be home when 
the children get home.
    I mean, what alternatives--you mentioned in response to her 
that the alternative is that the State is going to take that 
over, which she rejected because of funding issues. My State, 
and Senator Manchin, our State is $500 million in the hole. 
This is not something we are going to be able to expand 
statewide.
    And you questioned whether they are successful. Of the 
higher education students that have participated in this 
program, in our State, there has been 100 percent graduation 
accomplishment, which is well above our statewide average.
    So I would ask you to relook at that. Again, talk about 
21st Century and why that was zeroed out in your budget.
    Secretary DeVos. Thanks, Senator.
    As I said earlier, the decisions in the budget proposal was 
really based on some tough choices and tough decisions, and 
looking at programs that, for their effectiveness and the 
number of students that are served, and again the 21st Century 
learning plan or 21st Century Community Learning Center 
Programs are really reaching only less than half of the 
students for whom they are intended. And of the half of 
students that actually participate, there is very inconsistent 
participation on their part.
    So we were really trying to focus on actual education 
settings. You know, 21st Century is before- and after-school, 
summertime, and so forth, so not really focused on the core 
mission.
    As I said, we made some tough choices and tough decisions 
around this, but this one was deemed to be one that was not as 
effective and not as appropriate for a funding proposal from 
this department.
    Senator Blunt. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Secretary DeVos, I want to thank you for testifying today. 
I will reiterate what my colleague and my good friend Senator 
Capito has said about the concerns that we have.
    One thing that keeps us bipartisan here in the Senate is 
veterans and children. We seem to really cross over and really 
want to help. And I think we all very much care about that, but 
one size doesn't fit all.
    I also would like to welcome a couple of West Virginians we 
have with us, and they were very concerned about the cuts from 
the 21st Century Community Learning Centers. We have with us 
Pamela Shope. She is from the Playmates Preschool and Child 
Development Center in Ceredo, West Virginia, which is a 21st 
Century Community Learning Center site. She has also her 
children, Brendan and Aiden, with her. So we want to thank them 
for being here.
    And I hope you get a chance maybe to meet with them before 
you leave, because they are really quite something.

                RURAL SCHOOLS AND FEASIBILITY OF CHOICE

    Rural schools, we have talked about rural schools, the cuts 
and all this that are coming. And I know you still feel 
strongly about the school choice. In States such as West 
Virginia, a rural setting in West Virginia makes it hard. We do 
not have that luxury of having that choice, because we have a 
lot of schools that are consolidated already closing--lack of 
students and things of this sort.
    With the cuts because of the support of the choice program 
in a State that doesn't have a choice program or an effective 
choice program that would work because of our ruralness, how 
can we make up that difference? Is there any flexibility that 
you have that we could work to help some of the schools' 
programs that were cut, through the money that they are not 
going to be asking from you for choice?
    Secretary DeVos. Senator, thanks for the question and, more 
broadly, the question around rural schools. As you know, the 
special line item for rural schools has been maintained and is 
proposed to be the same as it was for the last year. That does 
provide rural schools the opportunity to do some things 
differently or in addition to what all of the funding through 
the other title plans do.
    But when it comes to addressing specific needs in West 
Virginia, I go back to the opportunity that the State has 
through its ESSA plan to really target in and focus on 
addressing the needs that West Virginian students have and the 
uniqueness there. The flexibility that is built in that you all 
put into that legislation to allow States and local districts 
to be able to do some things differently than they have been 
forced to do before we believe will provide a lot of 
opportunity, and I am hopeful that will see some creativity in 
that regard.
    Senator Manchin. Let me talk about another subject here. 
The Every Student Succeeds Act included a new program called 
the Title IV Student Support and Academic Enrichment Grants 
program. The block grant is designed to provide States and 
school districts flexibility to provide a wide range of service 
support for well-rounded education.

                            OPIATE ADDICTION

    We are getting pummeled by the opiate addiction that goes 
on in our State and around this country. So I understand that 
the Department stripped the funding from the block grant that 
can be used to help States like mine that is being devastated 
by opiate addition.
    I do not know whether you all realize the effect it is 
having in the family and the family support, and why this was 
so important to States to try to build some type of a structure 
when it functionally has collapsed in the family or in the 
community because of opiate addiction.
    Secretary DeVos. Well, the issue of opiate addiction is 
really a very concerning one to many communities. And, again, I 
go back to the contention that West Virginia has an opportunity 
to really focus----
    Senator Manchin. Well, they do not have the money to do it. 
That is the problem when you cut it. We all have well and good 
intentions, I understand. But the State is facing some real 
budget challenges like other States, too.
    And these programs are so vitally important to just 
stabilize a structure that has fallen apart. And the opiate 
addiction that affects the child's family is just devastating.
    Secretary DeVos. Yes, the Promise Neighborhood program can 
help in that regard, I believe.
    I also want to just go back to a comment that was made 
earlier about State and local school budgets that are reducing 
and correct that. In fact, the spending estimate increase in 
State and local funding for education between this year and 
next year is expected to increase $21 billion in the States. So 
there is not a decrease in funding at the State and local 
level. There actually continues to be a greater investment on 
the part of State and local governments, so I wanted to just--
--
    Senator Manchin. We are going to hope that maybe somebody 
from your department would come to West Virginia and go through 
our department with them and explain that, because they are 
looking at it as cuts, and maybe there is some way we can work 
something out. We would love to do that.

                          MEDICAID IN SCHOOLS

    I know my time is running out. I want you to consider 
Medicaid in schools, because Medicaid in schools is sometimes 
the first line of delivery to some of these children that they 
get any type of healthcare. That is very, very concerning to 
us, so I hope you would consider that.
    I would love to get with your agency and sit down and see 
if we can have a visit to West Virginia.
    Secretary DeVos. I would welcome that, thanks.
    Senator Manchin. Thank you.
    Senator Blunt. Thank you, Senator Manchin.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your service.

                  GROWTH IN FEDERAL EDUCATION SPENDING

    My research shows that the Department of Education's 
discretionary budget has quadrupled from fiscal year 1989 to 
the current fiscal year. It has gone from $17.1 billion to 
$68.3 billion. Does that sound about right?
    Secretary DeVos. That does sound about right, yes.
    Senator Kennedy. And I know that part of your job, the 
biggest part of your job, is to advocate for education. But 
also part of your job is to manage taxpayer money. Is that not 
the case?
    Secretary DeVos. That is correct.
    Senator Kennedy. Now, when you were sworn in and got 
comfortable at your department, you had a chance to go through 
the $68.3 billion budget. Did you find waste?
    Secretary DeVos. We are finding waste pretty regularly. And 
part of the President's admonition to us is to actually do a 
whole review of the department, and that has been initiated. 
And I expect in the coming months, we are going to have a lot 
more to say about that.
    Senator Kennedy. Do you find it at all strange that, in 
America now, we seem to judge success in education by how much 
money we are spending as opposed to whether our kids are 
learning?
    Secretary DeVos. I do find that strange. And in fact, in 
the last administration, there was $7 billion invested 
specifically into schools that were failing or deemed failing 
to improve them, and there was absolutely zero outcome from 
that investment. So, yes, the notion that spending more money 
is going to bring about different results I think is ill-placed 
and ill-advised.
    Senator Kennedy. What do we spend, on average, throughout 
America per public school student? I have read $12,000, 
$13,000?
    Secretary DeVos. It is between $12,000 and $13,000, I 
believe.
    Senator Kennedy. I read once that we spend--that Slovakia 
spends about half the money, but we rank the same. Have you 
seen that?
    Secretary DeVos. I have seen those statistics, yes.
    Senator Kennedy. Okay. You are aware, I am sure, that some 
people do not like you, because you support vouchers and 
charter schools?
    Secretary DeVos. I am peripherally aware of that, yes.
    [Laughter.]
    Senator Kennedy. I have this theory about education in 
America, that our problem is not higher education. We have the 
best colleges and universities in the world. We have a problem 
paying for kids to go there, but people from all over the world 
want to come here to further their education.
    Our problem is elementary and secondary education. And 
Americans have demonstrated that they can do extraordinary 
things. We can--I was out at NIH yesterday. We can unravel the 
human genome. We can take a diseased human heart and replace it 
with a new one and make that thing beat. We can send somebody 
to the moon and bring them back. But we cannot seem to teach 
our kids how to read and write and do basic math when we have 
18 years to do it.
    Secretary DeVos. That is true in all too many cases.
    Senator Kennedy. And I do not understand that.

          SCHOOL CHOICE AND OPTIONS TO IMPROVE P-12 SCHOOLING

    Now, I will support anything, and I suspect you are the 
same. I do not care what the political cost is. I am willing to 
try just about anything to improve public elementary and 
secondary education, including vouchers, including school 
choice, including charter schools.
    Now I can go down to my overpriced Capitol Hill grocery 
this afternoon and choose among about six different types of 
mayonnaise. How come I cannot do that for my kid in school?
    I am almost at the end of my time.
    What percentage of the elected officials in America that 
give advice about elementary and secondary public education do 
you think really know what it is like to be in a classroom?
    Secretary DeVos. I think that is a very good question. I do 
not have the answer to that, but it is a really good question 
to ponder.
    Senator Kennedy. Would you support a bill that said that 
any elected official--and we may have to narrow it down--that 
any elected official that makes policy for elementary and 
secondary education should be required to substitute teach in a 
public school at least once a year?
    Secretary DeVos. That would be an innovative approach, for 
sure.
    Senator Kennedy. Now, I want you to understand, I am not 
talking about going to a civics class and talking about how a 
bill becomes a law. I mean a real teacher. You start at quarter 
to 7:00. You go to 2:45. You do lunch duty. You do bus duty. 
You teach four or five classes. It is you and the kids.
    Secretary DeVos. That would be an interesting exercise, for 
sure.
    Senator Kennedy. We will talk about it. I am out of time.
    Senator Blunt. Thank you, Senator Kennedy.
    Secretary DeVos. Thank you, Senator.
    Senator Blunt. Thank you, Senator Kennedy.
    Senator Baldwin.
    Senator Baldwin. Thank you.

                     CAREER AND TECHNICAL EDUCATION

    Secretary DeVos, we had a chance to meet prior to your 
confirmation hearing, and you and I talked about a lot of 
issues, but one of the things that appeared to be an area of 
agreement was the importance of Career and Technical Education, 
otherwise known as CTE.
    As a co-chair of the Senate CTE Caucus, it is an issue of 
great importance to me, and certainly to my home State of 
Wisconsin. Yet I look at your proposed budget cuts for the 
Perkins Career and Technical Education Act, it is a $168 
million cut, and the more than $1.5 billion in cuts through the 
elimination of the Student Support and Academic Enrichment 
Grant and the 21st Century Community Learning Centers Program 
that some of my colleagues have been asking you about from both 
sides of the aisle. Both of these programs request be used to 
support Science, Technology, Engineering and Math (STEM) 
education.
    Instead, you propose an unauthorized $20 million 
competitive grant for career and technical education programs 
in STEM fields.
    So I want to ask you how would $20 million for competitive 
grants make up for or replace the more than $1.5 billion in 
formula funding for programs that could support career and 
technical education and STEM education efforts in every State?
    Secretary DeVos. Senator, thanks for that question.
    And let me reiterate, we do share the real interest in 
ensuring that students have all the options on the table for 
pursuing really great futures through career and technical 
education.
    Senator Baldwin. I want you to speed up your answer, 
because I have two more questions I want to get in, in the 
time. So get to the----
    Secretary DeVos. So, again, as we talk about higher ed 
legislation, I think career and technical education needs to be 
a part of that broader discussion. And, right now, we have a 
lot of efforts that really overlap this housed in the 
Department of Labor and administered there. I think there is 
some duplicative----
    Senator Baldwin. So you are suggesting that this $20 
million competitive grant would do the job because the others 
are all duplicative?
    Secretary DeVos. The competitive grant is one--to spur some 
innovation and creativity. No, it is meant to really spur some 
innovation--encourage and foster some innovation and 
creativity.
    Senator Baldwin. While eliminating the others.
    Okay, I want to get on to my next question. College 
affordability is a huge issue. Your budget would make college 
less affordable for students in my State, because it targets 
three campus-based programs, Perkins Loans, the Federal Work 
Study program, and the Supplemental Educational Opportunity 
Grants, all of which allow campuses to target and fine-tune 
financial aid to students that they know to be in need, 
sometimes saving from a situation where somebody is about to 
drop out.

       ELIMINATION OF SUPPLEMENTAL EDUCATIONAL OPPORTUNITY GRANTS

    Yet your budget slashes all of them, including the 
Supplemental Educational Opportunity Grants. It cuts Work Study 
in half. And it supports an end to the Perkins Loan program. 
That program, by the way, has provided over $60 million in aid 
to students in need in Wisconsin this past academic year.
    It also cuts billions from other programs that make college 
more affordable, like Federal subsidized loans and Public 
Service Loan Forgiveness, which breaks a promise, in my mind.
    Just some of these cuts in aggregate in my home State would 
mean that we would lose about $107 million in financial 
assistance for students. How do these truly draconian cuts in 
Federal financial aid programs reflect anything other than an 
effort to push college further out of reach to more and more 
young people?
    Secretary DeVos. The budget really seeks to make college 
and higher ed options more flexible for students. The Perkins--
--
    Senator Baldwin. The campus-based programs I was talking 
about are particularly flexible----
    Secretary DeVos [continuing]. Funding was not reauthorized.
    Senator Baldwin [continuing]. Because they are controlled 
at the local level.
    Secretary DeVos. Remember, the Perkins funding was not 
reauthorized by Congress.
    Senator Baldwin. It is in effect right now.
    Secretary DeVos. Well, again, going back to the bigger 
picture, offering year-around Pell, giving more flexibility to 
students to pursue their education as quickly or over as long a 
period of time as they need, realizing that students today have 
different needs and are going to go about their higher ed in 
different manners.
    The other program to which you were referring, the Federal 
Supplement Educational Opportunity Grant, is duplicative of 
Pell. And we really think that, again, focusing on the students 
who are most in need of having the most direct control out of 
it through the Pell program----
    Senator Baldwin. Secretary DeVos, I am going to cut you 
off, because we have run out of time. But I hoped to get to a 
third question, so I will submit it for the record, relating to 
the Title IX guidance to schools about the rights of 
transgender students.
    Senator Blunt. Thank you, Senator.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you for being here today, Madam Secretary.
    It strikes me, this whole debate about education, I 
approach it as someone who went to public school my entire 
life, who would not have been able to go to college without 
Pell Grants and student loans. I paid Sallie Mae a lot of my 
money. Never met her, but she took a lot of my money, over 
$130,000 in student loans.

                 NUANCES AFFECTING CHILDREN'S EDUCATION

    But it strikes me, all these debates we have about 
education nowadays are basically about how much money we put or 
not put into a model of public education. And I think one of 
the nuances--I am not accusing you of this. The question really 
is, how does this budget account for this reality--as I see it, 
as now a parent with four children still in the K-12 system--
how does the budget account for this new reality that what we 
are dealing with is incredibly nuanced and complex?
    I have three teachers in my family. Thanksgiving and 
Christmas are always interesting, but you learn a lot. One of 
them is now an assistant principal, my sister.
    And what you learn is that, first of all, one of the things 
we do that these other countries do not do is we teach 
everybody. And we should. There are places in this world where, 
if you are disabled, where if you do not get good enough grades 
in second grade, they stop trying with you. We do not. We 
should never do that. That is one of the things that makes us 
unique.

              EXTRACURRICULAR FACTORS INFLUENCING STUDENTS

    But the other is that children bring to the classroom 
everything. They bring it all. So if a child, here is the 
reality, if a child is living in a dangerous neighborhood in 
substandard housing in a broken home, this child is going to 
struggle to learn, unless there are things in place to assist 
them both inside and outside of school. And that costs money. 
And not only does it cost money, it also takes innovation to 
try to figure out--what works in a certain place may work 
differently somewhere else.
    I can just tell you now, as a parent, this summer, right 
now, we are a week or a few days away from school letting out, 
if the kids do not stay on school work over the summer, they 
are going to lose a lot of what they learned. Now, luckily, we 
are able to afford some help in that regard. But what about the 
people that cannot?
    So what ends up happening is years and years of these 
disparities build up so that by the time a child is in 7th, 
8th, 9th, 10th grade, they are literally behind the curve, and 
they do not have an equal opportunity of success all because of 
socioeconomic factors, which are interrelated.
    And I do not want to put it all on poverty. I have 
relatives that work at schools that are not in poor 
neighborhoods, and the lack of parental involvement is an issue 
that teachers struggle with as well.
    But the reality of it is that the nuances are difficult. 
And, in particular, as our society continues to change and 
become diverse, one of the things you experience, this is a 
reality, the best schools in Miami-Dade County where I live are 
public schools. But a lot of people pay to take their kids out 
of those schools because they are paying for environment, 
because they either have a bad perception that may not be based 
on reality or whatever it may be.
    So there is excellent work happening at our public schools 
across this country.
    So my point is, in a country that has become so diverse and 
so different geographically and along so many different lines, 
how does this budget account for that in terms of the Federal 
role in incentivizing competition and innovation while still 
understanding that in order to address some of the basic things 
in the school system--if a kid does not have access to Wi-Fi, 
nowadays in the 21st century, they are going to struggle to be 
able to complete homework. If they do not have access to a 
computer network, if they do not have access to an electronic 
device that they can use to learn, they are going to struggle. 
That is a fact. Among other things--if a child is showing up to 
school hungry, if the child is homeless, if the child is living 
in an environment that is not conducive to learning, if a child 
doesn't have someone at night that is making sure they are 
doing their homework or following up or interacting with 
teachers, these children are going to struggle. And I 
understand the school system and government cannot step in that 
role and fill the entire gap.
    How does this budget account for all of this and ensuring 
that what we want to make sure is that we have an education 
system in this country that lives up to our motto as a Nation 
that all of us are created equal and that we all deserve the 
equal opportunity to fulfill our God-given potential?
    Secretary DeVos. Senator, thank you. I couldn't agree more 
with everything that you have just said about the students and 
our opportunities.

                      STATE AND LOCAL FLEXIBILITY

    This budget seeks to fund and give the greatest amount of 
flexibility to States and local authorities to make the 
decisions that are best, that are going to be best for the 
students that they are serving. It seeks to turn over control 
and a one-size-fits-all, top-down mandated approach that has 
been a part of this Department for a number of years, and 
really recognize the fact that every student, every child is 
unique.
    It starts to, in some ways, help empower parents to make 
decisions for children, for their children, not based on their 
ZIP Code and the assigned school to which they are forced to 
attend sometimes. It really does seek to shift that focus 
toward States, local communities, and, more importantly, to the 
parent to allow the parents to make the decisions that are 
right on behalf of their children.
    It certainly does not get us all the way there. And I 
believe, fundamentally, that parents should have that 
empowerment and that right. And we talk about parental 
engagement. When parents have an investment because of a 
proactive decision they have made, there is a lot more 
engagement naturally as a result of that.
    Senator Rubio. My time has expired. This is not a question, 
but you would agree that the ability of a child to learn is not 
simply based on the classroom experience? All these other 
programs we debate up here, whether these kids are eating, 
whether they have access to healthcare, all of these other 
things are relevant factors----
    Secretary DeVos. It certainly all has----
    Senator Rubio [continuing]. That all have to be taken into 
account.
    Secretary DeVos. Indeed.
    Senator Blunt. Thank you, Senator Rubio.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Thank you for being here, Madam Secretary.
    With all due respect to my colleague from Louisiana, 
education is not mayonnaise. And, frankly, the day that we 
start treating the education of our children like we do the 
marketing of a condiment is the day that we have given up on 
our kids.
    And that is at the foundation of my worry about some of the 
proposals that you put forth in your budget.

                      FOR-PROFIT CHAPTER OPERATORS

    K12 is a for-profit operator. It was a for-profit operator, 
one of the biggest in the country. Your family was invested in 
it.
    A New York Times article on this organization said that a 
portrait emerges of this company as trying to ``squeeze profits 
from public school dollars by raising enrollment, increasing 
teacher workload, and lowering standards.'' As a researcher at 
the University of Colorado said, the people that are running 
these for-profit companies are ``fundamentally trying to do to 
public education what the banks did with home mortgages.''
    You and I have a fundamental disagreement. I just do not 
think there is any room in our public education for individuals 
making millions of dollars, making their fortune off of 
taxpayer dollars. But to the extent that you want to move more 
public dollars into the private sector, some of it will end up 
in the hands of these for-profit charter school operators.
    So my question is, does your proposal require any of these 
companies to disclose their profits? Will it cap the salaries 
of these CEOs? What specific protections will be in your 
proposal, in your program, to make sure that taxpayer dollars 
do not just end up enriching the pockets of the folks that own 
these companies?
    Secretary DeVos. Senator, thanks for that question.
    I think your question more broadly is better framed around 
what are students achieving. And I think the question is not 
what the tax status is----
    Senator Murphy. That was not my----
    Secretary DeVos. I do not think the question is the tax 
status----
    Senator Murphy. No, that was my question.
    Secretary DeVos. The question is not, in my view, it is not 
the tax status of the school. It is, what are students 
achieving?
    Senator Murphy. You can have any view of my question you 
want. But my question is, what protections will be on taxpayer 
dollars to make sure that the heads of these companies do not 
end up becoming millionaires or billionaires off of the 
operation of these schools?
    Secretary DeVos. If parents are making choices, regardless 
of the tax status of the school to which they are sending them, 
whether it is a for-profit managed institution or a not-for-
profit, if students are achieving and parents are making those 
choices on behalf of their children, I think those are the 
better measures to be oriented around.
    Senator Murphy. I understand. There will be no protections 
for taxpayer dollars. I understand that you have a belief in 
the market, that that will end up solving the problems that may 
encounter.

                       EAST HARTFORD HIGH SCHOOL

    But here is my worry. You spent some time today talking 
about students in East Hartford, Connecticut. And I 
fundamentally do not believe that this administration cares 
about the outcomes of students at East Hartford High School, 
because if you did, you would not be proposing these massive 
cuts in the programs that help the kids of East Hartford High 
School.
    You are talking about massive cuts for after-school 
programs that help kids in places like East Hartford. You are 
talking about massive cuts in Career and Technical Education. 
You are talking about eliminating support for teacher training.
    All you are giving is the opportunity to choose a different 
school. But the fact of the matter is, that is not a panacea, 
right?
    In Michigan alone, 70 percent of the charters in Detroit 
ranked in the bottom 25 percent of the State's schools. And you 
cannot just chalk that up to the difficulty of educating kids 
in Detroit, because the majority of African-American kids that 
were attending charter districts statewide performed worse than 
many of the students in those city schools.
    So, ultimately, to me, this cannot be about the kids in 
East Hartford, because if it was, you would not be taking all 
this funding away from them, and you would not just be throwing 
them out into a market-driven system that seems mostly about 
enriching the salaries of the CEOs who run these companies.
    This seems about a massive transfer of money from the 
public sector to the private sector, with no protections around 
it.
    So I would hope that, in devising this proposal, you will 
go back and think about making sure that kids get protected, 
whether they are in a public school or private school, and that 
our taxpayer dollars do not end up simply being transferred to 
pad the pockets of the folks that are operating these schools.
    I understand that you have talked a lot about students in 
East Hartford, Connecticut, but I do not see anything here that 
will help these kids. All of their programs get cut that 
matter, massive cuts in support for public education, and then 
an invitation to go into the private sector. And in the private 
sector, they will find good schools and they will find bad 
schools. But those private sector schools or those charter 
schools will be enduring the same set of cuts that come to the 
public schools. And in the end, it may simply be a way to pad 
the pockets of the folks that operate the schools.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Moran.
    Senator Moran. Chairman, thank you very much.
    Madam Secretary, thank you for joining us.

                     YEAR-ROUND PELL GRANT GUIDANCE

    Let me ask, when I was last in the room, Chairman Blunt was 
asking about Pell Grants. Let see if I can be certain I have an 
answer to a question that I have been asked.
    We authorized Pell Grants in the fiscal year 2017 budget 
for year-round, so-called year-round Pell. However, the 
colleges and universities cannot distribute that aid until the 
Department of Education issues guidance. Summer courses have 
already started on many of our college campuses. How soon will 
the guidance be issued and will it be in time to be utilized by 
students for this summer's classes?
    Secretary DeVos. Thanks, Senator.
    Yes, indeed, we are on track to have them ready for 
launching the program July 1st, so for the summer.
    Senator Moran. Just a reminder that some classes have 
already started, but that is good to know they can include this 
summer in that plan.
    Secretary DeVos. Yes.

                              IDEA FUNDING

    Senator Moran. All right. IDEA funding, in a conversation 
that you and I had, you committed yourself to working with me 
to see that IDEA is fully funded. And it appears that the 
President's budget, the administration's budget, is level 
funding. That is not always bad in today's environment, but I 
would again ask you if there was not a way that you could 
prioritize any of the funding that is included in the budget 
toward IDEA, as compared to something else or the decisions 
that you made were based that other things are a higher 
priority?
    Secretary DeVos. Yes, well, actually, the level funding 
would actually represent almost--if you are looking at the cuts 
to other areas, we have a real commitment to funding IDEA.
    And as you probably recall, when IDEA was originally 
passed, the target was to support it at the 40 percent level. 
The current funding has run somewhere around 15 percent. And 
certainly, if Congress wanted to approach a higher level of 
funding for IDEA, the students that we serve are certainly 
deserving of that.
    Senator Moran. I think your point being that in today's--
with cuts in other programs, level funding, IDEA was a priority 
for you?
    Secretary DeVos. It has been. It certainly is a priority, 
yes.

                          TITLE I ESEA FUNDING

    Senator Moran. Let me ask you about Title I. There is a $1 
billion increase in the budget request for Title I, but it is 
over and above other funding at Title I, and that additional $1 
billion is to support local education agencies who adopt an 
open enrollment system.
    Again, in a conversation that you and I had, you committed 
to me that you would not support, the department would not 
support, mandating options for States uninterested, States and 
local boards of education, uninterested in having that option.
    Secretary DeVos. Correct.
    Senator Moran. That is still true?
    Secretary DeVos. That is still true.
    Senator Moran. And I can--in fact, it would be perhaps 
better if you would reassure folks in Kansas that there is not 
money that is coming from current funding for Title I that is 
being used elsewhere.
    Secretary DeVos. That is correct. That is correct. The 
proposal is to level fund Title I funding, and then have an 
additional billion dollars that would be available to States 
that want, States or local districts, that wanted to opt into a 
public school choice program in their geography.
    Senator Moran. But no State that does not make that option 
would have Title I funds reduced. Is that true?
    Secretary DeVos. Correct.

                           IMPACT AID FUNDING

    Senator Moran. Let me mention, finally, Impact Aid, and 
just reiterate to you its importance and to remind you and the 
administration of its value, particularly in the President's 
stated desire of supporting our military men and women and 
their families.
    We need to make certain that Impact Aid is appropriately 
supported. And while I make that statement, I would welcome any 
response that you might have.
    Secretary DeVos. Correct. And the budget proposal does 
continue to fund Impact Aid programs, with the exception of the 
recommendation for payments for Federal property where there 
are no federally connected children involved. And kind of a 
reminder that I think it has been 40 years since the 
legislation was initially passed, and hopefully, those areas 
would have been able to figure out that tax-base issue over the 
period of 40 years. But there are no children involved with 
that particular piece of the Federal Impact Aid budget.
    Senator Moran. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Moran.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary.

      REQUIREMENTS RELATED TO IDEA, CIVIL RIGHTS AND SCHOOL CHOICE

    Following along a similar line of questioning that Senator 
Murphy engaged in, is it the proposal that these for-profit 
elementary schools, or non-for-profit, must take all children 
who apply? Is that a requirement?
    Secretary DeVos. I am sorry, sir, the for-profit elementary 
schools?
    Senator Reed. You have a parent that wants to go to a 
particular school, a for-profit school, a not-for-profit 
school, not a public school, would that school be required to 
take the student?
    Secretary DeVos. Are these schools that are receiving 
Federal funds?
    Senator Reed. You are proposing a voucher system, 
apparently, which would be Federal funds.
    Secretary DeVos. I am just trying to understand the 
hypothetical question. If there are schools that are receiving 
Federal funds, they need to follow Federal law.
    Senator Reed. So a private, for-profit school would have to 
take a disabled student. They could not reject anyone who 
showed up with a voucher.
    Secretary DeVos. Any school that is receiving Federal funds 
has to follow Federal law, period.
    Senator Reed. But what does that mean? Specific question, 
would they have to----
    Secretary DeVos. Just what I said, that they would have to 
follow the Federal laws.
    Senator Reed. They would have to accept a disabled child. 
They would have to have an individual education plan, which 
they would follow. It would be exactly like a public school. Is 
that your position?
    Secretary DeVos. If the school is accepting Federal funds--
--
    Senator Reed. Let me ask another question.
    Secretary DeVos. Let me also refer to the fact that States 
have implemented programs that--for disabled students that 
parents willfully elect into and opt into. Parents are making 
those decisions. There is no requirement.
    Senator Reed. That is what I am saying. The parent decides 
they want to go to this school, and they come up. The school 
would have to accept that student. If the student had severe 
disabilities, they would have to accommodate their program to 
deal with that student's special disability. Is that your 
position?
    Secretary DeVos. If a school is accepting Federal funds, 
they are going to follow Federal law.
    Senator Reed. So the voucher that is used to pay----
    Secretary DeVos. I will repeat again, if they are accepting 
Federal funds, they will follow Federal laws.
    Senator Reed. Let me ask you a question. You would consider 
that voucher Federal funds requiring them to follow Federal 
law?
    Secretary DeVos. Well, first of all, there is no voucher 
program currently, so this is all a hypothetical question.
    Senator Reed. It is not hypothetical.
    Secretary DeVos. It is, because there isn't one.
    Senator Reed. No, because you are going to publish rules, 
Madam Secretary, that is going to say you have to follow 
Federal laws if you accept this voucher, which is Federal 
funds.
    Secretary DeVos. I have said before that if a school is 
accepting Federal funds, they have to follow Federal laws.
    Senator Reed. So let me ask you a question. A for-profit 
school accepts a voucher, because that is what you are talking 
about, giving the parent the chance to move out of a public 
system into a private system. That would be considered by you 
the acceptance of Federal funds, requiring the school to follow 
all the requirements that a public school would follow?
    Secretary DeVos. Any school that accepts Federal funds will 
follow Federal laws, period, without discrimination.
    Senator Reed. So your answer is yes, so the voucher system 
will trigger for-profit private schools, or not-for-profit 
private schools, to accept all students, as public schools do, 
to follow all the rules, particularly with regard to disabled 
children. That is the only conclusion I can draw from your 
answers, which are rather cryptic.

                    CUTS TO HIGHER EDUCATION FUNDING

    Let me turn now to the higher education issues. The Pell 
Grant you seem to be suggesting as the appropriate mechanism 
and the only appropriate mechanism, because most of the other 
Federal programs are zeroing out, the Supplemental Educational 
Opportunity Grants, cutting Federal Student Aid in half, and 
yet you take $3.8 billion from the surplus of the Pell Grants 
rather than providing for additional, larger Pell Grants, et 
cetera. How does that make college more affordable?
    Secretary DeVos. Well, sir, the proposal is to take $3.8 
billion from the surplus, leaving $4.9 billion in the surplus. 
And if there is a desire to increase the Pell Grant, you know, 
the Pell Grant amounts for students, I think that is something 
that you have to consider.
    Senator Reed. Well, if we did, where would we get the 
money? We already have $3.8 billion in the Pell Grants system.
    Secretary DeVos. Well, there is--the Pell program continues 
to be fully funded and have supplemental resources there, so it 
will continue to be very healthy into the foreseeable future. 
And if you want to adjust the Pell rates, you certainly have 
the opportunity to do that.
    Senator Reed. And you would support that with a budget 
authority?
    Secretary DeVos. I am not suggesting it. I am saying that 
if that--if it is your desire to increase it, you certainly 
have the opportunity to do that.
    Senator Reed. We also have the opportunity to reject your 
suggestions and increase significantly the Pell Grants.
    Secretary DeVos. I acknowledge that.
    Senator Reed. Thank you very much, Madam Secretary.
    Senator Blunt. Well, thank you, Senator.
    We are going to take time for a second round of questions, 
if anybody wants to participate in that. I think Senator Murray 
and I both do.

                              PELL GRANTS

    On the Pell Grant issue, when you go to year-round Pell, 
that increases the Pell potential by 50 percent. So the Pell 
cap would be $8,880, and some observation was made here earlier 
that the Pell Grant only pays for 25 percent of education 
costs. That, obviously, depends on where you go, because there 
are a lot of places that you can go that the Pell Grant pays 
for 100 percent of the education costs. It may not pay for 
living costs.
    But I think we do not want to underestimate the impact of 
year-round Pell to help people progress toward their goal of 
getting a degree, getting whatever they are in school for to 
enhance their future abilities. But the annual cap now on Pell, 
if you choose to go year-round, would be $8,880, not $5,900. It 
does not mean we should not look at the $5,900. It just means 
that that is not a cap that somehow is now spread out over 12 
months instead of 9. That cap increases.
    Also, I mention, for Senator Kennedy's test on education, 
Senator Murray and I both were public school teachers, so we 
can pass the test. We are not sure that we would want to wish 
our colleagues on every student in America for even a day. But 
some of them would be really good, and some of them not so 
good.
    Secretary DeVos. I think it would be interesting.

                      STATE VS. FEDERAL AUTHORITY

    Senator Blunt. Now on this issue of Federal law that has 
come up several times, I am not going to ask you to repeat what 
you said on that.
    But I would say that your predecessor wanted to write his 
own Federal law. My impression is that is not what you want to 
do. And the department in the past sent guidance letters, did 
not even want to go through the regulatory process that had 
public input, sent guidance letters of what the Secretary of 
Education thought the Federal law should say, even though that 
clearly was not what the Federal law did say.
    I do not believe it is your job, as Secretary of Education, 
to decide what the Federal law says.
    Secretary DeVos. I agree.
    Senator Blunt. If it is murky, the Department of Education 
is not the place to settle what Federal law says. That is the 
job of either the courts or the Congress, not the Department of 
Education. And I think that is what I hear you repeatedly 
saying, and I agree with that.

                     PURPOSE OF IMPACT AID PROGRAM

    Something you said I do not agree with, on Impact Aid, ``no 
federally connected children involved.'' But if you have a 
school district that has national forests, that has military 
facilities, that your school buses have to run through, that 
you have lost that tax base, the argument for Impact Aid has 
always been that the Federal Government needs to, in some way, 
restore the lack of potential for a school district to deal 
with that issue that the Federal Government has created.
    When the school bus has to drive another 60 miles because 
that is what it takes to get through the national forest, even 
if there are not any students there, that 60 miles of no 
taxpayer is created by the Federal Government. And while the 
Impact Aid reduction is not a big reduction, it is a reduction. 
And the Federal property program eliminating that payment of 
$69 million does impact these districts.
    And no matter how long the national forest has been there, 
as an example, it does not minimize the challenge that the 
school district has dealing with this large amount of Federal 
property that can never be part of the property tax.
    A lot of property tax is paid on property that does not 
involve students. And so this is an issue that I think a lot of 
people on this committee will be interested in.

                             FOCUS PROPOSAL

    Let me, on one more quick question, because we do want to 
stay with our time on this, but on further options for 
children, the FOCUS idea is a billion-dollar proposal that 
would solely be focused on public education. Is that right?
    Secretary DeVos. That is correct.
    Senator Blunt. And you would have the opportunity to look 
at that as a district that had multiple schools or as a State. 
Either one, is that right?
    Secretary DeVos. Or interdistrict or State, yes. However--
--
    Senator Blunt. Or two districts could come together and try 
to figure out how to make that work, and that is totally, 100 
percent a public school choice program.
    Secretary DeVos. Correct.
    Senator Blunt. All right, thank you.
    Senator Murray.
    Senator Murray. Thank you.

                    OFFICE FOR CIVIL RIGHTS FUNDING

    Secretary DeVos, last month, your department released the 
Indicators of School Crime and Safety report for last year. Do 
you know which crime on post-secondary campuses showed an 
increase compared to 2001?
    Secretary DeVos. I would assume it was sexual assault.
    Senator Murray. It was forcible sex crimes. And depending 
on the survey that you look at, we know that at least 1 in 5 
women are being sexually assaulted while on college campus, and 
that is one of the lowest estimates out there. That, to me, is 
really appalling and unacceptable. And your budget cuts the 
budget for the Office of Civil Rights, which addresses that 
Title IX enforcement on college campuses, among other important 
civil rights workloads.
    My concern is that your budget proposal will leave OCR 
(Office for Civil Rights) with about 60 fewer staff and the 
same high workload. And that is really concerning to me. That 
will really deny victims of campus sexual assault violence 
timely resolution of their complaints and delay improvements on 
campuses that keep students safe. Don't you agree with that?
    Secretary DeVos. Let me just say that OCR is level-funded. 
It is not--the budget is not reduced for OCR.
    Senator Murray. We are going back to bad numbers. We have 
to go by what we have approved, what current law is.
    Secretary DeVos. Well, the intention is to fully fund OCR 
based on whatever numbers--again, we are basing all of the 
budget numbers on the numbers prior to your action.
    Senator Murray. Okay, current law, by current law, it will 
reduce it by 60, and that is a fact, your proposal.
    Let me just--I have just a few minutes left, and I did want 
to ask you a couple pertinent requests that I have.

           RESPONDING TO MINORITY PARTY CONGRESSIONAL INQUIRY

    First of all, it has been widely reported that President 
Trump's Justice Department is telling agencies they have the 
legal authority to ignore written questions and requests for 
information from Democrats. And I am not going to ask for your 
opinion on their legal analysis regarding what you are required 
to do, but given that agencies certainly have the option to 
respond to inquiries and be transparent above and beyond what 
President Trump's White House is saying, I wanted to ask you, 
do you plan to respond to inquiries from Democrats or just 
ignore them and only respond to Republicans?
    Secretary DeVos. Senator, we have been responding to 
inquiries. In fact, I know that you have submitted 23 letters 
to me since I have been in office, and we have been able to 
respond to over half of them. I think eight of them came just 
in the last month alone, so we are definitely responding to 
letters, as we can.
    Senator Murray. Well, I have not----
    Secretary DeVos. And let me just say, I would just 
encourage, if you have questions, I invited this the day I was 
confirmed, I really do want to work with you, and I would love 
to have----
    Senator Murray. We have not gotten those, so I do not know 
if your staff is not handing those to you----
    Secretary DeVos. Well, that is, I guess, going to snail 
mail. I just encourage you----
    Senator Murray. Will you commit to responding to the 
letters that we have sent to you?
    Secretary DeVos. We have been responding, and we will 
commit to continuing to respond. Again, I just encourage that 
we sometimes talk. I think that might be a really good--
    Senator Murray. Sometimes it is really helpful to us to 
have answers in writing so we have that as a record. And I 
would really appreciate your getting those back to me. We have 
not seen them.
    And secondly, Senator Alexander asked you about the 
implementation of ESSA. We worked very hard in a bipartisan way 
to do that. I have a number of fairly technical questions. I do 
not want to take up this committee's time. But my staff has 
been unable to get from you and your staff a full briefing on 
the implementation and how you are going to do that. Can I get 
a commitment from you that within the next 2 weeks from your 
staff to my staff?
    Secretary DeVos. I believe that we have had ongoing 
conversations with your staff. But, yes, for whatever questions 
you do not yet have answered, we will certainly endeavor to do 
so.
    Senator Murray. Okay, I would appreciate that. It is 
extremely important we implement this in a way that we all 
understand. Thank you.
    Senator Blunt. Senator Cochran.
    Senator Cochran. Mr. Chairman, I think we have had a good 
hearing. I have enjoyed the questions and answers that we have 
had before the committee.
    Because of some constraints in other areas here on the 
Hill, I am going to ask that my remaining questions be made a 
part of the record.
    Senator Blunt. We will have an opportunity for that, and 
that is how that will be handled.
    Senator Murphy, and then Senator Lankford, and that will 
conclude this hearing after I make a final statement.
    Senator Murphy. Thank you, Mr. Chairman. Thanks for 
sticking around.

                            ESSA STATE PLANS

    I wanted to ask you about the ESSA State plans that are 
being submitted. When you and I talked prior to your 
nomination, we had, I thought, a good conversation about how I 
think there is a marriage between innovation and 
accountability, that people are more willing to support 
innovation, more willing to support choice, frankly, if they 
believe that there is real accountability.
    And we came together in a bipartisan way to pass the 
accountability section of ESSA. The Obama administration sent 
out regulations trying to be helpful to school districts on how 
they would craft State plans that included accountability. And, 
unfortunately, Republicans on this committee supported a 
Congressional Review Act process that stripped away those 
regulations, leaving you with the sole discretion to enforce 
the statute.
    And so one of the things that is important in those 
accountability regulations is the idea that the States identify 
schools that need support that are constantly underperforming. 
And unfortunately, some of the plans that have been submitted 
either completely leave their policy around providing supports 
for underperforming schools undefined, or they propose policies 
that are really unclear, or sometimes they are totally 
inconsistent with the law. You know, to say you are just going 
to have a policy of painting the walls of a school that is 
underperforming, that actually is not consistent with the law.
    So can you give us some idea or some commitment that you 
are not going to approve a State plan unless it clearly 
identifies how it is going to support schools that are 
constantly underperforming or subgroups that are constantly 
underperforming? I want to make sure that you are not going to 
be a rubber stamp for these plans and that you are going to 
actually hold States to the requirements, especially when it 
comes to these really vulnerable kids.
    Secretary DeVos. Senator, thank you.
    I am, obviously, very interested in ensuring that the plans 
that States put forward comport to the law that Congress has 
passed, and that is really going to be the measure by which the 
plans will be approved or not approved. If they follow and 
address all the parts of the law as Congress has intended, the 
plans will have to be approved. Whether I agree with everything 
in the plans or not is another question, and whether you agree 
with everything in the plan, whether it is, you know, robust 
enough or not, that, obviously, could be one--a matter for 
interpretation, as well.
    But the intention is to approve plans that comport with the 
law. And, you know, just parenthetically, I am very hopeful 
that States are going to be really creative as it comes to 
addressing some of these issues in taking a look in a new way, 
because, obviously, some of the things that we have been doing 
in the past has not been working as well.

                      SCHOOL TURNAROUND PROPOSALS

    Senator Murphy. I understand you cannot opine on specific 
State plans, but if there are turnaround proposals that you 
deem insufficient, if there are supports that are not evidence-
based, do you reserve the ability to either deny those State 
plans or send them back? I just want to make sure that when you 
say creativity, you do not mean that you are going to take a 
total hands-off approach, that you are going to look at these 
State plans and make sure that the supports they are proposing 
are real supports, and if you do not believe that they are real 
supports, as are required in the legislation, that you will not 
approve that plan or you will ask them to submit something new.
    Secretary DeVos. Well, they are all required to comport 
with the law, and so that will be the measure by which the 
plans will be approved. I might not agree with every approach 
that every State takes, but I am not going to invent new 
regulation or new law in order to accept or reject a State 
plan.
    Senator Murphy. But you will conduct an evaluation--I am 
trying to understand. Are you saying that you are not going to 
conduct an evaluation as to whether they are providing 
meaningful supports? What is going to be the standard by which 
you are going to judge whether they are providing meaningful 
supports? You would agree that there are some----
    Secretary DeVos. Whether it answers the law, as required by 
ESSA.
    Senator Murphy. But the reason why we needed regulations is 
because the law is silent on that question. It just says they 
have to provide supports. It is up to you to decide whether 
those are meaningful supports.
    Secretary DeVos. I think it is up to the States and the 
local communities to determine what supports they are going to 
implement. And they are going to vary from State to State that 
is for sure. But I think the goal of the legislation was to 
return the power back to the States.
    Senator Murphy. But what if they submit a plan that says 
their support will be to repaint the walls of the school?
    Secretary DeVos. That is a hypothetical that--what does 
that relate to?
    Senator Murphy. Is there any support that you would deem to 
be insufficient under the statute? Can you imagine any support 
that you would reject?
    Secretary DeVos. I am going to evaluate plans----
    Senator Murphy. The answer to that question is yes.
    Secretary DeVos. If they follow--the important thing is, 
are they following the law or not? Now, I might not always 
agree with everything that they have suggested, but----
    Senator Murphy. The question is, is there any support that 
they could propose that you would deem insufficient under the 
law?
    Secretary DeVos. I cannot say that. If it responds to the 
law as requested and required by the ESSA act, then they will 
have fulfilled the obligation----
    Senator Murphy. No, you interpret----
    Senator Blunt. Senator Murphy.
    Senator Murphy. I got it.
    Senator Blunt. Thank you.
    Senator Lankford.
    Senator Lankford. Thank you.
    I do appreciate the long day and the long conversation on 
these issues.
    It is interesting to me that in the beginning of the Obama 
administration, they came to this committee and requested funds 
for Race to the Top funds for additional dollars for someone in 
D.C. to be able to say there are additional dollars, if you 
will do our curriculum that we pick. If you will do it our way, 
if you will go through our plans, if you will have a system 
that we approve, we will give you additional dollars.

                     SCHOOL AND PARENTAL ASSISTANCE

    If I am tracking this correctly, you are coming to this 
committee and saying we would like additional dollars to get to 
schools if they pick a plan and they run a plan, and if they 
provide choice to their students in a public school setting. Am 
I tracking that correctly?
    Secretary DeVos. You are tracking that correctly.
    Senator Lankford. I am actually--I grew up in an innovative 
district that did school choice from school to school. I did 
not go to the high school closest to me. I literally drove all 
the way across town. They had a band program that I liked and 
all those different things. As a middle school student, I 
talked to my mom and we--and I ended up in a school way across 
town, because my district allowed that.
    I had a great educational experience, but my parents in a 
public school setting had a choice within the district of four 
high schools that they could--that I could choose from, and I 
was allowed to do that.
    I was the beneficiary of that. By the way, I met my wife at 
that school, as well, and so I am forever grateful for a 
district that just allowed parents to be able to choose what 
school that they went to within a public school setting.
    That does not seem like a revolution to me. That is 
something that I did in high school a very long time ago that I 
understand some districts do not want to do and some States do 
not want to do, and that is their choice.
    But what you are saying is, if you choose to do that, we 
will help you in that transition and allow parents to be able 
to have that choice. Am I correct on that?
    Secretary DeVos. That is correct.

                RELIGIOUS TITLE IX EXEMPTION PUBLICATION

    Senator Lankford. Senator Merkley brought up the issue 
about religious liberty on campus and asked you some questions 
about, you know, protecting religious liberty on campus, as 
well, which I think is a pertinent question to be able to deal 
with. This has been an interesting conversation that really 
seems a little shocking to me that it is even a conversation in 
America at all, that we would have to discuss should religious 
liberty of students be protected?
    The Department of Education decided for the first time ever 
to be able to post all of the schools, the higher ed schools, 
that have asked for a Title IX religious exemption, to put them 
in a special place on a Web site and to be able to basically 
put them out--it appeared to be for shame purposes, to say 
these are all the schools that asked for religious exemptions. 
And it was a new method, I think, to be able to basically try 
to humiliate schools to not ask for a religious exemption.
    Is that something that you are going to continue? Will 
there be a public display of every school? Because it never has 
been in the past. Since it was actually put in place in 1972, 
there has never been a public release of that, unless someone 
did a Freedom of Information Act (FOIA) request, and then, 
obviously, you can get that through a FOIA request.
    Will there continue to be a public display of religious 
institutions in some special setting?
    Secretary DeVos. It doesn't sound like it is a necessary 
thing, and it is something that I will certainly look into.
    Senator Lankford. Well, I think it is something that 
certainly should be looked into.
    Just to be a last question, if any institution asks for a 
religious exemption, that is something the law allows them to 
do.
    Secretary DeVos. That is correct.
    Senator Lankford. And there should not be any way to try to 
publicly humiliate folks because they are following the law and 
following through on that.
    The same thing, we have some States right now that are 
experimenting on college campuses to say, if they are an 
extracurricular group that is honored on campus, just like most 
other campuses, fraternities, whatever it may be, that have 
campus access, if the leadership of the organization, not the 
membership, if the leadership of the organization cannot be 
individuals that actually violate the religious principles of a 
religious faith-based group, whether they be Christian, Muslim, 
Jewish, whatever they may be, if the leadership of that group 
is not open to people that are nonpractitioners of that faith, 
then they cannot come on campus and they cannot have access. It 
is literally defining for that group what the leadership of the 
group, of a religious-based group, has to be. I have an issue 
with that.
    It is one thing to say your membership should be open to 
everyone. It is another thing to say the leadership of your 
group.
    Do you have an initial impression on that?
    Secretary DeVos. Well, I think this is an issue that bears 
a lot more discussion and one that has, I think, come to the 
fore in recent years in a way that we have not seen before. 
Religious liberty is a very key and important issue to be 
discussed in the context of all educational settings.
    Senator Lankford. Right. This was an issue that President 
Clinton put out a great piece decades ago, just honoring the 
religious protections of every individual on every campus. This 
appeared to have been a settled issue. And then suddenly, it is 
rising up again, whether it is on a secondary campus or on an 
institution of higher education, what is and is not permissible 
for a faith-based student.
    I just personally believe that every individual should be 
able to live whatever faith they choose to live or to live no 
faith at all, and that that be acceptable on a campus setting 
and to not try to require them to be able to practice one thing 
or to say you can in writing have one thing but not in practice 
have another. That is not consistent with our values.
    Secretary DeVos. Agreed.
    Senator Lankford. So I appreciate your testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Thank you, Senator Lankford.
    And thank you, Secretary DeVos, for being here today.
    The record will stay open for 1 week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
    amending loan servicing contract without consulting subcommittee
    Question. The fiscal year 2017 Senate Labor/HHS bill, which passed 
out Committee 29-1, includes extensive report language directing the 
Department on various issues relating to student loan servicing. I have 
serious concerns that moving to a system that relies even more heavily 
on one single servicer, as the Department's May 19th amendments to the 
contract solicitation would do, will jeopardize the quality of service 
for borrowers.
    Why did the Department amend the contract solicitation on May 19th 
without consulting, or providing advance notice, to this subcommittee?
    Answer. The Procurement Integrity Act, and other laws outlined in 
the Federal Acquisition Regulation System, prevents the Department from 
sharing procurement-sensitive information related to an ongoing 
contract action. As a result, the Department was not able to provide an 
advance briefing related to the final request for proposals for the 
student loan servicing solicitation.
    willingness to reconsider servicing contract with congressional 
                             collaboration
    Question. Is the Department willing to take another look at the 
amended contract solicitation, and work with this subcommittee and the 
HELP Committee on a solution that simplifies the process for borrowers 
while maintaining competition to ensure accountability and promoting 
high-quality service to borrowers?
    Answer. The Department is committed to providing borrowers, and in 
particular borrowers in distress, high-quality servicing that 
facilitates prompt and easy access to the many options available to 
help them manage their debt. At the same time, the Department has an 
obligation to the Federal taxpayer to provide this service as 
efficiently and cost-effectively as possible. The Department believes 
the amended solicitation strikes the appropriate balance between these 
two key priorities. Since the current contracts expire in 2019, the 
Department will need sufficient time to transition the more than 30 
million borrowers on the Department's portfolio to minimize risk and 
disruptions in service. For these reasons, the Department is not open 
to further amending the solicitation.
            constraints posed by single loan servicing model
    Question. If the Department were to contract with one single 
servicer, how would the Department ensure that servicer is providing 
high-quality service for borrowers? Is the Department concerned that 
relying on one single servicer will add risk to the system and limit 
Department's ability to hold servicers accountable and incentivize 
servicers to provide high-quality service?
    Answer. The Department will approve all communications, training, 
and procedures the servicer is providing to our borrowers. The 
Department will monitor borrower communications and provide constant 
feedback to the servicer to improve service. The contract will include 
financial disincentives that will apply when the servicer fails to meet 
explicit quality standards. The Department will ensure the servicer is 
meeting all requirements and service level agreements supporting 
quality servicing. A single servicer will ensure that all borrowers 
have the same customer experience while reducing the cost to taxpayers.
    The contract will allow the Department to obtain rights to the 
servicing solution. This will allow the Department to choose a 
different vendor should the current vendor not meet the required 
outcome.
        maintenance of servicing choice through fiscal year 2017
    Question. Until a new student loan servicing process is fully in 
place, will the Department adhere to bill language included in the 
fiscal year 2017 Omnibus and, no later than September 30, 2017, allow 
borrowers who are consolidating their student loans to pick from any of 
the existing contracted servicers?
    Answer. The Department respectfully believes that the status of the 
ongoing student loan servicing acquisition process prevents the 
Department from implementing this provision. The Department expects to 
make an award to a single servicer shortly after October 1, 2017, after 
which all new borrower accounts and loan consolidations will be sent to 
the successful offeror. Current servicers that are not part of the 
winning offeror's team will begin to be shut down in 2018, contingent 
upon the unique terms of the winning offeror's team composition. 
Continuing to allocate borrowers, including consolidation borrowers, to 
servicers that will be shut down within the next 24 months would 
complicate the transition process to the new vendor and create the need 
for subsequent loan transfers which will confuse the borrower and 
generate additional transition costs. Additionally, if implemented 
prior to the single servicer solution the Department will incur the 
development costs to provide consolidation loan capacity to six 
additional servicers.
         authority for reconsidering upward bound applications
    Question. I was pleased to see the Department provide flexibility 
to Upward Bound applicants that were initially rejected for minor 
technical issues. What authority does the Secretary or Department have 
to reconsider applications in cases like this? What authority did the 
Secretary use in this specific case?
    Answer. I think we can all agree that students should not lose 
access to important services because of excessive bureaucratic 
overreach. The applications that were deemed ineligible for formatting 
issues in the Upward Bound competition this year were not initially 
rejected because of any assessment of the merits of their contents. The 
formatting requirements included in the notice were not related to the 
quality of the application, the ability of the applicant to provide 
services to students, or the capacity of the applicant to effectively 
manage an Upward Bound grant. In the explanatory statement accompanying 
the Consolidated Appropriations Act 2017, Congress strongly encouraged 
the Department to provide flexibility to applicants whose applications 
had been rejected based on minor formatting issues, and Congress 
provided a sizeable increase in funding for the TRIO program in that 
year. As a result of that increased funding, the Department was able to 
review these applications and avoid a basic fairness problem that might 
otherwise have been raised by doing so, putting good sense and the 
needs of children above needless bureaucracy.
             authority for trio application reconsideration
    Question. The Department of Education Appropriations Act, 2017 
included language in the explanatory statement encouraging the 
Department to provide flexibility to TRIO applicants that were 
initially rejected for minor issues. Did this language provide 
authority for the Secretary to reconsider certain applications? If so, 
please explain.
    Answer. The Department always appreciates further guidance from 
Congress on critical issues of appropriate program implementation. 
Typically, the Department does not excuse application requirements, as 
doing so creates a basic fairness problem for applicants that did meet 
those requirements initially. However, the increased funding provided 
for the TRIO program in fiscal year 2017 allowed the Department to 
review these applications without denying grants to applicants who met 
the formatting requirements. Additionally, I had, by that time, decided 
and announced that overly bureaucratic formatting requirements like 
these would not be applicable in future competitions. I believe that 
our first concern should be to meet the needs of children, including 
low-income and first-generation college students. The formatting 
requirements did not put children first, and an evaluation of these 
applications on the merits of their content was the right thing to do.
          lea eligibility requirements for focus participation
    Question. The budget request includes bill language providing the 
Secretary authority to establish requirements for FOCUS grants related 
to the implementation of open enrollment systems. What specific 
requirements are the Department considering for LEAs to be eligible for 
funding under this new program?
    Answer. The Administration's FOCUS grants proposal would provide 
grants to Local Educational Authorities (LEAs) that agree to combine 
the weighted student funding flexibility in Title I, Part E with an 
open enrollment policy. The Department would establish minimum 
requirements for open enrollment systems aimed at maximizing 
opportunities for all students, particularly those from low-income 
families, to select, attend, and succeed in a high-quality public 
school. Such requirements could include making school information 
available to parents in a clear and timely manner, demonstrating a 
capacity to enroll students in their preferred schools, supporting 
school integration efforts, arranging or paying for transportation to 
schools of choice, and giving priority to students from low-income 
families or students in schools identified for improvement under Title 
I. LEAs that meet these requirements and the requirements under Title 
I, Part E would receive grants covering the period of their initial 
flexibility agreements (up to 3 years) and would use grant funds for 
activities related to developing, implementing, and sustaining their 
funding and enrollment systems.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
           best practices learned from promise neighborhoods
    Question. The Promise Neighborhoods program has made educational 
improvements in rural communities, including Indianola, Mississippi. 
The Indianola Promise Community increased elementary reading 
proficiency, decreased chronic absenteeism, and improved graduation 
rates. There have been significant gains, but transforming a school 
district cannot be accomplished overnight. What have you learned about 
implementing Promise Neighborhood programs in rural communities; and 
what can our Committee do to sustain the progress they have made?
    Answer. Our experience implementing the Promise Neighborhoods 
program has confirmed the unique challenges faced by rural communities, 
including the dispersal of resources across long distances, limited 
access to essential services, and fewer ``anchor institutions'' that 
can serve as hubs for providing services. Consequently, a key task of 
grantees has been to coordinate and align these resources; for example, 
the Delta Promise Neighborhood in Indianola, Mississippi has helped 
streamline the efforts of 28 providers to increase access to high-
quality early childhood education. The grantee has worked with key 
public health and economic development partners to better coordinate 
the delivery of services such as prenatal care, housing support, and 
financial literacy training. While in general we expect Promise 
Neighborhoods grantees to develop and implement plans for sustaining 
their projects beyond the life of the Federal award, we recognize that 
sustainability can be an additional challenge in many communities. For 
this reason, we anticipate taking advantage of the newly expanded 
authority to make extended Promise Neighborhoods grants not only to new 
grantees under the ESSA, but to grantees from earlier cohorts.
      promise neighborhoods extension timeline and determinations
    Question. The fiscal year 2017 Omnibus authorized and directed the 
Department to extend funding for current high-quality Promise 
Neighborhood Programs. What factors will the Department take into 
consideration when deciding to extend current projects? Please share 
with the Committee the estimated timeline on how the extensions will be 
determined.
    Answer. The Department is still determining the process by which it 
will award extensions to current grantees, but we anticipate we will 
consider a combination of factors relating to need and past 
performance. The Department will award the 2017 extensions before the 
end of the calendar year, when the funds expire.
                      rural research center plans
    Question. As you know, rural school districts face unique 
challenges ranging from teacher recruitment to access to technology and 
broadband. It is important the Department considers research to address 
the needs of rural schools. It is my understanding the Institute of 
Education Sciences specifically supports a Research and Development 
Center dedicated to rural education and plans to complete the Center in 
fiscal year 2018. How can this Committee ensure that your Department's 
research addresses the unique needs of rural school districts? As the 
Department looks to host a rural education research center, what issues 
should the Center specifically address?
    Answer. The Institute of Education Sciences (IES) supports rural 
education research through its Regional Educational Laboratories 
(RELs), research grant programs, and statistical data collections. The 
RELs, for instance, devote at least 25 percent of their funding to 
rural issues, and the National Center for Education Statistics (one of 
four IES centers) gathers data and reports on the conditions of rural 
schools. Despite these investments, the Administration recognizes the 
unique needs of rural schools and the methodological challenges 
associated with conducting research in settings that have small numbers 
of schools and students. For these reasons, IES will support a focused 
program of research in rural education by competing a National Research 
and Development (R&D) Center in fiscal year 2018 on Improving Rural 
Education (Rural Center). The Rural Center will build the capacity of 
rural schools to use high-quality, scientific research to improve 
student outcomes, as envisioned by the Every Student Succeeds Act. The 
Rural Center will (1) conduct research on a major problem or issue in 
rural education that involves local stakeholders and addresses their 
needs; (2) develop and test a practical tool or strategy to support the 
conduct and use of research by school personnel in rural settings; and 
(3) develop a statistical or methodological procedure or product that 
will help rural education researchers strengthen their ability to 
produce accurate, reliable, and useful research. To sustain the Rural 
Center's work, as well as the IES' other efforts to support rural 
education research, the fiscal year 2018 President's Budget requests 
$616.8 million for the Institute of Education Sciences.
   specific plans and timeline for rural school comprehensive center
    Question. In fiscal year 2017, the Department announced it would 
select new Comprehensive Centers, but delayed the competition to 
``allow the timing of new awards to better align with the 
implementation of the Every Student Succeeds Act.'' The Every Student 
Succeeds Act highlights the needs of rural schools and includes the 
word ``rural'' over 50 times within the bill. The fiscal year 2017 
Senate Labor-HHS-Education Report directed the Department to recognize 
the unique challenges facing rural schools, and strongly encouraged the 
Department to establish a Comprehensive Center content center focused 
on providing assistance to rural education. Please share with the 
Committee the Department's specific plans for deciding content centers 
areas of focus, including if the Department will address the 
Committee's expectation to establish a rural education content center. 
Please identify the estimated timeline for the competitive process for 
content centers.
    Answer. The Department will consider the needs of rural schools, 
including whether those needs would be addressed best through a 
dedicated rural Center, when designing the next competition. We 
recently decided to extend the current Centers for two additional 
years, thus delaying the next competition to fiscal year 2019, to allow 
for a thorough review of the current structure, functions, and 
performance of the Centers in light of both the transition to the ESSA 
and the new Administration. Planning for the competition will be guided 
by advice from Regional Advisory Committees (RACs), as required by the 
authorizing statue, and will include an assessment of current efforts 
to serve rural States and school districts. For example, the Northwest 
Comprehensive Center partnered with Boston College and State 
Educational Agencies in the Northwest region to develop NW RISE, a 
network for rural schools to learn from each other, share strategies to 
meet their unique challenges, and spread best practices of the region's 
rural schools. Similarly, the North Central Comprehensive Center has 
worked with Wyoming to support and improve the access of rural 
districts to digital learning content as part of the Wyoming Digital 
Learning Plan.
         maintaining critical mission support in light of cuts
    Question. Several programs your Department has proposed to cut 
significantly or eliminate benefit Mississippi. Programs such as Ready 
to Learn, Innovative Approaches to Literacy, and Supporting Effective 
Educator Development have positively impacted rural and low-income 
communities. Your Department's budget has claimed a number of these 
programs have: ``achieved their original purpose, are duplicative 
programs, are narrowly focused, or are unable to demonstrate 
effectiveness.'' What measurements did the Department consider when 
proposing to eliminate programs? How will the Department invest in 
early childhood education, parent engagement, literacy skills, and 
educator recruitment and development if it wishes to cut programs that 
benefit these areas?
    Answer. The President's request would continue to provide more than 
$20 billion to States and local educational agencies in fiscal year 
2018, primarily through large, flexible formula grant programs that may 
be used, at State and local discretion, to fund a broad range of 
instructional strategies, professional development, and related 
supports for students, families, teachers, and schools. In general, 
programs proposed for reduction or elimination in the fiscal year 2018 
President's Budget request are more narrowly targeted than these larger 
formula grant programs, have limited efficacy and impact, and thus are 
a lower priority in a constrained fiscal environment. Additional detail 
on the rationale for eliminating specific programs can be found in 
their corresponding Congressional Justifications.
         rationale for eliminating title iv and fulbright hays
    Question. As you know, our society is challenged with increasingly 
complex issues regarding national defense, international trade and 
education. Additionally, American students are faced with increased 
competition from foreign students for job opportunities. What is the 
Department doing to ensure that our post-secondary students are well 
prepared to understand these challenges and compete globally? With the 
Department's proposed elimination of Title IV and Fulbright-Hays 
programs, how will the Department invest in opportunities for schools 
and students to excel in international and foreign language studies?
    Answer. The Administration recognizes the critical need for our 
Nation to have a readily available pool of international area and 
advanced language experts for economic, foreign affairs, and national 
security purposes. The fiscal year 2018 President's Budget refocuses 
the Department's mission on supporting States and school districts in 
their efforts to provide high-quality education to all students while 
streamlining and simplifying funding for college; and reduces or 
eliminates more than 30 programs that duplicate other programs, are 
ineffective; or are more appropriately supported with State, local or 
private funds. The Department will continue to invest in opportunities 
for schools and students to excel through administering other programs 
that support student achievement and educational excellence. However, 
we believe the Title VI and Fulbright-Hays programs duplicate other 
Federal programs and can be supported with State, local, or private 
funds.
      strengthening hbcus especially in stem and graduate studies
    Question. Mississippi has a number of distinguished Historically 
Black Colleges and Universities. HBCUs in my State are nationally 
recognized for their academic programs and contributions to research. 
What is the Department doing to assist HBCUs in achieving financial 
stability and solvency to preserve their long-lasting benefit to 
minority students? How is the Department investing in HBCUs to 
strengthen their educational capacity, including graduate programs in 
areas such as science, technology and mathematics?
    Answer. The Budget provides $492 million for programs that provide 
direct support to HBCUs, as well as other Minority-Serving 
Institutions, and Hispanic-Serving Institutions through the Higher 
Education Act Titles III and V programs. Titles III and V funding are 
important vehicles for helping close gaps among racial and 
socioeconomic groups in college enrollment and degree attainment by 
improving these institutions' academic programs, institutional capacity 
and student support services. Within this amount, the Administration's 
budget proposes $244.2 million to support HBCUs and $63.2 million to 
support Historically Black Graduate Institutions (HBGI), representing 
over 62 percent of the funds set aside for Minority-Serving 
Institutions (MSIs). The HBGI program permits institutions to use funds 
for many activities, including assisting students in completing a 
doctoral degree in the physical or natural sciences, engineering, 
mathematics, or other scientific disciplines in which African Americans 
are underrepresented, as well as doctoral degrees in medicine, 
dentistry, pharmacy, veterinary medicine, and law.
    The Budget also supports $12 million in grants administered by the 
Institute of Education Sciences to institutions of higher education 
(and particularly MSIs) to develop training programs for graduate 
students and researchers. These grants are designed for upper-level 
undergraduates, recent college graduates, and master's students and are 
intended to help them prepare for doctoral study or careers in 
education research.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
       limiting upward bound reconsideration to formatting errors
    Question. As a follow up to our discussion at the hearing, could 
you provide the rationale for limiting your review of Upward Bound 
applications to only those with formatting errors? Do you not have the 
authority to review other applications who may have been disqualified 
for other reasons? Will you review these applications, particularly 
those who have had a long-standing relationship with the program to 
determine how they may be able to continue in the future?
    Answer. I believe that the Department should focus its efforts on 
helping children be successful. The outright rejection of a handful of 
Upward Bound applications for bureaucratic formatting issues, rather 
than the contents of the applications themselves put process and 
convenience before kids. We opted to review these applications because 
we believe a fair assessment of the application includes a review of 
the contents of the application itself. The increase in funding for 
TRIO programs allowed us to review these applications without denying 
grants to other applicants that had properly applied for funding. 
However, the explanatory statement accompanying the Consolidated 
Appropriations Act 2017 was clear that Congress was only encouraging 
the Department to provide flexibility to applicants whose applications 
were rejected based on minor formatting issues. The explanatory 
statement did not address applications rejected for any other reason. I 
cannot speak to specific applications that were rejected for other 
reasons without more information, but I assure you that we care deeply 
about our grantees and the children they serve, which is why I and my 
staff take this issue so seriously.
  logic behind 15 percent cut to career and technical education grant 
                                 funds
    Question. As the West Virginia job market evolves and looks towards 
new opportunities, it is essential we have a skilled workforce. Career 
and technical education (CTE) is vital to making this happen. The 
Administration has supported and highlighted career and technical 
education, so I was surprised to see the president's budget propose to 
cut Federal CTE State grant funding for CTE by 15 percent. What is the 
thinking behind this decision?
    Answer. The fiscal year 2018 President's Budget request would 
continue to provide significant Federal resources to support State and 
local CTE programs while also maintaining the fiscal discipline 
necessary to support the President's goal of increasing support for 
national security and public safety without adding to the Federal 
budget deficit. We also note that the forthcoming reauthorization of 
the Perkins Act will provide an opportunity to reconsider ways to 
streamline, improve, and strengthen the Federal investment in high-
quality CTE programs.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
       allocation for focus and measures to address greatest need
    Question. The Administration's recent budget request included a $1 
billion increase for Furthering Options for Children to Unlock Success 
(FOCUS) grants as part of the Administration's commitment to increase 
school choice funding by $20 billion.
    How do you see this $1 billion increase being allocated?
    What steps does the Administration plan to take to ensure that this 
increased funding is primarily directed towards students with the 
highest needs and those who are poorly served in an underperforming 
school?
    Answer. FOCUS awards would be based on a combination of budgets 
proposed by participating LEAs and objective factors such as, for 
example, student enrollment, transportation costs, or the inclusion of 
multiple LEAs supporting inter-district choice.
    The Department would establish minimum requirements for open 
enrollment systems aimed at maximizing opportunities for all students, 
particularly those from low-income families, to select, attend, and 
succeed in a high-quality public school. Such requirements could 
include giving priority to students from low-income families or 
students in schools identified for improvement under Title I.
                performance, funding allocation for ell
    Question. The Agency's budget also mentioned that the English 
Language Learners (ELL) funds are not always allocated according to 
growth in ELL student rates. The Congressional Justification states 
that Florida has a high number of ELL students, but that the States' 
immigration rates are not as high as other States that do not typically 
experience much immigration yet those States require additional funding 
for ELL. Does the agency expect for States with lower immigration rates 
to have their funding reduced, even if they have a large ELL 
population?
    The Agency's budget notes that far too many ELL students are still 
falling short of target achievement levels. What can be done with the 
current English Language Acquisition program to improve the current 
curriculum and help students meet or exceed targeted achievement 
levels?
    The Agency's Congressional Justification noted that the funds were 
allocated to States based on the number of English Learners and recent 
immigration data. This data is collected from the American Community 
Survey and from individual States, but the States' input only accounted 
for 10 percent. The Agency is increasing States' weighted value of 20 
percent, based on a recommendation that the Agency increase the States' 
weight to 25 percent. If the recommendation was for the Agency to 
increase the weight of States' data to 25 percent, why did the Agency 
only increase the weight to 20 percent for fiscal year 2018 and does 
the Agency have any plans to increase that percentage in the future?
    Answer. Eighty percent of Title III allocations are based on each 
State's share of English learners and 20 percent on shares of recent 
immigrant students. Consequently, the key driver of Florida's Title III 
allocation is the size of its English learner population. In addition, 
the immigrant counts are based on 5-year average estimates from the 
American Community Survey, so we would not expect significant 
reductions from year to year in Florida's allocation due to its 
immigration rate.
    States and school districts have primary responsibility under the 
ESEA, as amended by the ESSA, for identifying and implementing the most 
effective instructional practices and related supports for English 
learners. However, the Department in recent years has been using its 
national activities and evaluation funds to promote greater use of 
evidence-based strategies for improving English learner outcomes. For 
example, we are giving priority to applicants in our National 
Professional Development competitions that can demonstrate a moderate 
research base in support of their proposed professional development 
activities.
    Yes, we expect to weight State-reported data at 25 percent in 2019. 
The recommendation referenced in the question was originally presented 
to the Department in 2012, but it took several years before we were 
able to act on the request due to limitations in the statute. The 
Department adopted this gradual approach so as to phase in any 
potential shifts in Title III allocations resulting from the use of 
State-reported data. We currently do not plan to increase the weighting 
of State-reported data beyond 25 percent.
            plans for nontraditional learning opportunities
    Question. In the 21st century economy, we should be thinking of 
ways to encourage students to take a look at nontraditional paths to 
success. Automation and advances in technology will no doubt change the 
workforce for generations. How does the Department plan to encourage 
these types of non-traditional opportunities and to prepare our 
workforce for the jobs of the future?
    Answer. We agree that all students need multiple paths to success, 
whether they define success as a 4-year college degree or a well-paying 
job requiring minimal seat time in a classroom. We anticipate promoting 
such non-traditional routes both as part of the reauthorization of the 
Carl D. Perkins Career and Technical Education program and through 
actions such as the President's Executive Order on Expanding 
Apprenticeships in America. The Executive Order would support industry-
based efforts to expand apprenticeships leading to rewarding jobs for 
American workers while also encouraging the reform of other workforce 
development programs to help students and workers obtain relevant 
skills and high-paying jobs.
  support or commitment for temporary relive of student loans during 
                               tragedies
    Question. Last year, a number of Floridians were the victims of a 
terrorist attack at the Pulse night club in Florida. There was not a 
clear way for those who were affected by this attack to temporarily 
suspend their student loan repayments. Unfortunately, we don't know if 
more Americans will be victims of such attacks at home or abroad. For 
this reason, I have introduced legislation to help students in these 
types of situations. Would you be willing to explore ways to provide 
temporary relief for graduates in these types of extenuating 
circumstances?
    Answer. The Department welcomes the opportunity to explore and 
enhance more robust relief options for students and borrowers 
experiencing extreme hardship due to a major natural disaster, 
emergency assistance or by a tragedy like the Orlando Shooting 
incident. Currently, the Department makes all appropriate tools and 
regulatory relief options available to students, borrowers and 
institutions that may be in need of assistance.
    Specific to the attack in Orlando, the Department worked to 
proactively identify all deceased students within the Title IV 
portfolio, and once identified automatically processed a death 
discharge without further documentation. The challenge of identifying 
all students and borrowers impacted, in order to offer relief, is often 
difficult and therefore the Department must rely on the help and 
involvement from the Department's stakeholders and industry partners to 
aid in that effort. Once identified, the Department's loan servicers 
can react to the situation by applying necessary relief to repayment by 
application of deferment or forbearance, extending of benefits or 
adjustment to the required payments.
             department plans to control unmanageable debt
    Question. How does the department plan to stem the skyrocketing 
costs of college and prevent students from having to accumulate 
unmanageable levels of student debt?
    Answer. In recent years, income-driven repayment (IDR) plans, which 
offer student borrowers the option of making affordable monthly 
payments based on factors such as income and family size, have grown in 
popularity. The fiscal year 2018 President's Budget request expedites 
student debt relief for the most vulnerable borrowers and simplifies 
student loan repayment by consolidating five IDR plans into a single 
plan. This plan would set a borrower's monthly payment at 12.5 percent 
of discretionary income and shorten the maximum repayment period for 
borrowers with only undergraduate debt to 15 years (with any remaining 
balance being forgiven at that point).
           addressing summer break effect on low income kids
    Question. One of the largest disparities between students from low-
income families and students from middle-to-high- income families is 
their ability to stay engaged and retain the knowledge they gain during 
the school year over the summer break. What are your thoughts on this 
issue and is it something the Department plans to address?
    Answer. We agree that summer learning loss can be a challenge, 
particularly for students from low-income families, and note that Title 
I funds may be used for expanded learning time and other supplemental 
instruction during the summer. In general, we believe local leaders are 
best positioned to determine the impact of summer learning loss, if 
any, in their schools and districts and to take appropriate measures 
where necessary. While we do not have any firm plans on this issue, 
summer learning loss may be addressed as part of other State and local 
capacity building efforts related to effective implementation of the 
ESEA as amended by the ESSA. For example, technical assistance related 
to preventing summer learning loss could be addressed by one or more of 
the new Comprehensive Technical Assistance Centers to be competed in 
fiscal year 2019.
               demographic makeup of program participants
    Question. During your testimony, you mentioned that only about half 
of the students participating in programs funded by the Department's 
21st Century Community Learning Centers were the target student 
population for which this program was designed. What is the makeup of 
the students including their family's household income, age, average 
school performance, and other relevant factors that are not the 
program's target population?
    Answer. First, allow me to clarify my testimony by saying that one 
of our key concerns with the 21 st Century Community Learning Center 
(21st CCLC) program is that less than half of the students served 
(roughly 752,000 out of 1.8 million or 42 percent) are regular program 
participants, defined as those who attend before- or after-school 
programs for 30 days or more during the school year. In any case, we do 
not collect demographic data on participating students, as student 
eligibility is determined largely by the schools they attend, which are 
high-poverty Title I schools and schools identified for improvement 
under the ESEA.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
               requirements for private voucher authority
    Question. Secretary DeVos, during the hearing you and I had a 
conversation about your budget proposal for a new $250 million school 
voucher program that I hope will not be approved over the opposition of 
parents and lawmakers on both sides of the aisle. In response to my 
questioning on this issue, you said ``There is no specific proposal 
under that line item. It--it is really appropriations language.'' The 
requested appropriations language in your budget that would provide you 
with authority not provided by the Every Student Succeeds Act (ESSA) 
reads: ``That funds provided under subpart 1 of part F of title IV may 
be used to support the demonstration and evaluation of projects 
awarding scholarships to students from low-income families to attend a 
private school, including a private religious school, selected by their 
parents that meets other requirements established by the Secretary.'' 
What requirements will you establish under your requested authority?
    Answer. We believe that both the proposed demonstration of private 
school choice programs and the accompanying appropriations language are 
entirely consistent with the Education Innovation and Research (EIR) 
program, which is explicitly intended to support the development and 
implementation of projects that hold promise for improving student 
achievement or attainment for high-need students. The Department has 
not yet determined the full range of requirements for the proposed 
competition, but is considering requirements in areas such as public 
transparency around private school choice options, facilitating the 
rigorous evaluations that are an essential part of the EIR program (for 
example, by requiring assessments of student achievement), and 
strategies to support effective school choice options to serve students 
with disabilities and students in rural areas.
                            sig elimination
    Question. In response to my questions about your budget proposal 
for the Title I-A Grants to Local Educational Agencies (LEAs) program, 
which totals $15.8 billion, including $1 billion dedicated only for 
States and districts that adopt your policies, you said that your 
budget for Title I-A grants ``is one billion in addition to fully 
funding Title I''. However, as I said during the hearing that is not 
true.
    Answer. We developed our fiscal year 2018 President's Budget 
request in the absence of a final appropriation and the context of a 
transition to a reauthorized ESEA that eliminated the SIG program and 
restructured school improvement funding for the Title I Grants to LEAs 
program. As was the case with other programs repealed by the ESSA, our 
request simply did not include funding for the SIG program, while 
maintaining existing funding for Title I under the fiscal year 2017 
annualized Continuing Resolution (CR) that was used as our baseline.
    We do not believe that States were counting on SIG resources when 
they drafted their ESEA consolidated State plans, as the SIG program 
was eliminated by the ESSA. Rather, States likely were assuming that 
they would be reserving 7 percent of their Title I allocations to 
support school improvement activities, as required by the reauthorized 
ESEA. We further note that the total amounts generated by that 7 
percent reservation differ only marginally whether based on the $14.9 
billion in the fiscal year 2017 annualized CR level or the $15.5 
billion fiscal year 2017 enacted level$1.043 billion compared to $1.082 
billion.
    Again, we did not take SIG into account when developing the fiscal 
year 2018 President's Budget because the program was repealed by the 
ESSA.
    Tables showing estimated State allocations for formula grant 
programs under the full-year fiscal year 2017 appropriation and fiscal 
year 2018 budget 
request are available at https://www2.ed.gov/about/overview/budget/
statetables/
18stbyprogram.pdf.
        state implications and necessary requirements for focus
    Question. We discussed your unauthorized $1 billion FOCUS proposal 
during the hearing and you stated that ``no State would be forced to 
utilize it or to enact anything as a result''. However, you have 
requested new authority for this unauthorized program.
    Answer. States would not be eligible applicants for Title I FOCUS 
flexibility agreements and associated funding. LEA participation would 
be entirely voluntary.
    The Department would establish minimum requirements for open 
enrollment systems aimed at maximizing opportunities for all students, 
particularly those from low-income families, to select, attend, and 
succeed in a high-quality public school. Such requirements could 
include making school information available to parents in a clear and 
timely manner, demonstrating a capacity to enroll students in their 
preferred schools, supporting school integration efforts, arranging or 
paying for transportation to schools of choice, and giving priority to 
students from low-income families or students in schools identified for 
improvement under Title I. LEAs that meet these requirements and the 
requirements under Title I, Part E would receive grants covering the 
period of their initial flexibility agreements (up to 3 years) and 
would use grant funds for activities related to developing, 
implementing, and sustaining their funding and enrollment systems.
       how funding cuts are preferable to essa state flexibility 
                             considerations
    Question. Secretary DeVos, I've heard a lot from this 
administration about State and local flexibility. This budget tells a 
different story. It cuts $578 million from the Title I Grants program, 
a program Congress on a bipartisan basis made more flexible and 
stronger for an unauthorized $1 billion choice program that we 
specifically rejected on a bipartisan basis. It eliminates $2 billion 
for evidence-based professional development for teachers and school 
leaders, even though State education chiefs are counting on those funds 
for implementation of their ESSA plans. All together more than $3 
billion in cuts to public elementary and secondary education. In other 
words, you'd cut the budget of every public school except for the 
select few that implement your preferred policies. How is this a more 
flexible approach than properly implementing and supporting our 
bipartisan ESSA law?
    Answer. My understanding of the theory of action behind the Every 
Student Succeeds Act is that it is about greater flexibility for States 
and school districts to determine the most efficient and effective use 
of all education funds, and not just the less than 8 percent of K-12 
spending that comes from the Federal Government. With fewer Federal 
strings attached as a result of the ESSA, we believe States and school 
districts will be able to invest all of their resources more 
effectively and more productively, based on their own determination of 
needs and priorities rather than directives from Washington. Moreover, 
the reductions proposed in the fiscal year 2018 President's Budget 
represent just 1 percent of national expenditures on elementary and 
secondary education, and we think that's a reasonable trade-off for the 
increased flexibility and restoration of State and local control under 
the ESSA.
            plans for supporting summer pell implementation
    Question. During the hearing, in response to a question from 
Senator Moran, you said that the year round Pell authority would be in 
place for this summer. Would you please explain your plan for ensuring 
that institutions have the flexibility and support needed to implement 
effectively this proposal as you said on July 1 and that students get 
the additional grant aid they need for summer courses?
    Answer. After holding a bipartisan briefing with Congressional 
staff on June 19, 2017, the Department released Dear Colleague Letter 
(DCL-GEN 17-06) outlining the process to implement Year Round Pell. In 
accordance with the language in the Omnibus Appropriations Report 
language, the Department's implementation of the Year Round Pell 
provisions offers the most flexibility for the student and allows 
institutions to move forward in a manner that best supports each 
student's needs.
    how replacing formula cuts with smaller grants will support stem
    Question. Secretary DeVos, earlier this year, our Committee held a 
hearing on Federal STEM education where we heard from a panel of 
witnesses, including Caroline King from my home State of Washington. 
Caroline talked about the importance of Federal formula funds such as 
Federal career and technical education State grant funds that support 
Toppenish School District's Advanced Manufacturing Career Pathway 
program that would be cut under this budget. Secretary, these funds, 
the Student Support and Academic Enrichment grants and other Federal 
funds that could support computer science are important to meeting the 
STEM workforce needs in my home State of Washington. We've heard from 
the Nation's governors, including my Governor, on this point. How would 
$20 million for grants given out by you replace more than $560 million 
in formula funding for these two programs that could be used for STEM 
education that your budget would deny all States?
    Answer. We acknowledge that the need for fiscal discipline required 
some tough choices in the fiscal year 2018 President's Budget request. 
At the same time, we believe that the growing demand for STEM education 
and skilled workers in STEM fields is creating new opportunities for 
partnerships among States, communities, schools, and business that 
would more than compensate for the relatively modest reductions in 
Federal education funding proposed in the fiscal year 2018 President's 
Budget request. It also is important to note that virtually all Federal 
education programs may be used to support STEM education in one form or 
another, which means, for example, that under the fiscal year 2018 
President's Budget request the ESEA alone would provide up to $20 
billion that could be used for STEM education, at the K-12 level, while 
the Department's student financial aid programs would make available 
more than $100 billion annually that students may use to pursue 
credentials, degrees, and careers in STEM fields.
    ocr staff reductions in context of growing number of complaints
    Question. Secretary DeVos, during the hearing you said it was your 
intention to fully fund the Office for Civil Rights (OCR). Your concept 
of fully funding appears to be the annualized continuing resolution 
funding level that would result in a loss of 46 staff when OCR's 
investigator ranks already are overburdened despite the increased 
resources I fought for and Congress provided the last 2 years.
    Won't this loss of staff result in delays in OCR investigations and 
resolution of complaints of all of OCR's important civil rights 
workload including those related to students with disabilities which is 
OCR's largest workload and victims of campus sexual assault and less 
assistance to institutions that help them comply with Federal civil 
rights laws administered by OCR? If not, why not?
    With these proposed staffing reductions, how do you intend to 
address the growing number of civil rights complaints?
    Answer. OCR will continue to fulfill its mission of vigorous civil 
rights enforcement. The requested funds would ensure essential program 
support to resolve complaints of discrimination filed by the public and 
to ensure that institutions receiving Federal financial assistance are 
in compliance with the civil rights laws enforced by OCR.
    OCR will revise its Case Processing Manual with the goal of 
reducing the time it takes to process complaints. In addition to 
administrative changes, OCR plans to reduce the layers of 
administrative review which will increase case processing efficiency. 
It remains to be seen whether the number of cases filed with OCR will 
increase at the same rate, but OCR's efficiency measures will permit 
OCR to thoroughly, promptly process all incoming complaints regardless 
of the number of incoming complaints.
plan for civil rights data collection regarding exclusionary discipline
    Question. Many of the growing volume of complaints OCR received 
addressed exclusionary discipline practices (e.g. suspensions, 
expulsions, referrals to law enforcement, and school-based arrests) as 
well as bullying, harassment, restraint, and seclusion. These practices 
disproportionately impact students of color, students with 
disabilities, and students who identify as lesbian, gay, bisexual, 
transgender, or queer (LGBTQ) in both traditional public schools and 
charter schools. Additionally, guidance documents have been issued by 
OCR on the topic of rethinking discipline to address disparities on the 
basis of race, sex, and disability and reduce the use of exclusionary 
discipline practices. While you propose fully funding the Civil Rights 
Data Collection (CRDC), your budget would lead to staffing reductions 
at the Office for Civil Rights, resulting in fewer staff at OCR to 
investigate complaints on these and other important matters. In short, 
this would allow the Department to observe the problems of 
discrimination without having adequate resources to intervene.
    What is your plan for CRDC regarding exclusionary discipline 
practices, restraint and seclusion, harassment, and bullying?
    Answer. OCR is committed to funding the Civil Rights Data 
Collection (CRDC) so that OCR can continue to use the data as an 
important enforcement tool, and so that the public can access and use 
the data for purposes such as making informed educational choices, 
learning about local civil rights coordinators, and for policy-making 
purposes. As of June 28, 2017, the 2015-16 CRDC is in the final week of 
the data submission period. Over 17,000 school districts across the 
Nation provide data which may be indicative of exclusionary discipline 
practices. The school districts and other local education agencies 
(LEAs) were required to submit data on the following discipline 
incidents: number of students (preschool through grade 12) who received 
corporal punishment, in-school suspension, out-of-school suspension, 
expulsion, school-related arrest, and/or were referred to a law 
enforcement agency or official. In addition, school districts and other 
LEAs were required to submit the following data regarding harassment or 
bullying: number of allegations of harassment or bullying on the basis 
of sex, race/color/national origin, disability, sexual orientation, or 
religion; number of students reported as harassed or bullied on the 
basis of sex, race/color/national origin, or disability; and number of 
students disciplined for harassment or bullying on the basis of sex, 
race/color/national origin, or disability. For restraint and seclusion, 
school districts and LEAs were required to submit data on the number of 
students subjected to mechanical restraint, physical restraint, and 
seclusion by disability status (i.e., students with and without 
disabilities served under the Individuals with Disabilities Education 
Act (IDEA) and Section 504 of the Rehabilitation Act of 1973). The 
information collection package for the 2017-18 CRDC is currently 
undergoing public comment and review by OMB. However, the intent is to 
continue to collect the same data on discipline practices, restraint 
and seclusion, and harassment or bullying as done in the 2015-16 CRDC 
and other past data collections.
     financial risks of cmos and efforts to promote accountability
    Question. In your nomination hearing Questions for the Record 
(QFRs), you committed to reviewing the report released by the Office of 
the Inspector General for the US Department of Education on September 
29, 2016 about the financial risks posed by charter schools' 
relationships with Charter Management Organizations (CMO).\1\ 
Recommendations in the report include issuing guidance and technical 
assistance to States, convening a formal oversight group within the US 
Department of Education, and working with external partners and 
interest groups like charter schools and charter school authorizers. 
Please provide an update on this review, whether the working groups 
have been formed and if so, the members of each working group, and your 
plans to hold States, charter school authorizers, and CMOs accountable 
for their financial risks.
---------------------------------------------------------------------------
    \1\ Nationwide Assessment of Charter and Education Management 
Organizations Final Audit Report. ED-OIG/A02M0012. September 2016. 
https://www2.ed.gov/about/offices/list/oig/auditreports/fy2016/
a02m0012.pdf.
---------------------------------------------------------------------------
    Answer. The Department is committed to ensuring appropriate fiscal 
and operational accountability for charter schools affiliated with CMOs 
and continues to implement the corrective action plan that was 
developed in response to the recommendations of the Office of Inspector 
General (OIG) audit report and approved by OIG. Specifically, the 
Department has formed an internal oversight working group comprised 
primarily of staff from the Office of the Deputy Secretary (including 
the Risk Management Service), the Office of Elementary and Secondary 
Education, the Office of Special Education and Rehabilitative Services, 
and the Office of Innovation and Improvement (OII), which as of June 
2017 has conducted three quarterly meetings. In addition, OII discussed 
the topic of the audit report with Charter Schools Program (CSP) 
grantees during its 2016 and 2017 grantee project directors 
conferences. Consistent with the corrective action plan, the Department 
also will: (1) issue guidance on charter school management and 
oversight practices no later than December 2017; (2) modify program 
monitoring protocols under the CSP, Title I of the ESEA, and IDEA, to 
ensure appropriate oversight of charter schools that are affiliated 
with CMOs; and (3) update the Compliance Supplement to include 
appropriate procedures for reviewing charter school relationships with 
CMOs.
     implementation progress of stability measures for foster youth
    Question. On December 10th, 2016 ESSA's key protections to provide 
educational stability for children in foster care went into effect, 
including provisions requiring local educational agencies to 
collaborate with State or local child welfare agencies to ensure that 
students in foster care receive transportation to their school of 
origin when they move schools.\2\ It has been 6 months since these 
requirements have gone into effect. During this time, what have you 
done to monitor States and local educational agencies to ensure their 
compliance with these important new requirements?
---------------------------------------------------------------------------
    \2\ 20 U.S.C. 6311(g)(1)(E), 20 U.S.C. 6312(c)(5)(B).
---------------------------------------------------------------------------
    Answer. The Department is currently in the process of developing 
protocols for monitoring State and local implementation of Title I, 
including the educational stability provisions for children in foster 
care, and expects to begin implementing those protocols on a pilot 
basis in early 2018. In the meantime, we continue to explore ways to 
build on our efforts to promote awareness of the educational stability 
provisions and identify technical assistance needs, which could include 
future meetings with State and local education and child welfare points 
of contact.
       president's $20 billion for vouchers: alternative funding?
    Question. President Trump has spoken repeatedly about a new $20 
billion voucher program. Are the proposals included in your budget 
intended to reflect this commitment? Or are you planning to propose 
another way to fund $20 billion in vouchers, possibly though the tax 
code? If you are planning to propose another mechanism, please provide 
details on your proposal and when you intend to announce your plans.
    Answer. The choice proposals in the fiscal year 2018 President's 
Budget requestTitle I FOCUS, increased funding for the Charter Schools 
Program, and a private school voucher competition in the Education 
Innovation and Research programrepresent a significant down payment on 
the President's commitment to invest $20 billion in expanding 
educational choice. Other initiatives are under consideration, but 
additional details on the potential content and timing of those 
initiatives are not yet available.
        commitment not to increase segregation through vouchers
    Question. In your nomination hearing QFRs you said that you ``do 
not support programs that would lead to increased segregation.'' Under 
your new school voucher program proposed to be funded through EIR, will 
you commit to not fund any school voucher program that increases 
segregation by race or income level?
    Answer. We are committed only to increasing choices for students 
and parents, and we believe expanding such choices, particularly for 
the poor and minority students that are the focus of Federal education 
programs, is likely to decrease rather than increase the level of 
segregation by race and family income currently present in our 
education system.
              plans regarding essa assessments and waivers
    Question. The Every Student Succeeds Act (Public Law 114-95) 
maintained the Federal requirement that States annually assess students 
in grades three through eight and once in high school in both reading 
and math. ESSA further requires that these assessments be ``the same 
academic assessments used to measure the achievement of all public 
elementary and secondary school students in the State" \3\ and 
``administered to all public elementary and secondary school students 
in the State",\4\ with a key exception for students with the most 
significant cognitive disabilities.\5\ ESSA does also provide narrow 
flexibilities for States to apply for an innovative testing pilot \6\ 
and or to use locally-selected, nationally-recognized high school 
assessments,\7\ but both of these flexibilities are narrowly tailored 
and must meet extensive statutory requirements. I am deeply concerned 
by a movement in some States to pass legislation that violates these 
statutory requirements and the clear Congressional intent to maintain 
annual statewide assessments.
---------------------------------------------------------------------------
    \3\ 20 U.S.C. 6311(b)(2)(B)(I).
    \4\ 20 U.S.C. 6311(b)(2)(B)(II).
    \5\ 20 U.S.C. 6311(b)(2)(D).
    \6\ 20 U.S.C. 6364.
    \7\ 20 U.S.C. 6311(b)(2)(H).
---------------------------------------------------------------------------
    Will you maintain ESSA's requirement for annual statewide 
assessments?
    Do you commit to not issuing waivers of ESSA's requirement for 
annual statewide assessments?
    Answer. We are committed to the full and effective implementation 
of the ESEA as amended by the ESSA, including all requirements for 
annual statewide assessments.
    We will consider all waiver requests consistent with the 
requirements of section 8401 of the ESEA, as amended by the ESSA.
              commitment to adequate state plan oversight
    Question. As you know, 16 States and the District of Columbia 
submitted their draft plans to the U.S. Department of Education for 
peer review and approval during the April submission window. I am 
deeply concerned by some of the accountability systems that States are 
proposing to use because they violate ESSA's requirements related to 
the design of statewide accountability systems, particularly the 
requirements for subgroup accountability. ESSA requires every State to 
differentiate any school in which any subgroup of students is 
consistently underperforming.\8\ ESSA also requires each school 
district to notify ``any school'' in which ``any subgroup of students'' 
is consistently underperforming \9\ and requires each of those schools 
to ``develop and implement a school-level targeted support and 
improvement plan to improve student outcomes''.\10\ Congress intended 
that any school in which there is a consistently underperforming 
subgroup needs to implement an improvement plan to improve student 
outcomes. It appears that many of these State plans submitted during 
the April submission window violate these statutory requirements and 
violate Congressional intent. There are States that are proposing to 
differentiate schools with consistently underperforming subgroups only 
if those subgroups are performing at the same level as students in the 
bottom 5 percent of schools in the State. Other States are proposing to 
use super-subgroups, a violation of ESSA. In addition, some States are 
comparing the performance of subgroups of students to the student 
outcomes of those same subgroups rather than comparing the performance 
against State goals and proposing that schools are only differentiated 
for targeted support if they are performing as poorly as the lowest 
performing students in that same subgroup. Will you commit to working 
with States to address these issues and ultimately disapproving State 
plans that continue to contain these types of provisions and clearly 
violate ESSA?
---------------------------------------------------------------------------
    \8\ 20 U.S.C. 6311(c)(4)(C)(iii).
    \9\ 20 U.S.C. 6311(d)(2)(A)(i).
    \10\ 20 U.S.C. 6311(d)(2)(B).
---------------------------------------------------------------------------
    Answer. The Department is committed to reviewing and approving ESEA 
consolidated State plans consistent with the requirements of the ESEA, 
as amended by the ESSA, including input from expert peer reviewers.
                state compliance with essa requirements
    Question. It also seems that many of the States that submitted 
State plans for approval during the April submission window submitted 
plans that contain vague provisions and do not fully detail how they 
will comply with ESSA's requirements. For example, multiple States have 
unclear consequences for schools that do not meet the requirement in 
ESSA to assess 95 percent of students annually and the requirement for 
States to ``provide a clear and understandable explanation'' of how the 
States will factor the 95 percent requirement into their accountability 
systems.\11\ In addition, at least one State does not detail the 
precise weights it will assign to indicators in order to make 
accountability determinations. Several States also contain unclear 
definitions of consistently underperforming subgroups.
---------------------------------------------------------------------------
    \11\ 20 U.S.C. 6311(c)(4)(E).
---------------------------------------------------------------------------
    Will you commit to requiring all States to provide concrete 
descriptions of the accountability provisions as clearly required by 
ESSA?
    Please describe the process you will use to ensure States address 
the vague provisions of their proposed ESSA State plans.
    Answer. Each State that submits an ESEA consolidated State plan 
must provide clear descriptions of how it will meet the requirements 
detailed in the Revised State Template for the Consolidated State Plan 
issued in March, 2017.
    The Department is providing written feedback on each State plan, 
including a list of items that require additional information or 
revision in order to meet the requirements for approval. We also are 
providing the peer review notes, which may differ from the Department's 
feedback. Department staff are available to provide technical 
assistance in working through any outstanding items. The Department is 
statutorily required to issue a final written determination regarding a 
State's plan within 120 days of submission, but States may request 
additional time if needed to complete required revisions.
               commitment to respond to remaining letters
    Question. Following the budget hearing, I received responses from 
the Department to several of my letters. I look forward to seeing 
responses to all of my letters. However, these responses did not 
adequately address the questions asked in my letters to the Department. 
Do you commit to answering in full the questions asked by members of 
Congress regardless of their party?
    Answer. The Department will continue to respond to letters from 
Congress regardless of party affiliation and to fullest extent 
possible.
                 appointees' work with former employers
    Question. Please state whether any appointee working at the 
Department of Education is or has worked on any matter including 
regulations and contracts directly and substantially related to their 
former employment or clients, on any matter on which they lobbied 
within the 2 years prior to their appointment, or participating in any 
work related to the issue areas in which that matter falls. If yes, 
please state the name of the appointee and the regulation or contract 
on which they are working or have worked.
    Answer. In accordance with the Ethics Pledge and conflict of 
interest statute, appointees are disqualified from working on 
particular matters involving specific parties that are directly and 
substantially related to his former employers (e.g., a contract, 
litigation, or a grant).
          promoting full access for students with disabilities
    Question. More than 30 years of academic and scientific research 
demonstrate that the meaningful inclusion of children and youth with 
disabilities in their communities, local schools, and general education 
classrooms positively impacts the academic, social, and emotional 
outcomes for all students both students with disabilities and their 
peers without disabilities. Congress enshrined this into the IDEA. The 
promise of IDEA is to provide the full range of supports for eligible 
children and youth with disabilities in their communities, local 
schools, and general education classrooms. How will the Department of 
Education promote full access to and supports for communities, local 
schools, and typical classrooms so that students with disabilities have 
full access to the general education curriculum in the least 
restrictive environment?
    Answer. The Department is a strong supporter of the inclusion of 
students with disabilities in the general education environment to the 
maximum extent appropriate. To support that goal, the Department 
purposefully targets its discretionary investments under the IDEA each 
year. In fiscal year 2017, the Department will announce $45 million in 
new awards to 36 colleges and universities to support the 
interdisciplinary training of special education teachers and related 
services providers, including common coursework with general education 
teachers. We believe that this investment will help improve 
coordination and service delivery for students with disabilities, 
keeping more of these students in the general education classroom... 
Additionally, the Department plans to award a $10 million grant this 
year to a grantee to operate a national technical assistance center 
dedicated to supporting States, school districts, and schools in 
implementing effective inclusion practices. These investments are in 
addition to a 5 year, $17.5 million grant to support a technical 
assistance center devoted to supporting States and school districts in 
implementing positive behavioral interventions and supports, which have 
been shown to help keep students with disabilities, particularly those 
with behavioral disabilities, in the general education environment for 
a greater period of the day. The Department's Results Driven 
Accountability model is also designed specifically to support States in 
meeting their own measurable goals with regards to students with 
disabilities, helping to target the supports that we provide to them 
every year.
  position on preserving student loan interest and tuition deductions
    Question. At the rollout of the President's tax reform plan in 
April, Gary Cohn, the Director of the National Economic Council, 
``Homeownership, charitable giving and retirement savings will be 
protected. But other tax benefits will be eliminated.'' Presumably, the 
student loan interest deduction and the deduction for tuition-related 
expenses will fall in the other tax benefits that will be eliminated. 
Do you think these are valuable tax benefits for our Nation's students? 
If no, why? Do you commit to advocate for keeping these tax deductions 
for our students?
    Answer. Although tax policy is not directly within the policy 
jurisdiction of the Department, we will pay close attention to this 
issue so as to ensure that we continue to serve students while also 
ensuring taxpayer protection. We will continue to monitor these issues 
as discussions occur.
       plans regarding ocr and title ix complaints and exemptions
    Question. During your confirmation process, I asked you to commit 
to continuing a number of actions to ensure the public has visibility 
into the work of the Office of Civil Rights (OCR). Your responses to my 
questions did not indicate whether or not you would continue those 
items. Now that you have been confirmed, can you please clarify whether 
you will do the following:
    Answer. OCR will continue to publish an annual report that 
summarizes its compliance and enforcement activities, identifies 
significant civil rights or compliance issues and provides information 
about its caseload under all the statutes that it enforces, including 
Title IX.
    It is the Department's practice to make available to the public 
OCR's list of sexual violence investigations open at the postsecondary 
level, as well as the elementary/secondary level. The postsecondary 
list is updated on a weekly basis, and the elementary/secondary list is 
updated monthly.
    OCR makes available on its website information about the exemptions 
available under Title IX, which include an exemption for educational 
institutions controlled by a religious organization to the extent 
compliance with Title IX would conflict with the religious tenets of 
the organization. OCR has posted a chart listing all of the 
institutions that currently hold a religious exemption and all those 
that have a religious exemption request pending with OCR, as well as 
copies of institutions' requests for religious exemptions and OCR's 
responses. This information is current as of December 31, 2016.
                status of funds under va post 9/11 bill
    Question. After your confirmation hearing, you were asked whether 
you believe that Department of Veterans Affairs Post 9/11 GI Bill and 
Department of Defense Tuition Assistance benefits, paid for by Federal 
taxpayers, are Federal funds. Your written response did not answer the 
question, but instead stated that you believe these ``programs are 
benefits earned by our veterans and servicemembers for their dedicated 
service to our country.'' After the confirmation hearing for Secretary 
of Veteran Affairs David Shulkin, he was asked a similar question in 
writing whether Department of Veterans Affairs Post 9/11 GI Bill and 
Department of Defense Tuition Assistance benefits, paid for by Federal 
taxpayers, are Federal funds. He replied simply ``Yes'' that they are 
indeed Federal funds. Do you agree with Secretary Shulkin that these 
benefits are Federal funds?
    Answer. Yes, I agree with Secretary Shulkin. The benefits provided 
through the Post-9/11 GI Bill and the Department of Defense Tuition 
Assistance programs are made with Federal funds.
               estimates on va and dod funding to schools
    Question. In written responses to questions following his 
nomination hearing, Secretary of Veteran Affairs David Shulkin 
indicated that he supports continuing to publish full estimates on the 
amount and percentage of Veterans Affairs (VA) and Department of 
Defense (DoD) funding that is received by institutions of higher 
education from each Federal educational program, including Post 9/11 GI 
Bill benefits and Military Tuition Assistance. In response to being 
asked whether he believes this is important consumer information for 
the U.S. Department of Education to continue making available to our 
veterans and servicemembers, he replied ``Yes as it provides 
quantifiable impact of any proposed changes to the 90/10 rule.'' This 
information is published by the U.S. Department of Education with data 
obtained from VA and DoD. Do you agree with Secretary Shulkin that full 
estimates on the amount and percentage of VA and DoD funding that is 
received by institutions of higher education from each Federal 
educational program should continue to be published regularly?
    Answer. Rising student debt is a complex issue and a serious 
challenge. The Administration is committed to ensuring that all 
students and their families have access to postsecondary education. It 
is important to remember that student loans offer generous benefits, 
including fixed interest rates far below what the market would offer to 
most students and repayment plans, particularly income-driven plans, to 
keep their loan payments manageable. Our proposed student loan reforms 
expedite student debt management for the most vulnerable borrowers 
while eliminating inefficient subsidies such as Public Service Loan 
Forgiveness, which in particular has been linked with incentives for 
students to over-borrow. At the same time, the fiscal year 2018 
President's Budget request would simplify student loan repayment by 
consolidating five IDR plans into a single plan. This plan would set a 
borrower's monthly payment at 12.5 percent of discretionary income and 
shorten the maximum repayment period for borrowers with only 
undergraduate debt to 15 years (with any remaining balance being 
forgiven at that point). I also feel that the Administration's support 
of year-round Pell Grants will go a long way towards improving student 
outcomes and making college more affordable for the neediest students.
                   cuts to repayment and forgiveness
    Question. In written questions submitted to you after your Senate 
confirmation hearing, you were asked whether you believe that student 
debt holds back some borrowers from starting a family and what you 
believe should be done to reduce current levels of debt for existing 
borrowers. You responded that ``I think we can all agree the growing 
amount of student debt in America is a serious challenge. A key 
component of the American Dream is the belief that tomorrow will be 
better than today, especially for the next generation. Yet, that 
opportunity is now at risk. For too many Americans, higher education 
has become unaffordable and disconnected from the Nation's economic 
realities. As I said during my confirmation hearing, there is no magic 
wand to make the debt go away, but we do need to act.'' Given that you 
believe it would be a mistake to shift burdens to struggling borrowers, 
why does your budget propose $143 billion in cuts over 10 years to 
student loan repayment and forgiveness which will be more debt and 
payments that students and families shoulder without reinvesting any of 
those savings into student aid?
    Answer. We acknowledge that the need for fiscal discipline required 
some tough choices in the President's fiscal year 2018 President's 
Budget request. Rising student debt is a complex issue and a serious 
challenge. The Administration is committed to ensuring that all 
students and their families have access to postsecondary education. It 
is important to remember that student loans offer generous benefits, 
including fixed interest rates far below what the market would offer to 
most students and repayment plans, particularly income-driven plans, to 
keep their loan payments manageable. Our proposed student loan reforms 
expedite student debt management for the most vulnerable borrowers 
while eliminating inefficient subsidies such as Public Service Loan 
Forgiveness, which in particular has been linked with incentives for 
students to over-borrow. At the same time, the fiscal year 2018 
President's Budget request would simplify student loan repayment by 
consolidating five IDR plans into a single plan. This plan would set a 
borrower's monthly payment at 12.5 percent of discretionary income and 
shorten the maximum repayment period for borrowers with only 
undergraduate debt to 15 years (with any remaining balance being 
forgiven at that point). I also feel that the Administration's support 
of year-round Pell Grants will go a long way towards improving student 
outcomes and making college more affordable for the neediest students.
                   number of claims currently with ed
    Question. How many borrower defense claims are currently pending 
review, decision, or adjudication by any U.S. Department of Education 
official in total?
    Answer. As of June 28, 2017, 64,445 claims are pending.
          total $ of interest and fees for claims under review
    Question. What is the total dollar value of accumulated interest 
and fees for borrowers whose borrower claims are pending review, 
decision, or adjudication by any U.S. Department of Education official?
    Answer. Outstanding interest for borrowers with pending claims 
totals approximately $143.2 million. This includes all unpaid interest 
on all outstanding loans (some of which may have accrued prior to 
submission of the claim). Previously paid or capitalized interest is 
not included.
               total number of claims (borrower defense)
    Question. How many total borrower defense applications has the 
Department approved between January 20, 2017 and today?
    Answer. No claims have been approved since January 20, 2017.
                    borrower defense arbitration ban
    Question. Are you aware that delaying borrower defense would delay 
a ban on forced arbitration, debt relief from school closures, and new 
tools to hold schools financially responsible?
    Answer. Yes, however such delay is justified under Section 705 of 
the Administrative Procedure Act given the pending judicial review of 
Borrower Defense regulations.
   pre-suit discussion with ca association of private postsecondary 
                                schools
    Question. Did anyone at the U.S. Department of Education discuss 
the litigation filed by the California Association of Private 
Postsecondary Schools with that association's representatives or 
counsel prior to the lawsuit being filed?
    Answer. Counsel for CAPPS sent a letter to the Department on May 
22, 2017, to inform the agency that it intended to file a lawsuit 
against it. The Department did not respond to the letter. CAPPS then 
filed its lawsuit against the Department on May 24, 2017.
                   department plans for loan recalls
    Question. The U.S. Department of Education fiscal year 2018 Budget 
Summary, Appendices, Page 14, indicated that the President's budget 
proposed $1,023,073,000 less in ``Perkins loan repayments'' compared to 
both the 2017 Annualized Continuing Resolution and the Consolidated 
Appropriations Act of 2017a change of 471 percent. Does this figure 
indicate that the Department plans to recall all Federal funds in 
Perkins Loan accounts in fiscal year 2018?
    Answer. Yes, consistent with current law the Department anticipates 
both the return of the Federal portion of excess cash in institutional 
revolving funds, and the Federal share of Perkins Loan repayments 
during fiscal year 2018.
          accountability measures for converting institutions
    Question. In recent years, there has been an increase in the number 
of institutions seeking to convert from for-profit to nonprofit status, 
often to skirt accountability regulations that could prevent student 
and taxpayer fraud. The U.S. Department of Education must approve these 
changes of control and determine whether the new institution meets the 
Department's nonprofit eligibility test. Will the Department ensure 
that institutions that are seeking the benefits of nonprofit status 
have the accountability of a valid nonprofit control structure, 
including through requests for additional information from the parties 
to the transaction or interested third parties such as the proposed 
governance structure, lists of trustees and board members, details of 
employment agreements for executives or institutional leaders, 
management agreements between the sellers and affiliates, and the terms 
and conditions of any relevant financing arrangements, real property 
purchases, lease agreements, or affiliated transactions?
    Answer. In accordance with its regulations, the Department will 
examine closely applications submitted by institutions seeking to 
convert from for-profit status to non-profit status.
   maintaining support under the workforce innovation opportunity act
    Question. Individuals with the most significant disabilities 
experience higher levels of unemployment, underemployment, and poverty 
than individuals without disabilities. While some progress has been 
made in improving the employment outcomes of people with the most 
significant disabilities, there is an increasing need for policies and 
practices for supporting people with the most significant disabilities 
in competitive, integrated employment. However, the President's 2018 
education budget calls for a complete elimination of the Supported 
Employment (SE) State Grants Program. The SE Grants Program is a 
necessary funding source for State Vocational Rehabilitation (VR) 
agencies. This funding provides for on-going employment supports such 
as on the job supervision or training for individuals with the most 
significant disabilities who experience multiple barriers to not only 
obtaining but also maintaining employment.
    The budget justification declares ``there is no longer a need for a 
separate funding stream'' for the State VR agencies to provide SE 
services to ensure individuals with the most significant disabilities 
keep their jobs and the State VR agencies can absorb the cost of 
providing SE services under Title I funds or ``seek additional support 
from State and local resources.'' While Medicaid 1915(c) and 1915(i) 
waiver benefits are used by some States to provide SE services for 
people with the most significant disabilities, the State VR agencies 
are a significant source of funding for SE services. And, given the 
proposed cuts to Medicaid in the President's 2018 budget and the AHCA, 
this source of funding for SE services is in jeopardy. Beyond Medicaid 
and the State VR agencies, what are these other resources for SE 
funding and services?
    The Workforce Innovation Opportunity Act of 2014 requires the State 
VR agencies to provide extended services to youth with the most 
significant abilities for a period up to 4 years. In addition, States 
are required to spend half of their SE program funding as well as a 10 
percent match from another source on providing SE services and extended 
services to youth with the most significant disabilities. If the SE 
State Grants Program was eliminated, State VR agencies would have to 
use Title I funds to provide both SE and extended services. However, 
under current law Title I funds cannot be used to provide extended 
services. In school youth who need these services could not receive 
them from the State VR agencies. A) Under the current proposal, how 
will this priority population receive the necessary supports to 
transition successfully into employment? B) The elimination of the SE 
State Grants Program will put the squeeze on Title I funds which are 
earmarked for other services (i.e., general services, pre-ETS, 
administrative costs). How will States avoid using an Order of 
Selection and subsequent Wait List for services when they are put in 
the position of not having enough money to serve all eligible 
applicants?
    Answer. I recognize the importance of assisting our most vulnerable 
youth, particularly youth with the most significant disabilities, as 
they transition from school to work, including providing opportunities 
that will lead them on the pathway to employment in competitive 
integrated employment or supported employment. I also recognize the 
value of supported employment services in assisting those individuals 
with the most significant disabilities who might not otherwise be able 
to obtain and maintain competitive employment in an integrated setting. 
However, I do not believe that a separate supplemental grant program is 
necessary for the provision of supported employment services when the 
provision of such services is already authorized and largely payed for 
with Title I Vocational Rehabilitation (VR) State Grant funds. In fact, 
proposals to eliminate or consolidate the Supported Employment (SE) 
State Grants funds have been included in 10 annual Budget Requests to 
Congress over the last 15 years.
    I appreciate your concerns regarding the potential effects of 
current healthcare proposals on Medicaid funding, and the impact they 
may have on the availability of State resources for providing supported 
employment services. A final version of the proposed healthcare 
legislation has not passed both houses of Congress and, therefore, at 
this point in time it is impossible to predict the outcome of the 
current effort in Congress to address the instability in our healthcare 
system created by the Affordable Care Act, or to assess the potential 
impact of proposed reforms on individuals whose supported employment 
services are financed through Home and Community Based Services waivers 
(1915(c) and 1915(i)) under the Medicaid program. However, should a 
final bill pass both the House and Senate, the Department will work 
with other Federal agencies to explore efficient and effective ways to 
meet the needs of individuals with the most significant disabilities 
who require supported employments services, including youth with the 
most significant disabilities, in this challenging budget environment.
    VR State agencies provide supported employment services to assist 
eligible individuals with the most significant disabilities who have 
been determined through the VR program to need intensive services and 
ongoing supports to achieve an employment outcome. Supported employment 
services are provided for a limited time by the VR State agency from 
the time of job placement until the transition to extended services, 
including job supervision or onsite training, primarily using VR funds, 
or in conjunction with the supplemental funds provided under the SE 
State Grants. For example, in fiscal year 2015, State agencies spent a 
total of $210.2 million to provide purchased services for individuals 
with a goal of supported employment, 87 percent ($183 million) of which 
were from Title I VR funds. The cost of purchased services is in 
addition to the costs of services provided directly by VR agency staff 
under the VR State Grants program. In addition, amendments to the 
Rehabilitation Act of 1973 (Rehabilitation Act) under the Workforce 
Innovation and Opportunity Act (WIOA) changed the maximum amount of 
administrative costs permitted under the SE State Grants program from 5 
percent to 2.5 percent. Because the cost of administering the SE State 
Grants program exceeds the current 2.5 percent limit (and the prior 5 
percent limit), VR State Grant funds have and are currently being used 
to pay the majority of the administrative costs for the SE State Grants 
program. For example, VR State agencies typically charge all indirect 
costs incurred under the SE program to the VR award.
    In fiscal year 1987, the first year funds were appropriated under 
the SE formula grant, Congress provided a total of $25 million to carry 
out the new supplemental program. Over the last few years, funds 
appropriated for this program have gradually decreased from a high of 
$38.2 million in fiscal year 2002 to $27.5 million in fiscal year 2017. 
Half of the States still receive the minimum allotment of $300,000. 
With a few exceptions among the minimum allotment States, a State's SE 
allotment only provides a 1 percent increase in funds relative to their 
VR allotment.
    Administration burden, including reporting and accountability, 
continues to be a challenge for the Department and States. Due to the 
supplemental nature of these grants, States have difficulties in 
accounting for the use of the funds at an individual level, and thus we 
do not have reliable data on the number of individuals that benefit 
specifically from these supplemental funds. Ensuring that States meet 
the new program and administrative requirements for the SE State Grants 
program that were added by the WIOA amendments to the Rehabilitation 
Act has significantly increased burden. Given the relative high level 
of administrative burden at both the Federal and State levels, the 
overall benefit of these additional resources is significantly reduced.
    As you are aware, extended services are those services provided to 
individuals with the most significant disabilities by a State agency, a 
private non-profit organization, employer, or any other appropriate 
resource to assist such individuals in maintaining supported 
employment, following the provision of time-limited supported 
employment services. State VR agencies must demonstrate evidence of 
their efforts to identify and make arrangements with other public or 
nonprofit agencies or organizations within the State, employers, 
natural supports, and other entities with respect to the provision of 
extended services.
    Prior to enactment of the WIOA amendments to the Rehabilitation 
Act, State VR agencies were prohibited from using Federal funds 
received under the VR and SE State grant programs for providing 
extended services. However, consistent with section 604(b)(2) of the 
Rehabilitation Act, as amended by WIOA, VR agencies can now use both VR 
State Grant funds and/or SE State Grant funds for a limited time to pay 
for extended services to youth with the most significant disabilities, 
based on the needs of the individual. State VR agencies are still 
prohibited from providing extended services to individuals with the 
most significant disabilities who are not youth with significant 
disabilities using SE or VR program funds.
    While amendments to the SE State Grants program seek to leverage 
non-Federal resources to generate additional funds for expanded 
services (i.e., extended services) to youth, the 10 percent match that 
States must provide for half their SE grant allotment is not likely to 
have an appreciable impact in generating resources to cover the cost of 
extended services given the relatively small size of most SE State 
Grant program awards.
    I appreciate your concern that a State's inability to serve all 
individuals with disabilities who are eligible to receive services 
under the VR program will affect this population's access to supported 
employment services. However, since only individuals with the most 
significant disabilities are eligible to receive supported employment 
services, they are more likely to be in a high priority category if a 
State is operating under an Order of Selection with respect to its VR 
program.
    I also understand that many State VR agencies face resource 
challenges due to the impact of 5 years of mandatory sequestration 
under the Budget Control Act, as well as the additional demands on 
available VR funds caused by implementation of new statutory 
requirements. However, I believe that we need to find more efficient 
and effective ways of providing resources to States without increasing 
the burden of carrying out largely duplicative programs.
    We are happy to work with Congress to ensure that the needs of 
youth with the most significant disabilities who require supported 
employment services continue to be addressed under the VR program.
            commitment to appointing independent head of fsa
    Question. In replacing the Chief Operating Officer of Federal 
Student Aid, will you ensure that this individual you select will be 
independent of the Federal student loan and debt collection industry 
and will not have any conflicts of interest with entities in this 
sector or with other financial entities that may invest in them?
    Answer. I was pleased to announce the appointment of Dr. Wayne 
Johnson on June 20, 2017. Dr. Johnson is a highly regarded leader with 
more than 30 years of experience in the financial services industry and 
holds a Ph.D. in higher education leadership. He will be a tremendous 
asset to the Department as we move forward with a focus on how best to 
serve students and protect taxpayers.
                 rationale for cutting special olympics
    Question. Special Olympics is the largest sports organization for 
people with intellectual disabilities in the US and abroad. While the 
focus on sports training and competition is the greatest contribution 
of the Special Olympics program to enhancing the health and well-being 
of people with intellectual disabilities around the world, over the 
last 50 years the program has expanded its reach to affect inclusive 
community building in and out of the school setting, high-quality 
research on topics such as attitudes and perceptions of people with 
disabilities, and leadership development of our youth athletes with and 
without disabilities. Special Olympics Washington receives 
approximately $250,000 annually for the Unified Champion Schools 
programming. Because of this funding, over 200 Washington schools have 
furthered their commitment to providing inclusive sports programming 
and to changing the school climate to be safer and more welcoming for 
all students.
    Given the tremendous bi-partisan support for the Special Olympics 
Education Program in Congress, why has the Department proposed to 
eliminate this valuable resource for our schools and, especially, for 
our youth with disabilities
    The Special Olympics program is unique in that it provides an 
opportunity for inclusion and participation on a massive scale in 
sports, an activity valued by many. What alternatives will the 
Department offer to further States' efforts in developing inclusive 
communities through sports?
    Answer. While the Special Olympics education programs support 
worthwhile activities, these programs are more appropriately supported 
with private funds. Federal funding is not necessary for the successful 
operation of Special Olympics. Special Olympics is a well-established 
non-profit organization with a broad network of program volunteers and 
supporters. Special Olympics has been successful in raising financial 
support through such vehicles as direct mail contributions, individual 
and corporate contributions and sponsorships, investments, non-Federal 
grants, royalty income, and accreditation fees. In fiscal year 2015, 
Special Olympics boasted 856,729 donors/members, with over $101 million 
of revenue raised from donors. With a board of directors that includes 
businessmen, attorneys, Olympic medalists, former professional 
athletes, recording artists, and other well-known public figures, 
Special Olympics is well positioned to generate additional support for 
program activities through non-Federal sources.
    The Department continues to support States in their efforts to 
ensure students with disabilities have opportunities for inclusion and 
meaningful participation in sports, including through physical 
education classes and extracurricular activities. The Department has 
developed resources to help States understand their obligation to 
include students with disabilities in extracurricular athletic 
activities, how to increase opportunities for students with 
disabilities to participate in physical education and extracurricular 
athletics, and how to reduce or eliminate common barriers to 
participation. See https://www2.ed.gov/about/offices/list/ocr/letters/
colleague-201301-504.pdf and https://www2.ed.gov/policy/speced/guid/
idea/equal-pe.pdf.
                    fsa ombudsman and homeless youth
    Question. In written questions submitted to you after your Senate 
confirmation hearing, you were asked whether you would commit to 
utilizing the Federal Student Aid Ombudsman to help homeless youth 
resolve disputes and access their financial aid. You responded that 
``If confirmed, I will look closely at the role of the Student Loan 
Ombudsman and evaluate if there are changes needed to better assist 
homeless youth in accessing financial aid.'' Now that you have had more 
time for review, will you direct the Federal Student Aid Ombudsman to 
assist homeless youth in resolving any disputes about their status in 
order to be able to access their financial aid?
    Answer. Yes. The Federal Student Aid Ombudsman provides informal 
dispute resolution assistance to homeless youth regarding their 
eligibility for Federal student aid. An applicant, student, or Federal 
student aid recipient may file a complaint through the Federal Student 
Aid Feedback System to express their dissatisfaction with Title IV 
policy, process, service, or participating entity. The Federal Student 
Aid Ombudsman offers its informal dispute resolution assistance to 
anyone who believes a response received to his/her complaint does not 
comply with the law or give appropriate consideration to the facts of 
the matter.
                         hbcu and pell aid cuts
    Question. Secretary DeVos, in your remarks last month at the 
Bethune-Cookman commencement, you told the graduates: ``Please know 
this: we support you, and we will continue to support you, I am at the 
table fighting on your behalf, and on behalf of all students across 
this great Nation.'' The Trump Administration has also expressed their 
support for Historically Black Colleges and Universities (HBCUs). 
However, the President's fiscal year 2018 budget's proposed higher 
education cuts are devastating to HBCUs, and would eliminate SEOG for 
35,000 HBCU students, reduce awards or recipients for more than 20,000 
Federal Work-Study recipients at HBCUs, and charge interest on 
undergraduate loans of nearly 160,000 subsidized loan recipients at 
HBCUs. When I look at this budget, I also see no increase in the Pell 
Grant maximum award, but rather $4 billion in cuts to the Pell Grant 
surplus. Can you please explain how the fiscal year 2018 budget is 
fighting ``on behalf of all students across this great Nation'' and for 
HBCU students with these cuts to financial aid?
    Answer. One of President Trump's first actions as President was to 
sign an Executive Order signaling his commitment to HBCUs. The 
President's fiscal year 2018 Budget request follows through on this 
commitment by protecting support for Historically Black Colleges and 
Universities, Hispanic-Serving Institutions, and other Minority-Serving 
Institutions through programs authorized by Titles III and V of the 
Higher Education Act. The President's Budget request maintains $492 
million in funding for programs that provide opportunities for 
communities that are often underserved. These programs are important 
vehicles for helping close gaps among racial and socioeconomic groups 
in college enrollment and degree attainment by improving the 
institutions' academic programs, institutional capacity and student 
support services. In addition, this Administration intends to continue 
the work of the White House Initiative on HBCUs ensuring that HBCUs 
have the opportunity to fully and successfully participate in Federal 
programs. The President's fiscal year 2018 Budget request also supports 
the restoration of year-round Pell Grants, which will help students at 
HBCUs complete school more quickly and with less debt. During a meeting 
with President Trump in February, 2017, HBCU Presidents broadly 
supported this restoration.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
             rationale for eliminating after-school funding
    Question. Chicago is a great city that I am proud to represent. In 
recent years, the city has experienced a surge of gun violence. Through 
the end of May, there had been more than 1,300 shootings in the city of 
Chicago. Common-sense changes to our gun laws are an important part of 
solving the problem. But we must also address the underlying issues 
present in communities that experience high incidents of violence high 
unemployment and lack of resources and opportunities. President Trump 
has frequently tweeted about the situation in Chicago, but I wrote to 
the President and encouraged him to stop tweeting about Chicago and 
instead use his Budget proposal to invest in important Federal programs 
that help to reduce violence and provide opportunities for 
disadvantaged communities. Unfortunately, now that it's been released 
we see that this Budget is a big step backwards. Across Departments, 
the Budget cuts many programs that are key to addressing gun violence 
and its underlying causes, including service programs through the 
Corporation for Community and National Service. In terms of the 
Department of Education, the Budget diverts $1 billion from Title I, 
which provides assistance to high-poverty schools often in the same 
neighborhoods that experience violence. The Budget completely 
eliminates $1.2 billion in funding for the 21st Century Community 
Learning Centers program the only Federal support for after-school 
programs. Last year, Illinois received $52 million to provide safe 
places for children during critical afterschool hours when juvenile 
crime increases. I've seen what these resources and programs do in 
Chicago. I've visited them. I've heard from students how these 
afterschool programs, made possible through Federal 21st Century 
funding, give them hope and a safe, nurturing environment to continue 
learning after the school day is over keeping them off the streets. How 
do you square these and other budget cuts to programs with a direct 
effect on providing opportunity and preventing violence with the 
President's concern for the people of Chicago on Twitter?
    Answer. The fiscal year 2018 request actually increases funding for 
School Safety National Activities, providing $74.9 million compared to 
the fiscal year 2017 enacted level of $68 million. Moreover, the City 
of Chicago and its schools would continue to benefit significantly from 
Federal education programs under the President's fiscal year 2018 
Budget request, which maintains strong support for the large formula 
grant programs that are the foundation of the longstanding ESEA 
commitment to school districts and schools that serve high-need 
students. For example, the fiscal year 2018 Budget request would 
maintain level funding for the Title I Grants to Local Educational 
Agencies program, which provides nearly $300 million annually to 
Chicago Public Schools (CPS). Moreover, the Administration's Title I 
Furthering Options for Children to Unlock Success proposal, or FOCUS, 
would provide an opportunity for CPS to create a system that both 
directs more Federal, State, and local funds to students and schools 
with the greatest needs and empowers students and parents to attend 
schools that offer high-quality instruction in safe and supportive 
school climates. Finally, the President's overall fiscal year 2018 
Budget request is part of an economic growth strategy expressly 
designed to address what you describe as ``the underlying issues'' 
behind the high incidence of violence in Chicago in recent years. More 
specifically, the lower taxes enabled by fiscal discipline, combined 
with reduced regulation and greater investment in infrastructure 
improvements, offer the greatest promise of reversing the ``high 
unemployment and lack of resources and opportunities'' that currently 
plague violence-prone communities in Chicago.
     measures to protect students from abuse by for-profit colleges
    Question. During your appearance before the Subcommittee, I shared 
my concerns about America's student debt crisis and the role that for-
profit colleges play in exacerbating that crisis. I noted that for-
profit colleges only enroll 9 percent of all post-secondary students, 
but account for 35 percent of all student loan defaults. They are some 
of the most heavily subsidized ``private'' entities in America 
receiving 80, 85, 90 percent and more of their revenue directly from 
Federal taxpayers. Time and again, these for-profit education companies 
have engaged in unfair, deceptive, and abusive practices related to 
students. Nearly every major for-profit college has been the subject of 
an investigation or lawsuit by one or more State and/or Federal agency 
in the past several years. This level and frequency of abuse is 
systemic throughout the for-profit college industry, in a way not seen 
in the public or private not-for-profit sectors. What are you going to 
do to ensure that the Department is protecting students and taxpayers 
from the systemic, industry-wide abuse we've seen from for-profit 
colleges?
    Answer. Working with a diverse universe of stakeholders, I intend 
to implement policies that ensure that the Department protects students 
and taxpayers without regard to the tax status of the educational 
institution that students attend while also ensuring that educational 
institutions receive a fair and impartial review of their conduct and 
practices. The Department will ensure that that its regulations 
effectively protect students while fairly treating institutions.
              gainful employment delay and implementation
    Question. On February 22, 2017, Illinois Attorney General Lisa 
Madigan and 19 other State Attorneys General wrote to you warning that 
rolling back key protections for students and taxpayers would lead to a 
return to ``open season on students'' for for-profit colleges. In their 
letter, the Attorneys General specifically mentioned the Gainful 
Employment Rule, Borrower Defense Rule, and vigorous oversight of 
accreditors as keys to preventing a return to ``open season.'' Since 
your confirmation, you have shown signs that you will not heed the 
advice of these chief state law enforcement officers. In March, the 
Department delayed implementation and enforcement of the Gainful 
Employment Rule.
    On March 13, I wrote to you along with 11 of my colleagues 
expressing concerns about the delay. We were concerned that this delay 
could be the beginning of a larger attempt to kill the rule a longtime 
goal of the for-profit college industry. They have spent years and 
millions of dollars fighting this effort to inject modest 
accountability into career training programs, as this rule does. But 
the Department's own Inspector General agreed in House testimony that 
Gainful Employment ``is a good rule in terms of protecting kids and 
protecting taxpayers' dollars.'' Now reports suggest that the 
Department may be considering further delays to the rule or other 
avenues to change it.
    Is further delay of the Gainful Employment Rule under active 
consideration at the Department?
    Answer. On June 16, 2017 the Department announced its intent to 
convene a negotiated rulemaking for the purposes or reviewing the 
gainful employment provisions in the statute. On July 5, 2017, the 
Department announced that it will allow additional time until July 1, 
2018, for institutions to comply with certain disclosure requirements 
in the gainful employment regulations and invited comment on this 
action. The document also extends the deadline for all programs to file 
alternate earnings appeals in light of a June 28, 2017, court decision 
in American Association of Cosmetology v. DeVos (D.D.C.). The July 5, 
2017, announcement does not change the July 1, 2017, deadline for the 
institutions to provide a completed disclosure template, or a link 
thereto, on their gainful employment program web pages; however, it 
does allow until July 1, 2018, for institutions to include the 
disclosure template, or a link thereto, in their gainful employment 
promotional materials and directly to distribute the disclosure 
template to prospective students.
    Question. If so, is Mr. Robert Eitel, your Senior Counselor, 
involved in those discussions?
    Answer. No. Mr. Eitel has voluntarily recused himself from matters 
concerning the Gainful Employment Rule.
    Question. Will you side with students and taxpayers and implement 
and enforce the rule without further delay or will you side with the 
for-profit industry and continue to delay or repeal the rule, an 
outcome which the Congressional Budget Office estimated last year would 
cost $1.3 billion over 10 years?
    Answer. The Department will ensure that all rules and requirements 
are implemented and enforced appropriately. Where change is needed, 
change will occur in a matter that complies with the Administrative 
Procedure Act (APA).
                         draft completer lists
    Question. On June 1, 2016, the Department sent draft completers 
lists to schools for review. This is the first step in generating 
Gainful Employment data. We're a few days past that timeline this year.
    Has the Department provided draft completers lists to schools for 
2017?
    If not, when do you expect to do so?
    Answer. The Department has not provided draft completers lists. We 
don't have currently have any timetable to send completers lists to 
schools for 2017.
               implementing borrower defense regulations
    Question. In their February 22 letter, the Attorneys General also 
wrote of the importance of the final Borrower Defense rule published on 
November 1, 2016, and that the rule ``must be allowed to take effect on 
July 1'' as published in the Federal Register. Reports state that the 
Department is considering delaying implementation of the Borrower 
Defense Rule.
    Is delay of the July 1 effective date of the Borrower Defense Rule 
being actively considered at the Department?
    What are the legal rationales you or anyone in the U.S. Department 
of Education have considered as the basis for delaying the regulation
    Is Mr. Robert Eitel, your Senior Counselor, working on any matters 
related to the Borrower Defense Rule, including but not limited any 
conversations surrounding the effective date of the regulation, ways to 
revise the current regulation, or the substance of any potential future 
negotiated rulemaking on the topic?
    On what issues, specifically, is Mr. Robert Eitel prohibited from 
working on due to conflicts of interest?
    Answer. As Senior Counselor to the Secretary, Mr. Eitel is charged 
with advising the Secretary on the implications of proposed, new, or 
revised policies, regulations, and legislative proposals and assessing 
their potential impact on the Department's mission. In accordance with 
the Ethics Pledge and conflict of interest statute, Mr. Eitel is 
disqualified from working on particular matters involving specific 
parties that are directly and substantially related to his former 
employers (e.g., a contract, litigation, or a grant). Mr. Eitel is thus 
recused from the borrower defense claims filed by students under the 
current borrower defense regulation because students of schools at 
these former employers have claims under the current rules. 
Additionally, Mr. Eitel has gone above and beyond that to recuse 
himself from all such claims filed by any student from any school under 
the 1994 regulation. Further, Mr. Eitel has voluntarily recused himself 
from matters relating to the gainful employment regulations. The 
Department's Designated Agency Ethics Official has informed Mr. Eitel 
that he is not subject to disqualification under the Ethics Pledge or 
the conflict of interest statute in regard to review of and any 
possible changes to the borrower defense regulations that were to be 
effective July 1, 2017, and now delayed.
           delaying borrower defense in context of oig report
    Question. In addition to providing a more consistent process by 
which students are able to fulfill their statutory rights under 
borrower defense to seek relief from the Department after being 
defrauded by schools, the new borrower defense regulation contains 
important protections to prevent abuse by schools up front. A recent 
report (ED-OIG/A09Q0001) by the Department of Education Office of 
Inspector General found that the Borrower Defense Rule will improve the 
Department's procedures for ``identifying Title IV schools at risk of 
unexpected or abrupt closure'' and ``mitigating potential Harm to 
students and taxpayers.'' Among other things, the rule requires risky 
schools to post Letters of Credit to protect taxpayers against 
potential future discharges. How would you explain to taxpayers that by 
delaying the Borrower Defense Rule you allowed risky schools to avoid 
this responsibility?
    Answer. The prior administration failed to consider how these 
provisions impact institutions other than proprietary schools, and that 
failure requires a regulatory reset and a fresh start on these issues. 
I am not alone in this view. Associations representative of 
postsecondary institutions across the spectrum of higher education have 
roundly criticized the financial responsibility triggers imposed by the 
borrower defense to repayment regulations that were to be effective on 
July 1, 2017, and now delayed. See, e.g., Comments of certain higher 
education associations, ED-2015-OPE-0103 (August 1, 2016). Indeed, 
schools that educate underserved student populations claim that they 
would be particularly vulnerable to injury caused by the financial 
responsibility trigger provisions. Underscoring this point, the United 
Negro College Fund and the National Association for Equal Opportunity 
in Higher Education wrote me as late as June 13, 2017, urging the 
Department to delay the implementation of the borrower defense to 
repayment regulations. And they are not alone. Attorneys General have 
also criticized the rule's financial triggers. Pointing to the rule's 
financial triggers arising from Federal or State lawsuits or 
administrative actions, the Attorneys General of Arizona, Colorado, 
Michigan, Oklahoma, and Texas raised concerns about the harm that would 
come to schools under such a relaxed standard. Comments of Attorneys 
General of Arizona, Colorado, Michigan, Oklahoma, and Texas, ED-2015-
OPE-0103 (Aug. 1, 2016). Another attorney general noted that such 
provisions could ``chill'' settlement possibilities in actions brought 
by Federal and State agencies. Comments of the Attorney General of 
Iowa, ED-2015-OPE-0103 (Aug. 1, 2016).
               borrower defense and mandatory arbitration
    Question. During your confirmation, in response to a written 
question from Senator Murray asking if you believe students defrauded 
by their college have a right to seek legal remedies in court, you 
wrote simply, ``Yes.'' While almost nonexistent at legitimate not-for-
profit institutions of higher education, the use of mandatory 
arbitration clauses in student enrollment contracts is a common 
practice at for-profit colleges. In order to enroll in a program of 
study at these schools, students literally have to sign away their 
rights to bring suit against the school in a court of law and to join a 
class action. Often, the mandatory arbitration clause is buried so deep 
in the fine print, students don't even know they've signed one. When a 
dispute arises, students are forced into arbitration proceedings where 
the deck is stacked against them and the outcome secret. This keeps 
wrongdoing from coming to the attention of State and Federal 
regulators. It also means that instead of schools being held 
accountable for their own wrongdoing in a court of law, students have 
nowhere else to turn but to Federal taxpayers for relief through 
borrower defense and other discharges. The Borrower Defense Rule would 
prohibit institutions of higher education from forcing Direct Loan 
recipients into signing mandatory arbitration agreements as part of 
enrollment.
    Do you agree that institutional policies prohibiting students from 
filing suit against a school, either individually or as part of a 
class, create a financial risk for taxpayers? Given your previous 
statements about students' rights to seek redress in courts and the 
positive outcome for taxpayers that allowing students to hold schools 
accountable directly would have, will you commit to enforce, beginning 
July 1, the mandatory arbitration limitation contained in the Borrower 
Defense regulation?
    Answer. It is the financial risk on taxpayers imposed by the 
borrower defense to repayment regulations that requires re-examination. 
As the Department stated in the Net Budget Impacts section of the 
Regulatory Impact Analysis of the final regulations, the provisions 
with the greatest impact on the net budget impact of the final 
regulations are those related to the discharge of borrowers' loans, 
especially the changes to borrower defense and closed school 
discharges. The final regulations were estimated to have a net budget 
impact in costs over the 2016-2026 loan cohorts of $16.6 billion in the 
primary estimate scenario, including a cost of $381 million for cohorts 
2014-2016 attributable to the regulations providing for a 3-year 
automatic closed school discharge. Postponing the effective date of the 
final regulations will allow the negotiators ample opportunity to 
examine the impact on the Treasury and the taxpayers and to develop 
rules that take into account the interests of not only students but 
also taxpayers and institutions.
    On May 24, 2017, the California Association of Private 
Postsecondary Schools (CAPPS) filed a complaint with the Federal 
district court in Washington, D.C. challenging the final borrower 
defense to repayment regulations, including prohibitions against 
institutions using arbitration or class action waivers in their 
agreements with students. Pursuant to Section 705 of the Administrative 
Procedure Act, the Department has delayed effective date of this 
provision of final regulations until the judicial challenges to the 
final regulations are resolved.
                       claims by number and state
    Question. As of January 19, 2017, the Department reported more than 
68,000 pending borrower defense claims, including more than 3,200 from 
Illinois borrowers.
    How many borrower defense claims has the Department received in 
total, on or after January 20, 2017, disaggregated by State?
    How many total borrower defense claims has the Department approved 
between January 20, 2017, and today and what is the dollar amount of 
approved relief?
    Answer. No claims have been approved since January 20, 2017. The 
requested figures for claims received, current as of June 16, 2017, is 
provided in the following table:

------------------------------------------------------------------------
                    Borrower State ID                      Total Claims
------------------------------------------------------------------------
TOTAL...................................................          14,328
                                                         ---------------
AE......................................................               2
AK......................................................              12
AL......................................................             113
AP......................................................               2
AR......................................................              44
AZ......................................................             193
CA......................................................           2,414
CO......................................................             198
CT......................................................              48
DC......................................................              44
DE......................................................              15
FC......................................................              20
FL......................................................           1,121
FM......................................................               2
GA......................................................             478
GU......................................................             478
HI......................................................             112
IA......................................................              62
ID......................................................              53
IL......................................................             819
IN......................................................             260
KS......................................................              64
KY......................................................             125
LA......................................................              84
MA......................................................             225
MD......................................................             227
ME......................................................              19
MI......................................................             442
MN......................................................             326
MO......................................................             253
MS......................................................              51
MT......................................................              17
NC......................................................             436
ND......................................................              11
NE......................................................              49
NH......................................................              18
NJ......................................................             174
NM......................................................              51
NV......................................................             174
NY......................................................             442
OH......................................................             424
OK......................................................              83
OR......................................................             152
PA......................................................             351
PR......................................................               4
RI......................................................              17
SC......................................................             142
SD......................................................              17
TN......................................................             224
TX......................................................             951
UT......................................................              89
VA......................................................             412
VI......................................................               5
VT......................................................               9
WA......................................................             449
WI......................................................             203
WV......................................................              61
WY......................................................              15
State Code Currently Unavailable........................           1,519
------------------------------------------------------------------------

         plans for corinthian, itt tech, aci and other schools
    Question. In addition to those awaiting decisions from the 
Department on their pending borrower defense claims, thousands of 
borrowers have had their claims approved but have not yet received 
relief. When you testified recently before the House Appropriations 
subcommittee, Representative Clark from Massachusetts asked you about 
Federal student loan relief for borrowers at the now-defunct American 
Career Institute (ACI). These borrowers were told in January that they 
would be receiving discharges and that it should be completed within 
120 days. That timeline has now lapsed without relief being provided. 
In response to Rep. Clark's question, you said that, ``those to whom 
we've made a commitment, we are going to make good on that 
commitment.'' Former ACI students are not the only Federal borrowers 
who have received notice from the Department that their borrower 
defense or closed school discharge claims have been approved, but who 
have yet to receive relief. Do you intend to ``make good on that 
commitment'' and provide relief for all previously-approved students, 
including those who attended Corinthian, ITT Tech, or other schools?
    Answer. Yes, all students previously approved for discharge will 
receive discharges. Executing the discharge of these loans is not a 
simple process, and the Department has been working vigorously to 
review these claims; the Department has sent all but a few thousand of 
the over 16,000 previously approved claims to servicers for discharge. 
Some individual borrower cases are more complex and may take additional 
time, but the Department is working through those issues as quickly as 
possible to discharge that small group of remaining loans.
                           delayed repayments
    Question. Students who have received notification from the 
Department that their borrower defense and closed school discharge 
claims were approved were told that loan forgiveness would be completed 
within 120 days. For these students, 120 days has come and gone without 
the relief they were promised. In response to news reports about the 
missed deadline, a Department spokesperson told Politico that the 120-
day deadline was ``arbitrary.'' For students defrauded by Corinthian 
and other schools and who have been approved for relief, 120 days isn't 
arbitrary. They anxiously check their accounts every day to see when 
this debt burden will be lifted. They live every single day with the 
incredible financial, emotional, and social toll of their for-profit 
college experience. A recent story in the Chronicle of Higher Education 
entitled, ``Students Were Promised Loan Forgiveness. Under Trump, They 
Wait and Worry'' highlighted the issue. ``Wait and see'' or ``we're 
reviewing it'' is not a good enough answer for these borrowers.
    When can these students expect to see the relief they were promised 
and which you have said previously that you will honor?
    Answer. As I have stated previously, promises made will be promises 
kept. The Department has been working vigorously to examine and to 
discharge valid claims and will continue to do so. Some individual 
borrower cases present more complex cases and may take additional time, 
and the Department will work such issues as quickly as possible to 
discharge this group of loans.
              for-profits converting to non-profit status
    Question. In recent years, several for-profit colleges have 
attempted to convert to not-for-profit status in an attempt to avoid 
the stigma associated with the predatory for-profit college industry 
and to avoid regulations meant to protect students and taxpayers.
    How many for-profit to not-for-profit conversions are currently 
pending at the Department and what institutions?
    What is the Department doing to ensure that any approved 
conversions are in the best interests of students and taxpayers and not 
simply a way for owners of for-profit colleges to skirt regulations 
while continuing to benefit financially?
    Answer. In accordance with its regulations, the Department will 
examine closely applications submitted by institutions seeking to 
convert from for-profit to non-profit status. There are currently 16 
for-profit to not-for profit conversions pending approval at the 
Department for the purpose of determining Title IV eligibility.

------------------------------------------------------------------------
                                      Ownership as For    Ownership as
          Institution Name                 Profit           NonProfit
------------------------------------------------------------------------
Herzing University..................  Herzing Inc       Herzing
                                                         Educational
                                                         Foundation
 
American Academy of Art.............  American Academy  Council on
                                       of Art--Richard   Postsecondary
                                       Otto              Education, Inc
 
Cambridge Junior College............  Level 1:          ASPIRA Inc. of
                                       Workforce         Pennsylvania
                                       Training
                                       Solutions, Inc.
 
Golden State College of Court         Golden State      Goodwill
 Reporting & Captioning.               College of        Industries of
                                       Court Reporting   the Greater
                                       & Captioning      East Bay, Inc.
 
Pittsburgh Technical Institute......  Pittsburgh        Center for
                                       Technical         Excellence in
                                       Institute         Education, Inc
                                       Employee Stock
                                       Ownership Plan
 
Community Care College..............  Dental            Community
                                       Directions,       HigherEd
                                       Inc.              Institute
 
School of Visual Arts...............  School of Visual  School of Visual
                                       Arts, Inc         Arts, Inc.
                                                         proposed to
                                                         transfer the
                                                         educational
                                                         assets of the
                                                         School to a
                                                         single member
                                                         LLC (SVA of New
                                                         York LLC),
                                                         which will, in
                                                         turn, be
                                                         transferred to
                                                         SVA Alumni
                                                         Society, Inc.
 
Sunstate Academy....................  Sunstate          Compass Rose
                                       College, Inc      Foundation, Inc
 
Sunstate Academy....................  Sunstate          Compass Rose
                                       College, Inc      Foundation, Inc
 
Art Institute of Atlanta (The); SACS  Education         The Dream Center
 accredited.                           Management        Foundation
                                       Corporation
 
Art Institute of Houston (The); SACS  Education         The Dream Center
 accredited.                           Management        Foundation
                                       Corporation
 
South University; SACS accredited...  Education         The Dream Center
                                       Management        Foundation
                                       Corporation
 
Art Institute of Pittsburgh (The);    Education         The Dream Center
 Middle States accredited.             Management        Foundation
                                       Corporation
 
Art Institute of Philadelphia (The);  Education         The Dream Center
 Middle States accredited.             Management        Foundation
                                       Corporation
 
Kaplan University...................  Graham Holdings   Purdue
                                       Company           University
 
McNally Smith College of Music......  McNally Smith     MSP College of
                                       College Inc       Music
------------------------------------------------------------------------

               report on student aid enforcement actions
    Question. Please provide an update on all enforcement actions taken 
by either the Federal Student Aid Program Compliance office or the 
Student Aid Enforcement Unit since January 20, 2017.
    Answer. The following is a list of actions taken by the Student Aid 
Enforcement Unit completed after Jan. 20, 2017:
  --CC's Cosmetology College, Revocation of Provisional Program 
        Participation Agreement (PPPA)
  --Graham Hospital School of Nursing, Fine: $20,000
  --Cosmetology Training Center, Revocation of PPPA
  --Infinity Career College, Denial of Recertification
  --Technical Institute of Cosmetology Arts & Sciences, Denial of 
        Reinstatement
  --Fayette Beauty Academy, Denial of Recertification
    The following is a list of actions taken by Program Compliance 
completed after Jan. 20, 2017:
  --Asian Institute of Medical Studies, Denial of Initial Application
  --St. Matthew's University School of Medicine, Denial of Initial 
        Application
             totals: refunds to overcharged service members
    Question. Please provide an update on the Department's review of 
student loan servicers' compliance since 2010 with the Servicemembers 
Civil Relief Act (SCRA) and an update on the number and total dollar 
value of refunds to service members who were overcharged on their 
student loans because they did not receive the SCRA rate cap to which 
they were entitled under the law.
    Answer. FSA has completed a review of SCRA for all servicers for 
the period between June 2014 and September 2015. FSA has also conducted 
program reviews of loans held by lenders and serviced under the Federal 
Family Education Loan (FFEL) program. Reviews of SCRA have continued at 
the Federal servicers and at the FFEL servicers. In addition, as part 
of its scheduled review cycle, FSA Operations staff has monitored SCRA 
activity for compliance with current guidance. The Process Monitoring 
Team performs quarterly SCRA reviews and examines individual borrower 
loans for compliance. The Call Monitoring Team listens to servicer-
borrower calls and evaluates these interactions for quality and 
accuracy against a list of specific criteria. Both teams track issues 
and errors, alert servicers to accounts requiring correction, or 
policies and procedures which require modification. Neither the 
processing or call center monitoring teams have identified or reported 
any trends or failures as a result of the continued reviews.
    As previously announced, the Department now ensures that all 
service members receive relief under the SCRA automatically through a 
regular data match with the Department of Defense's Defense Manpower 
Data Center (DMDC). In 2016, the Department directed the Federal loan 
servicers and debt collection servicers to extend this relief to all 
eligible service members going back to 2008 (when Congress amended the 
Higher Education Act to make the SCRA applicable to Federal student 
loans). To date, approximately 167,000 service members have received 
account adjustments resulting in a total student loan balance 
reductions and/or refunds of at least $5.6 million.
                  withdrawn memos protecting students
    Question. On April 11 2017, the U.S. Department of Education 
withdrew two memos issued by the previous administration. In doing so, 
the Department reduced consideration of negative past performance by 
Federal student loan servicers in the procurement process for the new 
student loan servicing contract and rescinded key student loan borrower 
protections.
    Why wouldn't the enforcement actions of two state attorneys 
general, Illinois and Washington, and a Federal agency, the Consumer 
Financial Protection Bureau, against a student loan servicer be highly 
relevant to the Department's consideration of that company's bid for a 
new contract?
    Do you believe it is important to have basic student loan borrower 
protections in place to stop the abuses those enforcement agencies 
describe in their filings?
    Answer. Prospective servicers will be evaluated based on their 
capability to effectively service student loans, provide high-quality 
customer service, and keep borrowers in good repayment status, as 
demonstrated by its relevant past performance. A major element of 
effective servicing is compliance with all relevant legislative and 
regulatory guidance. Accordingly, all relevant past performance 
information, including enforcement actions, will be considered. In 
assessing these factors, FSA reserves the right to obtain past 
performance information other than that described in the solicitation 
and to consider such other past performance information in the 
evaluation and selection for award.
    The Department is committed to providing borrowers, and in 
particular borrowers in distress, with high-quality servicing that 
facilitates prompt and easy access to the many options available to 
help them manage their debt. Part of this commitment involves ensuring 
that the Department's servicers abide by all applicable consumer 
protections. The Department believes the solicitation includes 
additional requirements, including explicit quality standards enforced 
through financial disincentives that will support more effective 
oversight and enforcement to ensure that borrower protections are 
observed.
          eliminating title iv programs and national security
    Question. Strengthening national security is one of this 
Administration's stated priorities. Yet, while increasing spending at 
the Department of Defense, the President's Budget cuts programs that 
contribute to national security funded and administered by other 
agencies and departments. For example, the Budget eliminates 
international education programs authorized under Title VI of the 
Higher Education Act. In addition to enhancing cultural and historical 
awareness, these programs provide American students with training in 
foreign languages which are critical to our national security 
community. National security experts, such as former-Secretary of 
Defense Robert Gates, have spoken of the importance of Title VI 
international education programs.
    Do you believe that non-Department of Defense programs can 
contribute to America's national security?
    Do you believe that eliminating international education programs at 
the Department of Education will enhance America's national security? 
Please explain.
    Answer. (a) The fiscal year 2018 President's Budget reduces or 
eliminates funding for programs that are not effective; duplicate other 
efforts, or are better supported with State, local or private funds. 
The Administration believes Federal agencies whose primary mission is 
national security are more appropriately equipped to support this 
critical objective.
    (b) The Administration believes other Federal agencies whose 
primary mission is national security are more appropriately equipped to 
support this critical objective.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
             reasons for increasing profit on student loans
    Question. During the campaign, President Trump questioned why the 
Federal Government was making money on student loans. In an interview, 
he said, ``That's probably one of the only things the government 
shouldn't make money off I think it's terrible that one of the only 
profit centers we have is student loans.'' Yet your budget does the 
following:
    What are the reasons for increasing the government's profit on 
student loans?
    Answer. Rising student debt is a complex issue and a serious 
challenge. The Administration is committed to ensuring that all 
students and their families have access to postsecondary education. It 
is important to remember that student loans offer generous benefits, 
including fixed interest rates far below what the market would offer to 
most students and repayment plans, particularly income-driven plans, to 
keep their loan payments manageable. Our proposed student loan reforms 
expedite student debt relief for the most vulnerable borrowers while 
eliminating inefficient subsidies such as Public Service Loan 
Forgiveness, which in particular has been linked with incentives for 
students to over-borrow. At the same time, the fiscal year 2018 
President's Budget request would simplify student loan repayment by 
consolidating five IDR plans into a single plan. This plan would set a 
borrower's monthly payment at 12.5 percent of discretionary income and 
shorten the maximum repayment period for borrowers with only 
undergraduate debt to 15 years (with any remaining balance being 
forgiven at that point).
                elimination of teacher training support
    Question. This (Title II-A) is a key program in the Every Student 
Success Act that supports professional development for educators and 
ensures equity in access to experienced and effective teachers. States 
and school districts are developing their plans, based on their own 
needs and priorities for educator support. How does eliminating this 
program and its resources empower States and school districts to 
implement their priorities in this area? How does this protect 
vulnerable students?
    Answer. Title II-A duplicates activities that may be supported with 
other Federal, State, and local funds; has not demonstrated success in 
contributing to improved teacher quality or student outcomes; and makes 
formula-based allocations to LEAs that often are too small to have a 
meaningful impact on student outcomes. Most funds are used for 
professional development and class-size reduction, and an LEA that 
identifies either activity as a key strategy for responding to a 
comprehensive needs assessment may use Title I, Part A funds for the 
same purpose. Title I funds also may be used to recruit and retain 
effective teachers.
              reducing adult ed funding in context of jobs
    Question. The Administration has proposed to cut funding for adult 
education as one of the ``tough decisions needed to achieve the 
President's goal of increasing support for national security and public 
safety without adding to the Federal budget deficit.'' However, the 
President also indicated that he would be focused on jobs, and one of 
the guiding principles for the education budget was to maintain support 
for longstanding State formula grant programs for vulnerable 
populations. How does a reduction in adult education funding support a 
jobs agenda? How does cutting adult education support the principle of 
maintaining funding for State formula grants that support vulnerable 
populations?
    Answer. We believe that, despite the cut, the requested funding 
level would continue to provide significant grant funding to support 
adult education programs that help adults without a high school diploma 
or the equivalent to become literate and obtain the knowledge and 
skills necessary for postsecondary education, employment, and economic 
self-sufficiency.
              accountability to provide quality libraries
    Question. This program (Innovative Approaches to Literacy), which 
your budget proposes to eliminate, supports access to effective school 
library programs in high need schools and promotes access to books and 
other literacy resources in the home. How does the Administration's 
budget ensure that all children have access to these critical resources 
for learning? How will the Administration hold State and local 
educational agencies accountable for providing well-stocked school 
libraries staffed by well-qualified librarians and access to books and 
other literacy resources at school and at home?
    Answer. The Administration believes that basic literacy instruction 
and the provision of library services are primarily a State and local 
responsibility, as reflected in the small size and very limited impact 
of the federally funded Innovative Approaches to Literacy program. 
Moreover, the fiscal year 2018 President's Budget request would 
continue to provide more than $20 billion for ESEA programs, mostly 
through flexible formula grant programs that may be used to support a 
wide range of activities, including, at local discretion, literacy 
instruction and related library services.
          ensuring access to reading and writing interventions
    Question. The Administration has proposed to eliminate the only 
funding stream (Comprehensive Literacy Development Grants) dedicated to 
statewide, research-based literacy instruction and interventions 
supporting low-performing students from early childhood through high 
school. How does this align with your stated principle of supporting 
innovation and building evidence of what works in education? How will 
the Administration ensure that all students have access to high-quality 
instruction and evidence-based intervention strategies that will 
promote the development of the reading and writing skills necessary for 
postsecondary education and the workplace?
    Answer. In view of both the already robust evidence base for 
effective literacy instruction and the availability of significant 
Federal resources, primarily through the more than $15 billion Title I 
Grants to Local Educational Agencies program, to support the 
implementation of evidence-based literacy instruction, we believe the 
Comprehensive Literacy Development Grants program is a particularly 
salient example of a duplicative program that no longer merits funding 
in a constrained fiscal environment. Moreover, the Department will be 
using an estimated $380 million in combined fiscal year 2016 and 2017 
appropriations to fully fund a new cohort of 5-10 Striving Readers (the 
nearly identical predecessor to the Comprehensive Literacy Development 
Grants program) grantees in an fiscal year 2017 competition, providing 
ample opportunity for additional States to build evidence on effective 
literacy instruction and related practices without further 
appropriations in future years.
            plans for recruitment and retention of educators
    Question. In addition to eliminating the Title II-A State formula 
grant for professional development for teachers, other educators, and 
school leaders, the budget proposes to eliminate the Teacher Quality 
Partnership Grant that supports intensive partnerships between high-
need school districts, high-need public schools, institutions of higher 
education, and other eligible entities to prepare profession-ready, 
highly effective teachers. How does the Department plan to assist 
States and school districts in recruiting, preparing, and supporting 
profession-ready teachers and school leaders?
    Answer. The Department supports a number of programs to help States 
and school districts recruit, prepare, and support effective teachers 
and school leaders. For example, the Teacher and School Leader 
Incentive Grant program, for which the fiscal year 2018 President's 
Budget request includes nearly $200 million, helps school districts 
expand human capital management systems and performance-based 
compensation systems that help attract and retain effective teachers, 
principals, and other school leaders. The fiscal year 2018 President's 
Budget request also would provide $42 million for the Supporting 
Effective Educator Development program, which supports awards to 
nonprofit organizations and universities to provide evidence-based 
professional development that can serve as models for similar efforts 
across the country. The $15 billion Title I Grants to LEAs program also 
is a key source of Federal support for locally directed efforts to 
recruit and train effective teachers and school leaders. And the 
Department provides a wide range of technical assistance designed to 
build State and local capacity to improve teaching and learning, 
including the Center on Great Teachers and Leaders funded through the 
Comprehensive Centers program.
          details on policy options for shared responsibility
    Question. Your budget proposal references your interest in 
developing a shared system of responsibility for the student aid 
programs that would better align incentives for institutions with 
student outcomes, including the ability to repay student loans. Please 
provide details on what policy options the Administration is 
considering.
    Answer. The Administration plans on working with Congress to 
consider all policy options available to help improve higher education 
access, accountability, and affordability as part of the Higher 
Education Act reauthorization process. I look forward to working with 
Congress on these important and complex issues.
          rationale for cuts despite evidence of effectiveness
    Question. Research continues to find that to increase the college 
and career readiness of low-income students, we need to: engage 
students and families no later in middle school to set college and 
career goals; ensure students take challenging courses; provide robust 
support programs to help accelerate the academic preparedness of 
students; provide guided pathways through the complex planning, 
application, and enrollment processes; and better align local systems 
to serve students more effectively. These elements are all at the core 
of the Gaining Early Awareness for Undergraduate Programsor GEAR UP 
initiative. Your budget request for fiscal year 2018 proposes cutting 
GEAR UP by over $120.7 million, citing a lack of rigorous evidence. Yet 
GEAR UP grantees such as the College Crusade in Rhode Island have 
undertaken rigorous evaluations of their effectiveness. A longitudinal 
study of participants in the College Crusade found statistically 
significant increases in high school graduation, college going, and 
college persistence relative to a rigorously matched comparison group. 
Can you please detail your rationale for proposing to cut this program 
by over 35 percent given the needs of our communities and the growing 
evidence that shows its effectiveness?
    Answer. We acknowledge that the need for fiscal discipline required 
some tough choices in the President's fiscal year 2018 President's 
Budget request. The President's fiscal year 2018 Budget requested $219 
million for GEAR UP. At this level, the Department could fully fund 
continuation awards for grantees that were successful in the 2011, 
2014, and 2017 competitions and still have approximately $26 million to 
support 18 new awards for applicants that submitted high quality 
proposals in the 2017 State and Partnership grant competition slates.
    The request for GEAR UP was informed in part by the fact that as 
currently authorized this program is duplicative--many of the 
activities supported under GEAR UP can be supported through the 
Administration's request for the Federal TRIO Programs, which maintains 
funding for Talent Search and the Upward Bound programs. Similar 
activities can also be supported through ESEA Title I grants to States.
    There is also a lack of rigorous evidence demonstrating that this 
program is effective. Although a 2008 evaluation found a positive 
association between GEAR UP participation and some early outcomes such 
as increasing students' and parents' knowledge of postsecondary 
opportunities and increasing rigorous course-taking, there was no 
indication of an association with improved grades or school behavior, 
nor did this evaluation report on high school graduation or college 
enrollment outcomes. GEAR UP grantees are, however, participating in a 
rigorous, Department-funded evaluation of an advising strategy that has 
the potential to improve students' initial enrollment and persistence 
in college.
    Perhaps the best current indicator of the overall success of the 
GEAR UP program comes from the GEAR UP program level performance data, 
which suggest mediocre results at best. In 2015, approximately 57.6 
percent of GEAR UP high school graduates enrolled in college 
immediately upon graduation, and according to the National Center for 
Education Statistics 57.8 percent of all low-income students graduating 
from high school nationwide enrolled in postsecondary education 
immediately following high school graduation. This comparison suggests 
that GEAR UP had relatively little or no impact on the extent to which 
high school graduates served under the program enroll in college.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                              cuts to idea
    Question. The Individuals with Disabilities Education Act of 1975, 
which required schools to fully accommodate students with disabilities, 
was one of the great civil rights achievements of the 20th century. 
Under the law, the Federal Government promised to meet up to 40 percent 
of the costs of IDEA. In recent years, however, Federal funding has 
covered only around 15 percent. Now your Department's budget proposes 
even deeper cuts.
    Answer. Thank you for the opportunity to clarify this issue, as I 
know it is of paramount concern to millions of parents, students, and 
teachers across this country. As you know, the timing of this year's 
budget request and appropriations process was unique.
    The President's fiscal year 2018 Budget request was developed in 
advance of final passage of a fiscal year 2017 appropriation. We were 
not in a position to make adjustments based on fiscal year 2017 enacted 
levels. As a result, the request may seem to propose a reduction for a 
particular program when the policy was, in fact, level funding. This is 
the case for the Special Education Grants to States program, which the 
Administration seeks to maintain at the highest level in history, 
excluding funding under the American Recovery and Reinvestment Act. The 
Administration recognizes the critical importance of Federal IDEA 
funding for States and school districts to ensure that students with 
disabilities are able to receive the services and supports to which 
they are entitled. That is why, in a budget environment when we had to 
make a number of exceptionally difficult decisions, no program funded 
under the IDEA was recommended for funding cuts. IDEA represents a 
particularly important compact between the Federal Government and 
States to jointly provide for the needs of our most vulnerable students 
and we would like to work with Congress to continue to maintain funding 
for this important compact.
                 shifting federal burden to localities
    Question. How do you justify shifting even more of the cost of this 
Federal mandate onto local school districts?
    Answer. Thank you for the opportunity to clarify this issue, as I 
know it is of paramount concern to millions of parents, students, and 
teachers across this country. As you know, the timing of this year's 
budget request and appropriations process was unique.
    The President's fiscal year 2018 Budget request was developed in 
advance of final passage of a fiscal year 2017 appropriation. We were 
not in a position to make adjustments based on fiscal year 2017 enacted 
levels. As a result, the request may seem to propose a reduction for a 
particular program when the policy was, in fact, level funding. This is 
the case for the Special Education Grants to States program, which the 
Administration seeks to maintain at the highest level in history, 
excluding funding under the American Recovery and Reinvestment Act. The 
Administration recognizes the critical importance of Federal IDEA 
funding for States and school districts to ensure that students with 
disabilities are able to receive the services and supports to which 
they are entitled. That is why, in a budget environment when we had to 
make a number of exceptionally difficult decisions, no program funded 
under the IDEA was recommended for funding cuts.
    IDEA represents a particularly important compact between the 
Federal Government and States to jointly provide for the needs of our 
most vulnerable students and we will work with Congress to maintain 
funding for this important work.
  percent funding for students with disabilities from federal sources
    Question. What percentage of special education costs do you believe 
the Federal Government has a responsibility to cover?
    Answer. The Administration recognizes the critical role that 
Federal funding plays in helping State and local school districts cover 
the costs of providing special education and related services and is 
particularly sensitive to the plight of State and local leaders 
burdened by Federal requirements without sufficient funding to meet 
them. As you correctly note, when the IDEA was first signed into law, 
Congress signaled its intent that the Federal Government would cover 40 
percent of the excess cost of educating children with disabilities. 
However, since that time, Congress has never appropriated enough funds, 
outside of the American Recovery and Reinvestment Act, to cover more 
than 18.5 percent of the average per pupil expenditure. Should Congress 
see fit to appropriate the maximum funding allowable under the IDEA, 
which we estimate would be in excess of $31 billion in fiscal year 
2018, the Department stands ready to allocate those funds to States to 
help defray the cost of special education and related services for the 
Nation's 6.8 million children with disabilities.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                commitment to continuing 2nd chance pell
    Question. In 2016, the U.S. Department of Education announced that 
there were 67 institutions of higher education participating in the 
``Second Chance Pell Program,'' serving 12,000 incarcerated students at 
over 100 Federal and State penal institutions in more than 28 States. 
Do you commit to continuing the ``Second Chance Pell Program'' under 
the Department's Experimental Sites Authority?
    Answer. This Experimental Sites initiative is proceeding and will 
continue as explained in the August 4, 2015, Federal Register Notice.
                  cuts to title iv and fulbright hayes
    Question. The Department of Education's fiscal year 2018 budget 
proposes to eliminate HEA-Title VI and Fulbright-Hays, which are the 
Federal Government's most comprehensive international education 
programs. They are the foundation for ensuring a steady supply of 
graduates with deep expertise and high quality research on world 
languages and cultures, international markets, world regions, and 
global issues. Title VI institutions have the broad capacity to teach 
over 200 foreign languages and offer in-depth study of all world areas 
and regions. A recent American Academy of Arts and Sciences report 
found that these programs support a 21st century education strategy 
that ``promotes broad access, values international competencies, and 
nurtures deep expertise in world languages and cultures.'' Programs run 
by other Federal agencies, like the DoD Language Flagship Programs, the 
U.S Army's Foreign Area Officer program, Department of Commerce Export 
Initiative, and others, depend on Title VI and Fulbright-Hays 
resources, knowledge and faculty.
    Please list the specific Federal programs that the Administration 
believes are duplicative with Title VI and Fulbright-Hays.
    If the Title VI and Fulbright-Hays programs are no longer funded, 
how would the Department of Education fulfill its mission ``to promote 
student achievement and preparation for global competitiveness by 
fostering educational excellence and ensuring equal access,'' when 
these programs provide students access to international education that 
otherwise would not be available in most K-12 schools, community 
colleges, 4-year colleges and universities, including graduate school?
    Does the Administration believe that foreign language abilities and 
global cultural awareness are not among the 21st century skills that 
students need to succeed in today's world and that our workforce needs 
to compete in a global economy?
    Answer. (a) There are a number of Federal agencies that offer 
programs that are similar and/or duplicative of the Department's Title 
VI and Fulbright-Hays programs. These include:
  --Department of Defense
    --National Security Education Program (NSEP) provides funds for 
            undergraduate and graduate student study abroad in areas 
            less commonly visited by U.S. students.
    --Language Flagship Grants to Institutions of Higher Education and 
            Language Flagship Fellowships supports undergraduate 
            language flagship programs at Flagship Centers enabling 
            students from all majors to work towards professional-level 
            language proficiency in foreign languages.
  --Department of State
    --Benjamin A. Gilman International Scholarship, administered by the 
            Bureau of Educational and Cultural Affairs, encourages 
            American students of limited financial means to pursue area 
            studies in countries critical to U.S. national interests 
            and economic competitiveness.
    --Critical Language Scholarship Program, administered by the Bureau 
            of Educational and Cultural Affairs, supports intensive 
            summer language institutes overseas for undergraduate and 
            graduate students for the study of critical languages and 
            for cultural enrichment.
    --Fulbright Program for U.S. Students, administered by the Bureau 
            of Educational and Cultural Affairs, awards Fulbright Open 
            Study/Research awards largest offers exchange opportunities 
            for students and young professionals to undertake 
            international graduate study, advanced research, university 
            teaching, and primary and secondary school teaching; 
            Fulbright English Teaching Assistant programs places 
            grantees in schools overseas to supplement local English 
            language instruction and to provide a native speaker 
            presence in the classrooms; Special Programs: Fulbright-
            National Geographic Digital Storytelling Fellowship; and 
            the Critical Language Enhancement Award, a supplement for 
            grantees to receive intensive language study in addition to 
            their research or study grants.
  --Central Intelligence Agency
    --Undergraduate Scholarship Program offers major-related career 
            experience for undergraduate students, including foreign 
            language majors.
    --Central Intelligence Agency Undergraduate/Graduate Co-Op Program 
            for undergraduate students pursuing degrees in a variety of 
            liberal arts degree programs to work as Open Source 
            Officers (OSO).
  --American Councils for International Education administers many 
        programs for overseas language and culture study in all world 
        regions.
  --United States Agency for International Development (USAID) supports 
        academic involvement in international develop projects, 
        training in the U.S. for technical and professional personnel 
        from developing countries, and linkages with universities in 
        developing nations.
    There is also a private market presence for language learning 
programs, online tools, integration programs, etc.
    (b) The Department's mission remains the same. The fiscal year 2018 
President's Budget request refocuses the Department's mission on 
supporting States and school districts in their efforts to provide 
high-quality education to all students while streamlining and 
simplifying funding for college. There are a number of Federal agencies 
that offer programs that are similar and/or duplicative of the 
Department's Title VI and Fulbright-Hays programs. The Administration 
believes Federal agencies whose primary mission is national security 
are more appropriately equipped to support these activities and as 
proposes to eliminate this program since it duplicates such efforts.
    (c) While foreign language abilities and global cultural awareness 
are among the 21st century skills that students need to succeed in 
today's world and that our workforce needs to compete in a global 
economy; the Administration believes Federal agencies whose primary 
mission is national security are more appropriately equipped to support 
this critical objective.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
     rationale for requesting year-round pell implementation funds
    Question. The restoration of year-round Pell Grants through the 
bipartisan Consolidated Appropriations Act of 2017 (Public Law 115-31) 
is now current law and has been incorporated into Pell Grant program 
costs. However, your fiscal year 2018 budget for the U.S. Department of 
Education proposes an allocation of new funds to support the 
restoration. Please explain why this funding request was included, 
particularly when so many other financial aid programs were cut or 
eliminated.
    Answer. The fiscal year 2018 Budget was developed prior to the 
Consolidated Appropriations Act of 2017 becoming law and therefore did 
not incorporate the costs of the year-round Pell restoration into the 
current law baseline program costs. The Budget supported restoration of 
year-round Pell without full knowledge of the 2017 Congressional action 
and proposed to offset mandatory cost increases by redirecting a 
portion of the previously appropriated mandatory funds, which were 
designed to supplement the discretionary appropriation.
                de facto pell decrease due to inflation
    Question. Your budget proposal raids $3.9B from Pell Grant funding 
and allows the annual inflation adjustment to the maximum grant to 
expire, meaning, in real terms, all 7.5 million Pell recipients would 
have their grants cut next year. Pell recipients are already more than 
twice as likely to have to borrow, and they graduate with an average of 
$4,750 more debt than their higher income peers. The current maximum 
award amount covers the lowest share of the cost of public 4-year 
college in more than 40 years--less than 30%--and that will decline 
even further with the loss of the inflation adjustment. How do you 
justify taking funds from the Pell Grant program and letting inflation 
reduce the value of the grants? How specifically is the $3.9 billion 
taken from the Pell Grant program proposed to be used in your budget?
    Answer. The President's fiscal year 2018 Budget request fully 
supports the Pell Grant program, which is crucial to so many students. 
The Budget reflects that by fully funding the program at the maximum 
award calculated by statute, $5,920 for the 2018-19 award year and by 
requesting $22.4 billion in discretionary funding. The proposed $3.9 
billion cancellation of unobligated funds would not affect the number 
of Pell recipients or decrease the size of their awards over the next 8 
years.
  elimination of public service loan forgiveness and alternatives to 
                        recruit public servants
    Question. Public Service Loan Forgiveness (PSLF) is an equalizer in 
an era of skyrocketing college costs and a tool to fight for improved 
public services it corrects for budget cuts, lagging salaries, and 
underinvestment in the public service workforce. It provides benefits 
such as increasing teacher diversity and ensures well-qualified nurses 
stay in rural hospitals. Half a million Americans are already enrolled 
in PSLF, and tens of millions of unenrolled Americans are eligible for 
PSLF. The lifetime earnings gap between a person with a graduate degree 
in the private sector and the public sector is estimated to be $1.5 
million.
    Your budget proposes eliminating PSLF. How does this reflect a 
commitment to ensuring individuals who have to take out loans to attend 
college are able to afford to work in the public sector? What in your 
budget will substitute for PSLF in ensuring that there is a qualified 
public service workforce, including nurses and teachers, throughout the 
country?
    Answer. The President's Budget Request proposes to simplify student 
loan programs and student loan repayment by replacing five different 
income-driven repayment plans with a single plan aimed at prioritizing 
effective loan repayment for undergraduate borrowers. The 
Administration believes that this repayment plan, with payments capped 
at 12.5 percent of a borrower's discretionary income, and forgiveness 
provided after either 15 or 30 years of loan payments (depending on 
whether the borrower has any graduate borrowing), provides an effective 
backstop to facilitate student loan repayment for all borrowers, 
including those who work in the public sector. Further, the 
Administration believes that the benefits of this repayment plan will 
not in any way deter students from choosing their desired vocation.
            removal of specific loan servicing requirements
    Question. Under your leadership, the Department of Education has 
made numerous changes to the student loan servicing procurement (ED-
FSA-17-R-0001 Amendment 0009 and related documents) that would remove 
important requirements related to quality servicing. Please provide the 
Department's specific rationale for removing each of the following 
requirements:
    Answer. In general, changes to the servicing requirements reflect 
an effort to balance improved service for borrowers with the cost of 
providing that service. Student loan servicing costs nearly $1 billion 
annually, and that amount will continue to grow steadily over the next 
decade as the Department's borrower portfolio increases. As discussed 
in more detail below, the Department believes the specific requirements 
removed from the servicing solicitation would, if maintained, add 
considerable cost without ensuring a commensurate improvement in 
borrower outcomes. The Department also believes that other requirements 
that remain in the solicitation allow the Department to address the 
goals underlying the items that were dropped but in a more efficient, 
cost-effective manner.
    Specific rationale:
  --The specific requirements were removed to reduce the expected 
        ongoing costs of executing those requirements indefinitely. An 
        entire series of requirements remains in place that will allow 
        FSA to execute outreach campaigns as desired and focus on 
        keepingand paying foronly those efforts that prove to be 
        effective.
  --Under the new solicitation, all customer service agents will 
        receive training on how to assist borrowers, including how to 
        assist delinquent borrowers and provide them with options for 
        resolving their delinquency. As a result, these calls will not 
        need to be routed to a subset of staff. FSA will review and 
        approve all training materials and monitor calls taken by the 
        servicer. The contract will include financial disincentives 
        that will apply when the servicer fails to meet explicit 
        quality standards.
  --Under the new solicitation, payments sent to the incorrect location 
        will be routed to the proper location and applied with the 
        effective date of when the payment was initially received. 
        Borrowers will continue to receive notifications on where to 
        send payments during any transfer or transition processes. Once 
        the new contract is fully implemented, borrowers will only send 
        payments to one location.
  --Under the new solicitation, borrowers will be provided up to five 
        notifications to recertify prior to being removed from an 
        income driven repayment (IDR) plan. At least two more 
        notifications will be made if they fail to recertify and are 
        removed. Other forms of outreach phone, text, etc. will be 
        executed if they are determined to be needed and efficient. An 
        entire series of requirements remains in place that will allow 
        FSA to execute outreach campaigns.
  --Under the new solicitation, borrowers will continue to be provided 
        with information on the default payment application method both 
        online and in billing statements. The borrower will continue to 
        have the ability to provide instructions on how a payment is to 
        be applied.
  --The borrower will continue to be notified in advance of any 
        transfer, as well as receive a notification from the new 
        servicer once the loan has been transferred. These 
        notifications will provide the borrower will all information 
        needed to support the transfer.
  --Under the new solicitation, all customer service agents will 
        receive training and will be able to assist borrowers with 
        questions about IDR, delinquency and discharges. FSA will 
        review and approve all training materials and monitor calls 
        taken by the servicer. The contract will include financial 
        disincentives that will apply when the servicer fails to meet 
        explicit quality standards.
            commitment to civil rights in light of ocr cuts
    Question. During your confirmation hearing, you told me that you 
``believe in the intrinsic value of each individual and that every 
student should have the assurance of a safe and discrimination-free 
place to become educated.'' On February 23, your Department, along with 
the Department of Justice, rescinded joint guidance to school districts 
on their obligations regarding transgender students under Title IX. You 
substituted a statement telling school districts that they have a 
``moral obligation'' to protect and support all students and that the 
Department's Office of Civil Rights ``remains committed to 
investigating all claims of discrimination, bullying and harassment 
against those who are most vulnerable in our schools.''
    On March 10, I joined a number of my colleagues in sending you a 
letter asking numerous questions about the rationale and process for 
rescinding the prior administration's guidance, as well as enforcement 
efforts at the Office of Civil Rights. To date, we have not received a 
response. When will your Department answer this request?
    Your budget proposal reduces funding and staff at the Office of 
Civil Rights. How will the Office be able to, as you stated, 
investigate ``all claims of discrimination, bullying and harassment'' 
with reduced resources? Please provide detailed information regarding 
the staffing reductions in the Office and how the Department projects 
those will affect Title IX enforcement efforts.
    Your budget proposal also eliminates funding for the Every Student 
Succeeds Act's Student Support and Academic Enrichment Grant, which 
states and school districts can use to address bullying, harassment and 
student safety. How does this proposed reduction, which denies schools 
resources Congress specifically authorized for student safety programs, 
assist them in fulfilling their, in your words, ``moral obligation'' to 
protect vulnerable students? In the absence of this funding, how will 
the Department assist schools in ensuring they fulfill their 
obligations under Title IX and other Federal civil rights laws?
    Answer. In the Dear Colleague Letter rescinding the 2016 guidance, 
and in the statement I released at the time of that rescission in 
February, I clarified that the guidance was being rescinded first and 
foremost because it was procedurally improper, not having been issued 
after appropriate public notice and comment. I also emphasized that a 
one size fits all Federal mandate for intimate facilities in schools 
was not an appropriate approach, when this issue can and should be left 
to States and local districts to find reasonable solutions that take 
into account the needs of all students. Finally, I emphasized that 
rescission of that guidance in no way diminishes the Department's 
commitment to protecting all students, regardless of gender conformity, 
from harassment and bullying and promoting education environments that 
support and meet the needs of all students.
    OCR will continue to fulfill its mission of vigorous civil rights 
enforcement. The requested funds would ensure essential program support 
to resolve complaints of discrimination filed by the public and to 
ensure that institutions receiving Federal financial assistance are in 
compliance with the civil rights laws enforced by OCR.
    We acknowledge that the need for fiscal discipline required some 
tough choices in the President's fiscal year 2018 President's Budget 
request. Even at the authorized level of $1.6 billion, the Student 
Support and Academic Enrichment Grant program is poorly structured to 
achieve its objectives because it would deliver allocations to a 
majority of local educational agencies that would be too small to 
support meaningful activities across the program areas. These 
activities can also be supported with other Federal, State, and local 
funds, including the $15 billion Title I Grants to LEAs program. The 
flexibility provided to states to target finds for the purposes they 
deem most critical assures that it is States, not the Federal 
Government, that will take a lead role in ensuring that State dollars 
are dedicated where the needs are greatest. The Department will 
continue to enforce Title IX and other civil rights laws, and to assist 
school districts and institutions by providing technical assistance.
       elimination of international and foreign language funding
    Question. Part of the Department's mission under the Department of 
Education Organization Act (Public Law 96-88) is ``to promote student 
achievement and preparation for global competitiveness by fostering 
educational excellence and ensuring equal access.'' In 2008, Congress 
amended that Act to mandate the position of Deputy Assistant Secretary 
for International and Foreign Language Education in the Office of 
Postsecondary Education.
    However, your budget proposes eliminating the long-standing 
international education and foreign language studies programs under HEA 
Title VI and Fulbright-Hays. How is this proposal consistent with the 
Department of Education's mission to ensure our U.S. educational system 
graduates Americans with the international skills and knowledge needed 
for successful global engagement across government and a growing number 
of sectors and professions? How will the Department fulfill this part 
of its mission without these programs?
    Furthermore, your budget justification contends that Title VI and 
Fulbright-Hays programs are duplicative. Please provide detailed 
information about other Federal programs that the Department has 
identified as duplicative, including the specific ways in which those 
programs would support the development of foreign language ability and 
cultural knowledge.
    Answer. The Title VI and Fulbright-Hays programs support activities 
that are more appropriately supported by other agencies whose primary 
mission is national security.The Department's core mission remains the 
same, and the Department continues to fulfill this mission of promoting 
``student achievement and preparation for global competitiveness by 
fostering educational excellence and ensuring equal access'' through 
administering literally dozens of other programs that support student 
achievement and educational excellence. The fiscal year 2018 
President's Budget request refocuses the Department's mission on 
domestic programs supporting States and school districts in their 
efforts to provide high-quality education to all students while 
streamlining and simplifying funding for college. In addition, the 
fiscal year 2018 President's Budget reduces or eliminates funding for 
programs that are not effective; duplicate other efforts, have a 
limited Federal role in education, or are better supported with State, 
local or private funds.
    There are a number of Federal agencies that offer programs that are 
similar to, or duplicative of, the Department's Title VI and Fulbright-
Hays programs. These include:
  --Department of Defense
    --National Security Education Program (NSEP) provides funds for 
            undergraduate and graduate student study abroad in areas 
            less commonly visited by U.S. students.
    --Language Flagship Grants to Institutions of Higher Education and 
            Language Flagship Fellowships supports undergraduate 
            language flagship programs at Flagship Centers enabling 
            students from all majors to work towards professional-level 
            language proficiency in foreign languages.
  --Department of State
    --Benjamin A. Gilman International Scholarship, administered by the 
            Bureau of Educational and Cultural Affairs, encourages 
            American students of limited financial means to pursue area 
            studies in countries critical to U.S. national interests 
            and economic competitiveness.
    --Critical Language Scholarship Program, administered by the Bureau 
            of Educational and Cultural Affairs, supports intensive 
            summer language institutes overseas for undergraduate and 
            graduate students for the study of critical languages and 
            for cultural enrichment.
    --Fulbright Program for U.S. Students, administered by the Bureau 
            of Educational and Cultural Affairs, awards Fulbright Open 
            Study/Research awards largest offers exchange opportunities 
            for students and young professionals to undertake 
            international graduate study, advanced research, university 
            teaching, and primary and secondary school teaching; 
            Fulbright English Teaching Assistant programs places 
            grantees in schools overseas to supplement local English 
            language instruction and to provide a native speaker 
            presence in the classrooms; Special Programs: Fulbright-
            National Geographic Digital Storytelling Fellowship; and 
            the Critical Language Enhancement Award, a supplement for 
            grantees to receive intensive language study in addition to 
            their research or study grants.
  --Central Intelligence Agency
    --Undergraduate Scholarship Program offers major-related career 
            experience for undergraduate students, including foreign 
            language majors.
    --Central Intelligence Agency Undergraduate/Graduate Co-Op Program 
            for undergraduate students pursuing degrees in a variety of 
            liberal arts degree programs to work as Open Source 
            Officers (OSO).
  --American Councils for International Education administers many 
        programs for overseas language and culture study in all world 
        regions.
  --United States Agency for International Development (USAID) supports 
        academic involvement in international develop projects, 
        training in the U.S. for technical and professional personnel 
        from developing countries, and linkages with universities in 
        developing nations.
    There is also a private market presence for language learning 
programs, online tools, integration programs, etc.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin
        justification for cuts to career and technical education
    Question. Secretary DeVos, I am very concerned about the proposed 
cuts to Career and Technical Education (CTE) State Grants. The 
President's fiscal year 2018 Education budget would cut more than $175 
million from these grants, which play a critical role in my State of 
West Virginia and States around the country to provide career and 
technical education.
    I have always been a strong supporter of Career and Technical 
education. These funds help schools build programs like the Simulated 
Workplace in West Virginia to teach students both the technical and 
soft skills that students need to succeed in the workplace.These funds 
also facilitate partnerships between community colleges, businesses, 
and high schools like the one between Blue Ridge Community and 
Technical College, Procter and Gamble and West Virginia high schools, 
which allows them to come together to promote STEM education and 
provide students with training for real work.
    Secretary DeVos, these cuts to CTE funds would obviously lead to 
cuts to important career and technical education programs and limit 
student choices. Given the challenges that students, local businesses, 
and communities are facing, how can the Department justify cutting 
investments in programs that help students get good paying jobs that 
strengthen local economies?
    Answer. While the Administration supports the role CTE programs 
play in helping students attain the technical skills they need to get 
jobs that pay good wages, a modest reduction was necessary to meet the 
President's goal of increasing support for national security and public 
safety without adding to the Federal budget deficit. We believe that, 
despite the proposed cut, the requested funding level would continue to 
provide significant support for State and local efforts to implement 
high-quality CTE programs.
             implications of school choice on rural schools
    Question. Secretary DeVos, I am very concerned about the impact 
that the President's budget request would have on rural schools. It 
proposes to cut $9 billion from the Department of Education while at 
the same time shifting $1.4 billion from critical education programs to 
``school choice.''
    I understand that you feel very strongly about school choice, but 
as we discussed months ago, ``choice'' simply doesn't make sense in 
rural West Virginia. We are seeing schools close and consolidate, not 
seeing new schools open, and we simply don't have enough resources to 
fully invest in the schools we have, much less dividing those resources 
further. Now, this budget proposes to reduce Federal funding for 
elementary and secondary education in my State by $30 millionmore than 
20 percent.
    Secretary DeVos, wouldn't your choice program simply leave holes in 
rural West Virginia school budgets created by your proposed cuts? How 
would it ensure that rural schools are not being left behind and left 
without the resources that they need to meet their student's basic 
needs?
    Answer. The fiscal year 2018 President's Budget request for 
education maintains strong support for key ESEA formula grant programs 
that serve vulnerable students and communities, including Title I 
Grants to Local Educational Agencies and the Rural Education 
Achievement Program. At the same time, the overall fiscal year 2018 
President's Budget request is part of an economic growth strategy 
designed to address the underlying issues behind the resource 
limitations that have had such a negative impact on so many West 
Virginia communities in recent years: the decline of industry and a 
lack of good jobs that pay middle-class wages. More specifically, the 
fiscal discipline at the heart of the President's Budget would support 
the lower taxes that, combined with reduced regulation and greater 
investment in infrastructure improvements, offer the greatest promise 
of restoring prosperity to rural West Virginia.
          department measures to fill gaps if medicaid is cut
    Question. Secretary DeVos, I recognize that the Department of 
Education is not generally involved in the debate about the healthcare 
law, but I did want to highlight a very important connection between 
the two.
    West Virginia's schools got a total of $20 million from Medicaid to 
pay for school based medical services for students. These services 
include hearing and vision screenings, support for students with 
disabilities, and mental healthcare including support for those facing 
addiction.
    This is one of many reasons that I am so concerned about both the 
President's budget and the House Republican bill to repeal the ACA. 
These plans would cut hundreds of billions of dollars from Medicaid.
    Secretary DeVos, you certainly understand that it is more difficult 
for a child to learn and thrive in school if they are sick, struggling 
with a mental health problem, or simply unable to see the blackboard. 
How would the Department of Education fill the gaps in student health 
services that would result if the proposed Medicaid cuts became law?
    Answer. I appreciate your concerns regarding the potential effects 
of H.R. 1628 on funding for Medicaid, and particularly for school-based 
health services, including services for children with disabilities. As 
you know, school districts across the country rely, in part, on funding 
through Medicaid to offset costs associated with medical services, 
including services for students with disabilities. As such, changes to 
eligibility for Medicaid or caps on expenditures could result in 
changes in the services that students receive or the ways that school 
districts finance them.
    At present, a final version of that legislation has not passed both 
houses of Congress and, therefore, it would be premature to make any 
definitive statement about its potential impacts on school districts at 
this time. However, should a final bill pass both the House and Senate, 
the Department will advise the President on the likely effects of that 
legislation on local school districts and our Nation's students. We 
also continue to stand ready to provide technical assistance to any 
State or school district seeking to find more efficient and effective 
ways to meet the needs of their students in challenging budget 
environments.
             opioid addiction and cuts to counseling funds
    Question. Secretary DeVos, as you know, the bipartisan Every 
Student Succeeds Act included a new program called the Title IV Student 
Support and Academic Enrichment Grants program. This block grant is 
designed to provide States and school districts the flexibility to 
provide a wide range of services that support a well-rounded education.
    Importantly for my State, which is battling a devastating opioid 
epidemic, this block grant can be used to provide mental health 
services and counseling to students who are either dealing with 
addicted parents or facing addiction themselves.
    Congress authorized more than $1.6 billion in funding for this 
program though we appropriated only $400 million for this program in 
the fiscal year 2017 omnibus. The President's budget, however, 
eliminates funding for this program entirely. That is simply 
unacceptable.
    Secretary DeVos, how can the Department strip funding from a block 
grant that can be used to help a State like mine that is being 
devastated by opioid addiction? West Virginia students are facing huge 
hurdles that make it harder for them to get an education and my State 
needs every penny of help to bring those students the mental health and 
counseling services that they need to overcome those obstacles.
    Answer. We understand that the opioid epidemic is creating 
difficult challenges for many communities in West Virginia and 
elsewhere across the Nation, and the fiscal year 2018 President's 
Budget request includes resources such as $60 million for the Promise 
Neighborhoods program that can be used to help meet those challenges. 
However, the poorly structured Title IV-A Student Support and Academic 
Enrichment Grants program delivers formula-based grants to most LEAs 
including the small, rural LEAs the are predominant in West Virginia 
that are too small to have a meaningful impact. For this reason, Title 
IV-A was a lower priority in an fiscal year 2018 President's Budget 
request that aimed to increase support for national security and public 
safety without adding to the Federal budget deficit. In addition, most 
of the activities authorized under Title IV-A may be supported through 
much larger programs like the $15 billion Title I Grants to LEAs 
program.
                 rationale for cuts to trio and gear up
    Question. In West Virginia, we have a lot of students who are first 
time college students, many of whom come from low-income families that 
don't have the resources or experience to help their children navigate 
things like AP classes, SAT tests, college applications, financial aid, 
and finally college itself.
    That is why programs like TRIO and GEAR UP are so important. These 
programs provide the support that first time college students need to 
thrive in higher education. Without them, we'd see too many students 
who wouldn't know what opportunities are available or who wouldn't have 
the emotional and academic support to succeed.
    In West Virginia, TRIO and GEAR UP served 12,780 students last 
year. In fact, one of my staffers TJ Lucas is a GEAR UP alum. This 
program enabled him to be the first person in his family to attend and 
graduate college by promoting AP and Dual Credit curriculum in high 
school, encouraging the participation in extracurricular activities, 
and by providing a scholarship in an effort to make college more 
affordable.
    The President's budget, however, does not reflect the importance of 
these programs. It would cut more than 36 percent $121 million from 
GEAR UP and 15 percent $142 million from TRIO.
    Answer. We acknowledge that the need for fiscal discipline required 
some tough choices in the President's fiscal year 2018 President's 
Budget request. The President's fiscal year 2018 Budget requested $219 
million for GEAR UP. At this level, the Department could fully fund 
continuation awards for grantees that were successful in the 2011, 
2014, and 2017 competitions and still have approximately $26 million to 
support approximately 18 new awards for applicants that submitted high 
quality proposals in the 2017 State and Partnership grant competition 
slates.
    As currently authorized this program is duplicative--many of the 
activities supported under GEAR UP can be supported through the 
Administration's request for the Federal TRIO Programs, which maintains 
funding for Talent Search and the Upward Bound programs. Similar 
activities can also be supported through ESEA Title I grants to States.
    In addition, there is limited rigorous evidence that the program is 
effective, particularly in achieving the program's ultimate objectives 
of increasing high school graduation and college enrollment rates. 
Although a 2008 evaluation found a positive association between GEAR UP 
participation and some early outcomes such as increasing students' and 
parents' knowledge of postsecondary opportunities and increasing 
rigorous course-taking, there was no indication of an association with 
improved grades or school behavior, nor did this evaluation report on 
high school graduation or college enrollment outcomes.
    Perhaps the best current indicator of the overall success of the 
GEAR UP program comes from the GEAR UP program level performance data, 
which suggest mediocre results at best. In 2015, approximately 57.6 
percent of GEAR UP high school graduates enrolled in college 
immediately upon graduation, and according to the National Center for 
Education Statistics 57.8 percent of all low-income students graduating 
from high school nationwide enrolled in postsecondary education 
immediately following high school graduation. This comparison suggests 
that GEAR UP had relatively little or no impact on the extent to which 
high school graduates served under the program enroll in college.
    It is also important to point out the request for TRIO programs 
maintains support for the original three TRIO programs (Upward Bound 
(UB), Talent Search (TS), and Student Support Services (SSS)) as well 
as the programs that target services to veteran students and students 
interested in pursuing STEM degrees (Veterans Upward Bound (VUB) and 
Upward Bound Math and Science (UBMS)). The request does not fund the 
McNair Post-baccalaureate Achievement (McNair) and Educational 
Opportunity Centers (EOC) programs neither of which provide services to 
the high school age student population referenced in your question. By 
maintaining full funding for the core TRIO student service programs, 
this request prioritizes those TRIO programs that: (1) assist middle 
school, high school, and college students in moving through the 
academic pipeline through college completion; and (2) have shown some 
evidence of effectiveness or are designed to support strategies in 
areas where there is a growing body of evidence.
         replacement services if after school programs are cut
    Question. Secretary DeVos, I have always strongly supported funding 
for the 21st Century Community Learning Centers and afterschool 
programs. In fact, this was one of the few programs that was not 
consolidated into the larger block grant when the Congress passed the 
Every Student Succeeds Act, reauthorizing No Child Left Behind.
    That Congressional support for this program comes from the fact 
that we recognize the critical need for safe and secure places for 
students to learn and be before and after school and during the summer 
months.
    That is why I was so disappointed to see that the President's 
budget completely eliminated funding for this program a $1.2 billion 
cut to Federal funding for afterschool and summer programs.
    Secretary DeVos, too many students do not have a safe place to go 
afterschool or during the summer and do not have the academic resources 
or assistance at home. And in States like West Virginia, the State 
budget cannot replace the Federal funding needed to run these programs. 
If this program is cut, where will these students go? How will they get 
the academic assistance that they need?
    Answer. This Administration is committed to investing limited 
Federal education dollars in programs that have a strong record of 
improving student outcomes. While there is research indicating the 
effectiveness of afterschool programs in general, performance data 
demonstrates the specific afterschool programs funded by the 21st 
Century Community Learning Centers (21st CCLC) are, overall, not 
helping students meet challenging academic goals. For example, on 
average from 2013 to 2015, less than 20 percent of program participants 
improved from not proficient to proficient on State assessments in 
reading and mathematics. Additionally, student improvement in academic 
grades was limited, with States reporting higher math and English 
grades for less than half of regular program participants. Moreover, 
fewer than half of students served attend the program enough to be 
counted as ``regular program participants,'' with States reporting that 
752,000 out of 1.8 million participants attended 21st CCLC programs for 
30 days or more during the 2014-2015 school year. These performance 
data generally confirm the findings of the last rigorous national 
evaluation of the program, conducted in 2005, which also found the 
program had limited academic impact and low student attendance rates. 
These data strongly suggest that the 21st CCLC is not generating the 
benefits commensurate with an annual investment of more than $1 billion 
in limited Federal education funds. Moreover, the provision of before- 
and after-school academic enrichment opportunities may be better 
supported with other Federal, State, local or private funds including 
the $15 billion Title I Grants to Local Educational Agencies program.
                          medicaid in schools
    Question. Secretary DeVos, I recognize that the Department of 
Education is not generally involved in the debate about the healthcare 
law, but I did want to highlight a very important connection between 
the two.
    West Virginia's schools got a total of $20 million from Medicaid to 
pay for school based medical services for students. These services 
include hearing and vision screenings, support for students with 
disabilities, and mental healthcare including support for those facing 
addiction.
    This is one of many reasons that I am so concerned about both the 
President's budget and the House Republican bill to repeal the ACA. 
These plans would cut hundreds of billions of dollars from Medicaid.
    Secretary DeVos, you certainly understand that it is more difficult 
for a child to learn and thrive in school if they are sick, struggling 
with a mental health problem, or simply unable to see the blackboard. 
How would the Department of Education fill the gaps in student health 
services that would result if the proposed Medicaid cuts became law?
    Answer. At this point in time it is impossible to predict the 
outcome of the current effort in Congress to address the instability in 
our healthcare system created by the Affordable Care Act, or to assess 
the potential impact of proposed reforms on students and schools. It 
also is not clear that it would be the Department of Education's 
responsibility to ``fill the gaps in student health services'' that 
might result from such reforms. However, I would note that Title I 
funds may be used, in certain circumstances and at local discretion, to 
pay for comprehensive health services, including the provision of basic 
medical equipment such as eyeglasses and hearing aids.
            reconnecting mcdowell and full community schools
    Question. Secretary DeVos, McDowell County in southern West 
Virginia is one of the poorest counties in the entire country.
    Reconnecting McDowell is a comprehensive effort to make educational 
improvements to give those students a chance to succeed despite the 
county's complex problems: poverty, underperforming schools, drug and 
alcohol abuse, limited medical services, and inadequate access to 
technology and transportation.
    This program highlights the benefits and importance of full 
community schools and having the school be a place that serves the 
whole student. Through this program, schools don't just offer academic 
education, but physical and mental healthcare, counseling, and 
afterschool academic support. For the kids of McDowell County, these 
supports are as necessary to their education as the academic classes 
themselves.
    That is why, when the Senate considered the Every Student Succeeds 
Act, I worked with my colleagues to push for the Full-Community Schools 
program, which provides funding to programs like Reconnecting McDowell.
    So I was so disappointed to see that the President's budget request 
completely eliminates the $10 million in funding for the Full-Community 
Schools program.
    Secretary DeVos, I have seen firsthand how a small investment like 
this program can make a huge difference in the life of a child and can 
help rebuild a community. Reconnecting McDowell is lucky that they are 
able to attract some private funding to support these efforts, but the 
Federal funding is still a critical part of what they do. What will 
happen to the students in communities like McDowell County if their 
schools are forced to cut back on the important health and wellness 
programs that set these students up for academic success?
    Answer. We understand that small investments can generate big 
returns in needy communities, and I am glad that these funds have been 
helpful in McDowell County. However, the Full-Service Community Schools 
program was never intended to provide ongoing support, but to 
demonstrate a model that subsequently could be funded from other 
sources. For example, McDowell County may be able to incorporate some 
or all of the elements of Reconnecting McDowell into one or more Title 
I schoolwide projects, which may support a wide range of services based 
on a comprehensive needs assessment aimed at improving educational 
outcomes.
                 west virginia university upward bound
    Question. Secretary DeVos, I am deeply concerned with the 
Department of Education's decision to reject the Upward Bound 
applications at West Virginia State University and West Virginia 
University because of two minor technicalities. In West Virginia, we 
have a lot of students who are first time college students, many of 
whom come from low-income families. TRIO programs fill those voids and 
inspire students to achieve more than they ever thought was possible.
    That is why I am so disappointed to see the Department of Education 
refuse to even consider the applications of two important West Virginia 
Upward Bound program because of small errors made in their applications 
that could easily be corrected if they were allowed to do so.
    As the Secretary of Education, it is your job to put the needs of 
students above bureaucratic red tape. That is why I urge you swiftly 
reverse the Department's decision and allow the applications to be 
fairly considered. It is my understanding that the Department has made 
exceptions in the past under such circumstances. I urge you to again 
take a commonsense approach and offer these long-standing Upward Bound 
programs the opportunity to apply to continue to serve the students of 
West Virginia.
    Will you commit to immediately reading and scoring the applications 
in accordance with the regulatory criteria applied to all other 
applications submitted in this competition? If not, please provide your 
justification for keeping these valuable West Virginia programs from 
being given the opportunity to serve West Virginia students.
    Answer. I appreciate your concern for the students of West Virginia 
and your interest in the Department's application review process. I, 
too, believe that, whenever possible, we should remove bureaucratic 
barriers to ensuring high quality services and outcomes for children. 
In the instances you identify, the Department noted inconsistencies in 
the budgets proposed by the applicants and the maximum award size for 
those entities. Unlike minor formatting issues, the size of an 
applicant's requested award goes directly to the nature and quality of 
the application itself and is central to the Department's review. I 
appreciate the fact that these issues may have been inadvertent, but 
the sheer volume of applications we receive each year make it 
impractical for the Department to fully review and assess every 
instance in which a proposed budget exceeded the maximum award size and 
make a determination regarding whether the excessive request was 
intentional or the result of an error. Doing so would require vastly 
more Department time and resources and would delay the review and award 
process, creating challenges for the effective implementation of 
projects nationwide. The Department has to proceed under the assumption 
that every applicant intended for the content of their application to 
appear as it does and evaluate the quality of the application on that 
basis.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
         ii-a reductions and state decision-making/cost burden
    Question. The Department of Education's budget puts a significant 
emphasis on the need to return decisionmaking authority to States and 
local school districts. I agree with this point and I commend Senators 
Alexander and Murray for their leadership in fixing the broken No Child 
Left Behind bill and negotiating a new law in its place that does that.
    You've received my home State of Vermont's ESSA plan under this new 
law, which describes among other things the State's intention to use 
the new 3 percent set aside of Title II-A funds for training principals 
and other school leaders in low performing schools. Unfortunately, your 
budget eliminates funding for a Title II-A program they say they need.
    How does that return decisionmaking to States?
    Isn't this simply shifting costs to my State and other States with 
similar ESSA plans?
    Answer. We understand that the ESEA consolidated plans submitted by 
States in early calendar year 2017 reflected existing funding levels 
for authorized programs. However, we believe that the Title II-A 
program generally is spread too thinly across school districts and has 
not resulted in professional development that generates improved 
student academic outcomes. Thus, Title II-A is a lower priority for 
continued funding in a constrained fiscal environment.
    The request recognizes that States and school districts already 
bear primary responsibility, and most of the costs, for recruiting and 
training effective teachers and school leaders, and the Federal 
contribution through Title II-A has limited impact in improving student 
academic outcomes. In addition, other Federal funds, including Title I 
Grants to Local Educational Agencies, may be used for this purpose.
    effect of focus on rural schools and state title i calculations
    Question. A large component of your budget is a new competitive, 
privatization and school choice program. Unfortunately, this ``down 
payment'' on school choice and privatization would mean a cut of about 
$578 million for the vast majority of school districts that do not 
follow your public school choice policy.
    This cut is especially harmful for rural schools that may not 
always be able to implement choice policies based on geography and that 
do not have the capacity to apply for competitive grants. This policy 
therefore represents an enormous cash transfer from small, rural 
schools to school districts large enough and in a populous enough area 
to support school choice models.
    How do you plan to protect rural schools so that they do not 
experience drastic Title I cuts?
    Under your proposal, if no district in the State applies for school 
choice or privatization funding, would that State's share of Title I 
funding then be distributed to other States?
    Answer. A full-year fiscal year 2017 appropriation was not enacted 
at the time the fiscal year 2018 President's Budget request was 
prepared; therefore, the budget request assumed the Administration was 
operating under the continuing resolution (CR) in effect through April 
28, 2017, and the 2017 amounts in the budget request reflected the 
funding levels provided by the CR on annualized basis. Using the fiscal 
year 2017 annualized CR as the baseline, the fiscal year 2018 
President's Budget for Title I Grants to LEAs included level funding 
for the four Title I formulas, for a total of $14.9 billion, as well as 
$1 billion in new funds for the Administration's proposed Furthering 
Options for Children to Unlock Success (FOCUS) grants. Accordingly, the 
Administration did not propose cuts to LEA Title I formula allocations 
based on the annualized CR. The fiscal year 2018 President's Budget 
request gives priority to providing States and LEAs with resources to 
improve outcomes for our most disadvantaged students, including those 
in rural areas. We look forward to working with the Congress on an 
fiscal year 2018 appropriations act that maintains strong support for 
the regular Title I program while also funding the Title I FOCUS 
proposal.
    Under the Administration's proposal, the Department would reserve 
up to $1 billion of Title I funds to make FOCUS grants to LEAs and 
allocate remaining funds to States and LEAs under the Title I formulas. 
State and LEA receipt of Title I formula allocations would not be 
affected by LEA receipt of a FOCUS grant. Also note that LEAs 
participating in the FOCUS initiative would receive additional funds 
only for the expansion of public school choice through open enrollment; 
private school vouchers are not part of the FOCUS proposal.
      justifying adult ed cuts in context of economic development
    Question. The Department of Education's Adult Education program 
provides grants to States to support efforts that help adults gain 
basic educational skills. From strengthening reading, writing, math, 
and English language proficiency, to developing the skills necessary to 
become productive workers in competitive fields, adult education 
programs offer life changing resources for families in need. In 
Vermont, adult learners have gained the opportunity to complete high 
school and enroll in college, even after decades of being out of 
school. Additionally, more adult learners than ever are gaining work 
readiness skills, whether through resume advice or vocational 
mentorship.
    President Trump has promised to build a strong economy and put 
people back to work, but that can only be made a reality for many 
adults through educational opportunities that help strengthen their 
capacity in the workforce. Yet, the Administration proposed a $96 
million reduction to Adult Education in fiscal year 2018 a nearly 20 
percent cut.
    This Administration has stated it is a priority to put Americans 
back to work and strengthen the economy. Adult Education programs 
provide direct services to assist non-traditional students with the 
resources they need to succeed and enter the job market. What is your 
justification for cutting Adult Education programs in your budget 
proposal?
    Answer. The fiscal year 2018 President's Budget request would 
provide significant resources to support adult education while also 
maintaining the fiscal discipline necessary to support the President's 
goal of increasing support for national security and public safety 
without adding to the Federal budget deficit. The Department also is 
closely monitoring program implementation following reauthorization by 
the Workforce Innovation and Opportunity Act (WIOA), and will soon 
launch the independent evaluation of the program required by WIOA. 
Future funding decisions will be informed by the evaluation as well as 
by performance data based on the full implementation of WIOA.
  seog elimination in context of college affordability and low income 
                                students
    Question. The budget proposes to eliminate the Supplemental 
Education Opportunity Grant (SEOG) program, which is currently funded 
at over $700 million. This program provides 1.6 million low-income 
undergraduate students up to $4,000 per year to help finance the 
growing costs of college at more than 3,700 colleges and universities. 
Most SEOG recipients overwhelming low-income: 71 percent of dependent 
undergraduate recipients are from families making less than $30,000 per 
year and 76 percent of independent recipients earn less than $20,000. 
In Vermont, this would result in nearly $7 million loss of aid to low-
income students pursuing higher education.
    The elimination of SEOG is in addition to the other cuts you are 
making to higher education programs including the Federal work study 
program and TRIO and GEAR Up, would make it harder for low-income 
students pay for college.
    With the rising costs of college, shouldn't we be funding grants 
like SEOG at higher levels to be sure kids from lower income homes can 
afford a college education?
    Do you believe that cost is a barrier for many high school students 
looking to attend college, and do you believe the Department of 
Education has a role to play in improving college affordability?
    Answer. College affordability is a complex issue, and I'm not 
convinced that simply increasing funding will sufficiently address the 
issue. The SEOG program in particular, while ostensibly targeted at 
students from lower income homes, does not serve that population 
effectively since aid is allocated to institutions primarily based on 
previous participation in the program. It is also largely duplicative 
of the Pell Grant program, which more effectively delivers need-based 
aid.
    I do believe cost is a barrier for many high school students 
looking to attend college. Of course, to address the issue of college 
affordability, one needs to understand that cost isn't the only 
barrier. Inadequate college preparation, overly complicated student aid 
programs, and inadequate instructional delivery and finance options may 
also pose barriers for high school students looking to attend college. 
While the Federal Government may not necessarily be the appropriate 
entity to improve all issues related to college affordability, the 
fiscal year 2018 President's Budget request does address several of 
these issues through simplification of student loan repayment, 
expediting debt relief to undergraduate borrowers, and supporting year-
round Pell Grants.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee will stand in recess until 
10:00 a.m. on Thursday, June the 15th.
    [Whereupon, at 12:26 p.m., Tuesday, June 6, the 
subcommittee was recessed, to reconvene at 10:00 a.m., 
Thursday, June 15.]
</pre></body></html>
